<html>
<title> - THE BUDGET AND POLICY PROPOSALS OF THE U.S. DEPARTMENT OF EDUCATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   THE BUDGET AND POLICY PROPOSALS OF
                    THE U.S. DEPARTMENT OF EDUCATION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 9, 2011

                               __________

                            Serial No. 112-9

                               __________

  Printed for the use of the Committee on Education and the Workforce



                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
64-795                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 9, 2011....................................     1

Statement of Members:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina, questions submitted for the record    59
    Hanna, Hon. Richard L., a Representative in Congress from the 
      State of New York, questions submitted for the record......    60
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
        Questions submitted for the record.......................    56
    McCarthy, Hon. Carolyn, a Representative in Congress from the 
      State of New York, questions submitted for the record......    61
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6
    Noem, Hon. Kristi L., a Representative in Congress from the 
      State of South Dakota, questions submitted for the record..    60
    Payne, Hon. Donald M., a Representative in Congress from the 
      State of New Jersey, submission for the record:
        Towns, Hon. Edolphus, a Representative in Congress from 
          the State of New York, prepared statement of...........     7
    Petri, Hon. Thomas E., a Representative in Congress from the 
      State of Wisconsin, questions submitted for the record.....    58
    Rokita, Hon. Todd, a Representative in Congress from the 
      State of Indiana, questions submitted for the record.......    60
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, questions submitted for the 
      record.....................................................    60

Statement of Witnesses:
    Duncan, Hon. Arne, Secretary, U.S. Department of Education...     8
        Prepared statement of....................................    12
        Responses to questions submitted.........................    63


  THE BUDGET AND POLICY PROPOSALS OF THE U.S. DEPARTMENT OF EDUCATION

                              ----------                              


                        Wednesday, March 9, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:39 p.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, McKeon, Biggert, 
Platts, Foxx, Hunter, Roe, Thompson, Walberg, DesJarlais, 
Hanna, Bucshon, Gowdy, Barletta, Noem, Roby, Heck, Kelly, 
Miller, Kildee, Payne, Andrews, Scott, Woolsey, Hinojosa, 
Tierney, Kucinich, Wu, Holt, Davis, Grijalva, Bishop, Loebsack, 
and Hirono.
    Staff Present: Katherine Bathgate, Press Assistant; James 
Bergeron, Director of Education and Human Services Policy; 
Colette Beyer, Press Secretary--Education; Kirk Boyle, General 
Counsel; Casey Buboltz, Coalitions and Member Services 
Coordinator; Heather Couri, Deputy Director of Education and 
Human Services Policy; Daniela Garcia, Professional Staff 
Member; Ed Gilroy, Director of Workforce Policy; Jimmy Hopper, 
Legislative Assistant; Amy Raaf Jones, Education Policy Counsel 
and Senior Advisor; Barrett Karr, Staff Director; Brian Melnyk, 
Legislative Assistant; Brian Newell, Press Secretary-Labor; 
Mandy Schaumburg, Education and Human Services Oversight 
Counsel; Alex Sollberger, Communications Director; Linda 
Stevens, Chief Clerk/Assistant to the General Counsel; Alissa 
Strawcutter, Deputy Clerk; Tylease Alli, Minority Hearing 
Clerk; Jody Calemine, Minority Staff Director; John English, 
Minority Presidential Fellow; Jamie Fasteau, Minority Deputy 
Director of Education Policy; Ruth Friedman, Minority Director 
of Education Policy; Brian Levin, Minority New Media Press 
Assistant; Kara Marchione, Minority Senior Education Policy 
Advisor; Megan O'Reilly, Minority General Counsel; Julie 
Peller, Minority Deputy Staff Director; Helen Pajcic, Minority 
Education Policy Advisor; Alexandria Ruiz, Minority 
Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Minority Press Secretary; and Laura 
Schifter, Minority Senior Education and Disability Advisor.
    Chairman Kline. A quorum being present the committee will 
come to order.
    Well, good afternoon to our guests, and welcome back, 
Secretary Duncan, to the Education and the Workforce Committee. 
It is nice to have you back. We realize your time is valuable 
and we appreciate the opportunity to speak with you today 
regarding the President's budget proposal and the current state 
of education in the Nation.
    Our country is facing a historic fiscal crisis. After years 
of neglect and mismanagement, our national debt has exceeded 
$14 trillion and continues to climb at a rapid pace. Despite 
this year's projected budget deficit of $1.6 trillion, the 
administration has put forward a plan for the next decade that 
includes $8.7 trillion in new spending, $1.5 trillion in new 
taxes, and $13 trillion in new debt. Proposing a budget that 
once again spends too much, taxes too much, and borrows too 
much is not the kind of leadership that America deserves.
    I am disappointed to see this lack of leadership in the 
administration's budget proposal for the Department of 
Education which includes a request for $48.8 billion in so-
called ``non-Pell discretionary spending.'' This is a new term 
of phrase for Washington, and it attempts to conceal the true 
costs associated with the proposal. Behind this gimmick lies an 
additional request for $28.6 billion in discretionary spending 
for the Pell Grant program as well as $12.6 billion in 
mandatory costs, a total request of $41.2 billion for the 
program.
    Here is the bottom line. The Department is asking to spend 
nearly $90 billion during the next fiscal year, a 31 percent 
increase in the Department's budget from the time the President 
took office. I shouldn't have to tell anyone here that this 
kind of spending is unsustainable and keeps Pell Grants on the 
path to bankruptcy.
    We have to make tough choices now to ensure this important 
program remains available for the students who need it most. 
Winning in the future is a goal we all share but it can't be 
won through record spending and record debt. It is time we 
change the status quo not only in how we approach our fiscal 
future but also in the way we support our Nation's education 
system.
    It is no secret our current education system is failing. We 
all know the statistics of high school and college dropouts and 
test scores that leave students unprepared to tackle the 
challenges they will confront both in the classroom and in the 
workplace.
    Secretary Duncan, I want to reiterate my appreciation for 
your ongoing efforts to reach across the aisle and across town 
for the betterment of the Nation's classrooms. Although we may 
not see eye to eye on all things, you and I share a belief that 
the current system is broken and is in desperate need of 
repair.
    As we continue working on reforms that focus on what is 
best for students, parents, teachers, and communities, we must 
first answer a fundamental question: What is the proper role of 
the Federal Government in education?
    Despite the near tripling of overall per-pupil funding 
since 1965, national academic performance has not improved. 
Math and reading scores have largely gone flat, graduation 
rates have stagnated, and researchers have found serious 
shortcomings with many Federal education programs.
    Additionally, the volume of rules and reporting 
requirements associated with Federal spending has skyrocketed. 
During a recent hearing in this committee, we learned from 
school officials and local leaders that the regulatory burden 
created by Federal spending often outweighs any potential 
benefits. The Race to the Top, while well intended, has 
exacerbated this tension, leaving schools and States even more 
frustrated with Federal intervention.
    The Department's activism in higher education is also 
troubling. As you know, Mr. Secretary, a bipartisan coalition 
of Members believes that gainful employment regulations that 
the Department is working on are the wrong approach to 
encouraging accountability and transparency in higher 
education. I strongly urge you, especially in light of last 
month's overwhelming bipartisan vote, to withdraw this job-
destroying proposal.
    The time has come to chart a different course. As we work 
to answer the question about the appropriate role for the 
Federal Government in education, one thing is for sure, it must 
be less costly and less intrusive. Across the Nation, Americans 
have demanded Washington make tough choices and real sacrifices 
to get our budget in order and put our Nation back on the path 
to long-term prosperity. The day of reckoning is here, and the 
time to demonstrate the leadership our country desperately 
needs is now.
    I look forward to your testimony, Mr. Secretary, and to 
working with you in the days ahead. I would now like to 
recognize the distinguished senior Democrat on the committee, 
Mr. Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good afternoon to our guests and welcome back, Secretary Duncan, to 
the Education and the Workforce Committee. We realize your time is 
valuable and we appreciate the opportunity to speak with you today 
regarding the president's budget proposal and the current state of 
education in the nation.
    Our country is facing a historic fiscal crisis. After years of 
neglect and mismanagement, our national debt has exceeded $14 trillion 
and continues to climb at a rapid pace.
    Despite this year's projected budget deficit of $1.6 trillion, the 
administration has put forward a plan for the next decade that includes 
$8.7 trillion in new spending, $1.6 trillion in new taxes, and $13 
trillion in new debt. Proposing a budget that once again spends too 
much, taxes too much, and borrows too much is not the kind of 
leadership America deserves.
    I am disappointed to see this lack of leadership in the 
administration's budget proposal for the Department of Education, which 
includes a request for $48.8 billion in so-called ``non-Pell 
discretionary spending.'' This is a new turn of phrase for Washington 
that attempts to conceal the true costs associated with this proposal.
    Behind this gimmick lies an additional request for $28.6 billion in 
discretionary spending for the Pell Grant program, as well as $12.6 
billion in mandatory costs--a total request of $41.2 billion for the 
program. Here is the bottom line: the department is asking to spend 
nearly $90 billion during the next fiscal year--a 31 percent increase 
in the department's budget from the time the president took office.
    I shouldn't have to tell you that this kind of spending is 
unsustainable and keeps Pell Grants on the path to bankruptcy. We have 
to make tough choices now to ensure this important program remains 
available for the students who need it most.
    Winning the future is a goal we all share, but it can't be won 
through record spending and record debt. It is time we changed the 
status quo, not only in how we approach our fiscal future, but also in 
the way we support our nation's education system.
    It is no secret our current education system is failing. We all 
know the statistics of high school and college dropouts and test scores 
that leave students unprepared to tackle the challenges they will 
confront both in the classroom and in the workplace.
    Secretary Duncan, I want to reiterate my appreciation of your 
ongoing efforts to reach across the aisle for the betterment of the 
nation's classrooms. Although we may not always see eye to eye, you and 
I share a belief that the current system is broken and in desperate 
need of repair. As we continue to work on reforms that focus on what's 
best for students, parents, teachers, and communities, we must first 
answer a fundamental question: What is the proper role of the federal 
government in education?
    Despite the near tripling of overall per pupil funding since 1965, 
national academic performance has not improved. Math and reading scores 
have largely gone flat, graduation rates have stagnated, and 
researchers have found serious shortcomings with many federal education 
programs.
    Additionally, the volume of rules and reporting requirements 
associated with federal spending has skyrocketed. During a recent 
hearing in this Committee, we learned from school officials and local 
leaders that the regulatory burden created by federal spending often 
outweighs any potential benefits. Race to the Top, while well intended, 
has exacerbated this tension, leaving schools and states even more 
frustrated with federal intervention in our classrooms.
    The department's activism in higher education is also troubling. As 
you know, Mr. Secretary, a bipartisan coalition of members believes the 
gainful employment regulations are the wrong approach to encouraging 
accountability and transparency in higher education. I strongly urge 
you, especially in light of last month's overwhelmingly bipartisan 
vote, to withdraw this job-destroying proposal.
    The time has come to chart a different course. As we work to answer 
the question about the appropriate role for the federal government in 
education, one thing is for sure: it must be less costly and less 
intrusive.
    Across the nation, Americans have demanded Washington make tough 
choices and real sacrifices to get our budget in order and put our 
nation back on the path to long-term prosperity. The day of reckoning 
is here, and the time to demonstrate the leadership our country 
desperately needs is now.
    I look forward to your testimony, Secretary Duncan, and to working 
with you in the days ahead. I would now like to recognize the 
distinguished senior Democratic member, George Miller, for his opening 
remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman. And welcome back, Mr. 
Secretary. This is the fourth time we have had the privilege of 
having you before this committee since you were named Secretary 
of Education. Each time you have told us about the work that 
the Obama administration is doing to help our students succeed 
and our country prosper. You and President Obama have already 
shown us that you are ready to lead, ready to set the bar high, 
and ready to demand the best. This means starting with our 
youngest learners and helping at every step along the way.
    The President's most recent budget makes it clear that 
quality education has to start well before our children enter 
the doors of elementary school. It makes important investments 
in early childhood education because investing in our youngest 
learners is one of the smartest investments we can make. 
Programs like Head Start ensure that children are on the right 
pathway, with a solid foundation for success.
    In addition, the proposed Early Learning Challenge Fund 
would increase the number of low-income children arriving at 
kindergarten with the skills they need to succeed by spurring 
better standards and quality in early learning settings.
    The President has also outlined an ambitious goal to have 
the world's highest college graduation rate by the year 2020. 
To meet that goal, it is imperative that we continue to invest 
in our Nation's college students through Pell Grants and other 
forms of student aid, and we need to encourage colleges and 
States to partner in initiatives to ensure that students not 
only enter but that they graduate from 2-year and 4-year 
institutions. Especially in this economy, we have to keep the 
commitment to students. We used to lead the world in college 
graduates. Now we are shamefully ranking below other 
competitive countries. This can change and it should.
    But before we even begin to have the conversation about 
college, we need to ensure that our students are learning in 
the elementary schools, succeeding in middle school, and 
graduating from high school.
    Secretary Duncan, Chairman Kline and I have been part of 
several of the bipartisan meetings between the House and the 
Senate to discuss the future of the reauthorization of the 
Elementary and Secondary Education Act. These meetings have 
been productive. They have been engaging. And most importantly, 
they have been encouraging that we will be able to work in a 
bipartisan fashion to rewrite No Child Left Behind in this 
session.
    Mr. Secretary, I don't need to remind you of the importance 
of that reauthorization in this year. In fact, I bet you will 
probably be telling us about the importance of the 
reauthorization this year. I think it is critical. I think as 
we have listened to the hearings that the chairman and the 
committee have put together over the last several weeks, it is 
becoming clearer and clearer that this law is no longer 
sufficient to fully engage local communities, students, and 
families in the future of their education; that it is too 
burdensome and it is outdated in a number of ways.
    Every witness we have had has been committed to making sure 
that poor minority children are given the full opportunity of a 
first-class education. But many of the ways that we measure 
that today do not reflect what is going on in many of the 
communities across the country. And we all know the statistics. 
We rank 25th in math, 14th in reading, and 17th in science 
among the industrialized nations.
    The most recent NAEP scores found that only 21 percent of 
our high school seniors performed at or above proficient 
levels. That is why we need the authorization. We have got to 
change those outcomes. We also know that employers are 
demanding a more qualified workforce than is currently 
available. Our children deserve more, and our country deserves 
more. Inaction is one of the biggest threats to the future of 
this country, to our economic stability, and to our global 
competitiveness. We can't be sitting on our hands. It is time 
for the kind of change that you and the President have 
outlined.
    The U.S. has not fallen in international rankings because 
we have gotten worse. We have fallen behind because we have 
stagnated while other countries have accelerated. Our top 10 
percent of students are able to compete internationally, while 
poor or minority students have been allowed to fall flat. If we 
don't hold our schools accountable for all of these children in 
our classrooms, we will fail in those rankings and as a 
society. There is no excuse for letting this continue in a 
country as great as ours.
    It is time that we decide that, as a Nation, we can no 
longer afford to stay just average. We can't afford to lose a 
generation of children because our best intentions don't work 
as well as they should have. We need a change, and our Federal 
education policy isn't a mystery to most people. We have to 
update the law and respond to the student and national needs 
through college- and career-ready standards. We need to 
modernize teaching and the learning workforce and recognize the 
teachers and leaders as the professionals that they are. We 
need to reevaluate the Federal role in education, as we 
discussed last week. We need to maintain accountability, but we 
must provide States and local districts more flexibility in how 
they appropriately address those needs and achieve those 
outcomes.
    I know that we can get this right. Our students can't 
afford to wait any longer, and I look forward to hearing you. 
And thank you for taking your time to come and brief the 
committee.
    Chairman Kline. I thank the gentleman.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    And welcome back, Mr. Secretary.
    This is the fourth time we've had the privilege of having you 
before this Committee since you were named Secretary of Education.
    Each time, you've told us about the work the Obama administration 
is doing to help our students succeed and our country prosper.
    You and President Obama have already shown us you are ready to 
lead, ready to set the bar high and ready to demand the best.
    This means starting with our youngest learners and helping at every 
step along the way.
    The President's most recent budget makes it very clear that quality 
education has to start well before our children enter the doors of 
elementary school.
    It makes important investments in early childhood education because 
investing in our youngest learners is one of the smartest investments 
we can make.
    Programs like Head Start ensure our children are on the right 
pathway with a solid foundation for success.
    In addition, the proposed Early Learning Challenge Fund would 
increase the number of low-income children arriving at kindergarten 
with the skills they need to succeed by spurring better standards and 
quality in early learning settings.
    The President has also outlined an ambitious goal to have the 
world's highest college graduation rate by the year 2020.
    To meet this goal, it is imperative that we continue to invest in 
our nation's college students through Pell grants and other forms of 
student aid.
    And we need to encourage colleges and states to partner in 
initiatives to ensure that students not only enter, but graduate from 
college.
    Especially in this economy, we have to keep this commitment to 
students. We used to lead the world in college graduates, now we're 
shamefully ranking below other competitive countries.
    This can change and it should.
    But before we can even begin to have a conversation about college, 
we have to ensure our students are learning in elementary school, 
succeeding in middle school and graduating high school.
    Secretary Duncan, Chairman Kline and I have all been part of 
several Big 8 meetings with our colleagues from the Senate about the 
future of the reauthorization of the Elementary and Secondary Education 
Act.
    These meetings have been productive. They've been engaging. And 
most importantly, they've been encouraging that we will be able to work 
in a bipartisan way to rewrite the education law in this country.
    Mr. Secretary, I don't need to remind you how important it is that 
we get to the ESEA reauthorization this year. In fact, I bet you'll be 
telling us about that very soon.
    We all know the statistics by now.
    We rank 25th in math, 14th in reading and 17th in science among 
other industrialized countries.
    The most recent NAEP results found only 21 percent of high school 
seniors performed at or above the proficient level.
    We also know that employers are demanding a more qualified 
workforce than is available.
    Our children deserve more. Our country deserves more.
    Inaction here is one of the biggest threats to the future of this 
country, to our economic stability and our global competitiveness. We 
can't be sitting on our hands.
    It is time for real change.
    The U.S. has not fallen in international rankings because we have 
gotten worse--we've fallen behind because we have stagnated while other 
countries have accelerated.
    Our top 10 percent of students are able to compete internationally 
while poor and minority students have been allowed to fall flat.
    If we don't hold our schools accountable for ALL the children in 
their classrooms, we fail.
    There are no excuses for letting this continue in a country as 
great as ours.
    It is time we decide as a nation that we can no longer afford to 
stay just average.
    We can't afford to lose a generation of children because our best 
intentions didn't work as well as they should have.
    What needs to change in our federal education policy isn't a 
mystery.
    We have to update the law to respond to student and national needs 
through college and career-ready standards.
    We need to modernize the teaching and learning workforce and 
recognize teachers and leaders as the professionals they are.
    And we need to reevaluate the federal role in education, as we 
discussed last week, we must maintain accountability, but provide 
states and districts more flexibility where appropriate.
    I know we can get this right. Our students can't afford for us to 
wait any longer.
    I look forward to hearing from you, Mr. Secretary, about how we can 
get this country back on track and what we can do to help students 
succeed.
    I yield back.
                                 ______
                                 
    Chairman Kline. Pursuant to committee rule 7(c), all 
committee members will be permitted to submit written 
statements to be included in the permanent hearing record. 
Without objection, the hearing record will remain open for 14 
days to allow statements, questions for the record, and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    [The statement of Mr. Towns, submitted by Mr. Payne, 
follows:]

Prepared Statement of Hon. Edolphus Towns, a Representative in Congress 
                       From the State of New York

    Mr. Chairman, and Ranking Member Miller, thank you for convening 
today's hearing on the President's Proposed FY12 Budget for the 
Department of Education. Secretary Duncan, thank you so much for 
testifying before the committee today.
    I would like to start by expressing my support for the 
Administration's Education budget request. The President's proposed 
budget reflects the need to address the serious deficit facing our 
country without completely gutting vital programs that provide for the 
instruction of our children. In addition to programs designed to ensure 
quality education for all young students, the proposed FY12 budget 
would expand the Pell Grant program over the next 10 years, giving 
qualified undergraduate and graduate students financial help to seek a 
degree. The FY 12 budget would improve the way we approach education in 
a number of other ways. An additional $1.35 billion is set aside for 
Race to the Top awards for deserving state and local school districts. 
The proposed budget ensures $900 million is provided for the important 
task of helping States and local education agencies turn around their 
5,000 lowest-performing schools over the next 5 years through the 
School Turnaround Grants program. The Head Start program would receive 
$8.1 billion, which is an $866 million increase over last year's 
budget. This would allow programs across the country to continue to 
provide services that will allow for 967,000 low-income children to 
reach their full potential in their education.
    However, I am deeply discouraged to see that despite the 
improvement in funding for the Pell Grant program, the cuts proposed to 
the year-round Pell program drastically change the educational 
experience for our nation's students. The budget proposes an increase 
of $43.9 billion in new mandatory grant funding over the next ten 
years, however, year-round Pell grants are proposed to be eliminated to 
pay for this increase. This will result in Pell students not having the 
option to take summer courses. In addition, the grant would be paid for 
by eliminating the Stafford loan subsidy for graduate students. Under 
current law, the government pays the interest on Stafford loans while 
graduate students are pursuing their education. We should be promoting 
policies that encourage students to pursue higher learning, rather than 
penalizing them for doing so.
    Rather than propose cuts that would add financial burden to already 
needy students, we should be working together to ensure that those who 
seek a higher education can feel secure in knowing that we are going to 
make college more affordable and attainable for all.
    Thank you, Mr. Chairman. I yield the balance of my time.
                                 ______
                                 
    Chairman Kline. Before I introduce very briefly somebody 
who to this committee really needs no introduction, I just want 
to make an administrative announcement. The Secretary has a 
hard stop time at 5 o'clock, so I would encourage my colleagues 
to abide by the 5-minute rule as we go through. We will, of 
course, be affording the Secretary as much time as he needs to 
give his testimony and then try to keep it moving so all 
members have a chance to ask the Secretary questions.
    The Honorable Arne Duncan is the current U.S. Secretary of 
Education, having been confirmed by the U.S. Senate in January 
of 2009. Prior to his appointment as Secretary of Education Mr. 
Duncan served as the chief executive officer of the Chicago 
Public Schools from June 2001 through December 2008, becoming 
the longest-serving big-city education superintendent in the 
country. And congratulations to you, sir.
    As CEO, Mr. Duncan was widely credited for pursuing an 
aggressive educational reform agenda that included opening more 
than 100 new schools, expanding after-school and summer 
learning programs, and closing down underperforming schools. 
And your biography goes on and on. But I think every member of 
this committee knows this. So just let me say, Mr. Secretary, 
you are now recognized and welcome again.

           STATEMENT OF HON. ARNE DUNCAN, SECRETARY,
                  U.S. DEPARTMENT OF EDUCATION

    Secretary Duncan. Thank you so much, Chairman Kline, 
Ranking Member Miller, and members of the committee. Thank you 
so much for this opportunity to come before you again and talk 
about President Obama's education agenda.
    Last week I spoke before the Senate Budget Committee and 
emphasized our administration's dual commitments to reduce 
spending and to be more efficient, while investing in education 
to secure our future. These investments spanned every grade 
from early learning to Pell Grants and they are reflected in my 
written statement. I expect they will be vigorously debated and 
discussed in the coming months as Congress works to pass a 
budget. I am happy to discuss those issues here today.
    Before I do, however, I want to speak to the policy changes 
we must make in order to strengthen American K-12 education. A 
year ago, we released a 41-page blueprint for rewriting the 
Elementary and Secondary Education Act. Most of you may be 
familiar with the core elements of our proposal, so I will be 
brief and then open it up to our conversation.
    Our goal is to create a law that is defined by three simple 
words: fair, flexible, and focused. We say ``fair,'' we mean a 
system of accountability based on individual student growth, 
one that recognizes and rewards success and holds all of us 
accountable for the quality of education we provide to every 
single student in the Nation. This is a sea change from the 
current law which simply allows every State to set an arbitrary 
bar for proficiency, and measures only whether students are 
above or below that bar. We don't know how much students learn 
each year. We don't know what they need to do to get over that 
bar. And we can't recognize and reward the great teachers and 
principals that are beating the odds every single day.
    Current law also sets annual targets for proficiency and 
mandates that every student meet those goals by 2014. Today 
almost 40 percent of America's schools are not meeting those 
goals. And as we approach the 2014 deadline, that number will 
rise steeply.
    In fact, we did an analysis which shows that next year, 
based upon this year's results, the tests the students are 
taking over the next couple of months, next year, the number of 
schools not meeting their goals under NCLB could double to 80 
percent, even if we assume that all schools will gain as much 
as the top quartile of schools in their respective States.
    Let me say that one more time. Four out of five schools in 
America would not meet their goals under NCLB by next year. 
This is why we have to fix the law now. No one can support 
inaction and maintain status quo. I do not think that all of 
these schools are failing by any means. They have challenges; 
big challenges, small challenges. And they need to meet them 
because every single child counts. But current law simply does 
not distinguish between them. And we have to do that. We need 
to distinguish that if we are going to address the real 
problems.
    The consequences under the current law are very clear. 
States and districts all across America will have to intervene 
in more and more schools each year, implementing the exact same 
interventions regardless of those schools' or those students' 
individual needs. If that happens, the schools with the widest 
gaps and the lowest achievement won't get the help and 
attention they need. And that worries me deeply because the 
whole point of the law is to make sure that the schools and 
students most at risk are served.
    We have to be thoughtful in our approach. NCLB's 
requirement to disaggregate student achievement data for low-
income students, minority students, English language learners, 
and students with disabilities completely changed the national 
conversation. And we can no longer look the other way as some 
groups of students languish while others thrive.
    The law reflects our fundamental aspiration that every 
single child is expected to learn, to achieve, and to succeed. 
However, we give NCLB less credit for actually helping to close 
achievement gaps. By mandating and prescribing one-size-fits-
all solutions, NCLB took away the ability of local and State 
educators to tailor solutions to the unique needs of their 
students, and that is fundamentally flawed.
    This law is fundamentally broken and we need to fix it, and 
we need to fix it this year. It has created dozens of ways for 
schools to fail and very few ways to help them succeed. We want 
to get out of the business of labeling schools as failures and 
create a new law that is fair, flexible, and focused on the 
schools and the students most at risk. We need a commonsense 
law that strikes the right balance between accountability and 
flexibility. And the basic problem is that NCLB got that 
backwards. Instead of being tight on goals and loose on means 
of achieving them, the law is loose on goals but tight on 
means. From a management standpoint, that simply doesn't make 
sense.
    We need to flip that, and States are already leading us in 
the right direction. First of all, many States are developing 
robust data systems so they can measure student growth. Second 
and more important, 41 States plus D.C. have voluntarily 
adopted college- and career-ready standards, so the bar has 
been raised.
    States appreciate the flexibility and the support we are 
providing in other ways as well. At their request, last week we 
gave all Governors a document explaining how they can shift 
around Federal funds to better meet their local needs. We also 
gave them a second document, showing how they can be more 
productive and efficient as they work to balance their budgets 
in these very tough economic times. We all need to be sharing 
good ideas and best practices to do more with less. But they 
are also begging us for more flexibility in getting their 
students over the bar set by NCLB, which is why we need to fix 
the law.
    Under our proposal, when schools and districts and States 
make gains, we will reward them with resources and flexibility. 
But if schools boost overall proficiency while leaving one 
subgroup behind, that is simply not good enough. Every school, 
every single school must ensure that every child is being 
served. Schools must serve annual targets for improvement for 
all students and subgroups. And if achievement gaps are not 
closing each year, districts and States must intervene. We will 
challenge them not only around achievement gaps but also on 
their use of Title I dollars. And we will further challenge 
them on the distribution of effective teachers and 
comparability in funding. Finally, if schools persistently 
underperform, we will target them for much more serious 
interventions.
    And that gets to the third word I mentioned at the 
beginning, which is ``focus.'' We don't have unlimited 
resources. We must focus on the schools, communities, and the 
students most at risk.
    Congress has been generous with us in recent years. And by 
providing $4 billion for school improvement grants, that money 
will help fix thousands of our Nation's lowest performing 
schools, those dropout factories that we cannot just sit idly 
by and watch.
    President Obama and I visited one of these schools last 
month in Miami, accompanied by former Florida Governor Jeb 
Bush. The school has new leadership, some new staff, a new 
curriculum, more time for learning, and best of all, a new 
climate of energy, hope, and determination that is already 
generating measurable progress in the classroom. I can't tell 
you how inspiring this visit was. Both teachers and students 
were so thankful for the opportunity to gather to create a much 
better learning environment. And today across the country, 
nearly 1,000 schools are undergoing similar transformations. 
And each year we will add more.
    This is tough work, controversial work, tough medicine. But 
when schools are not making progress, we have a moral 
obligation to demand dramatic change. Children cannot wait for 
an education. They can't take a year or two off while 
administrators tinker around the edges.
    Now, nothing about our proposal for reauthorization alters 
our historic commitment to serve populations that need extra 
support or hold schools accountable for the academic success of 
these students. That includes low-income children, students 
with disabilities, English language learners, rural students, 
and others.
    Our commitment to help the children who need the most 
support is stronger than ever. As our proposed 2012 budget 
shows, 84 percent of our funding is for formula programs like 
Title I and IDEA. In fact, we want to increase funding for both 
of these programs. But formula funding alone won't move the 
needle fast enough. We also need to provide some incentives to 
States and districts and local communities to embrace new bold 
reforms.
    As you know, Congress gave us a unique opportunity to 
develop a State-level grant competition called Race to the Top. 
This program accounts for less than 1 percent of annual 
spending on K-12 education in America but it has helped unleash 
more creativity, more change, more collaboration, more positive 
and productive activity at the State and the local level than 
any other program in history, and has done so by avoiding one-
size-fits-all mandates and providing flexible funding that 
gives State and local leaders the opportunity to develop 
comprehensive solutions on their own.
    And I want to work with you and with local leaders to 
design the next round of this program, a district-level 
competition that includes a carve-out for rural school 
districts. Rural districts are absolutely willing to compete 
but they need a level playing field. And it is unfair to ask 
small districts, where school administrators are often doing 
double and even triple duty as coaches and bus drivers, to 
compete directly with large districts who might have full-time 
grant writers.
    I fully understand that competitive programs serve only a 
share of the student population, but the real measure of 
competitive programs like Race to the Top is not the direct 
impact they have on students but rather the indirect impact 
they have on the entire system. A dozen States received funding 
from us, but 41 States raised standards. And that is a game-
changing victory for the country and long term for our 
country's economy.
    Our education system was designed more than a century ago 
and it has simply not changed with the times. It must change to 
prepare our students for the new century. We must try new 
approaches of teaching, new ways of using technology, and 
better systems of monitoring progress. The only way to get 
better results is by replacing what doesn't work with what 
does. Competition can help drive innovation and take the best 
ideas from around the country to scale. And we must also have 
the will to change right here in Washington. I have said 
repeatedly, our Department must continue to support and 
encourage innovation, not force compliance.
    And we must continue to work together in a bipartisan way 
to rewrite the law. This requires real courage to move beyond 
our differences and to find common ground around basic 
principles of fairness and flexibility.
    We are more than halfway through another school year. Let's 
challenge ourselves to give States and districts and 
communities the support and the flexibility they need before 
the start of the next school year, and let's do it with 
everyone at the table. Reform is most effective and sustainable 
when developed collaboratively with our teachers and the 
leaders. Race to the Top proved it.
    Our Denver conference last month was another step forward, 
and rewriting ESEA can further strengthen the relationship 
between policymakers and practitioners in our Nation's 
classrooms. At the end of the day, the best way to make a 
difference in the classroom is with effective, well-supported 
teachers. The best way to achieve that is with stronger 
recruiting and training programs linked to rigorous teacher and 
principal evaluation systems. That work is underway all across 
America. And if we do our part by fixing the law, we can 
accelerate that progress.
    The urgency for change has never been greater. The plain 
fact is that America is stagnating while the rest of the world 
moves ahead of us. The plain fact is that to lead in a new 
century, we have no choice in this matter but to invest in 
education. No other issue is more critical to our economy, to 
our future, and to our way of life.
    And so I look forward to working with you in the coming 
months to meet this challenge and to renew our commitment to 
our children and their future by building the education system 
they desperately need and deserve. Thank you so much. I am now 
happy to take your questions.
    Chairman Kline. Thank you very much, Mr. Secretary. Thanks 
again for being with us, as the ranking member said, for the 
fourth time. Thanks again for your willingness to work with us 
in a bipartisan way. And thanks for your testimony.
    [The statement of Secretary Duncan follows:]

           Prepared Statement of Hon. Arne Duncan, Secretary,
                      U.S. Department of Education

    Chairman Kline, Ranking Member Miller, and Members of the 
Committee: Thank you for this opportunity to appear before this 
Committee to discuss President Obama's education policy proposals and 
the fiscal year 2012 education budget.
    Our policies, including those embodied in the President's budget, 
reflect our Administration's dual commitments to reducing spending and 
becoming more efficient while investing to secure our future--and 
education is at the very top of the list of investments we must make.
    Education is the foundation of a free and democratic society. It is 
the blanket of security for the middle class and the path out of 
poverty for millions of Americans who continue to struggle because of 
the changing economy.
    Education gives immigrants and their children the chance to be 
productive citizens and contribute to our collective wealth.
    Education prepares students with disabilities to be full 
participants in our economy and our communities.
    Education enables us--as a country--to compete in a global economy 
with other countries that are heavily investing in the preparation of 
the next generation of innovators and leaders in business.
    Education is not just an economic security issue--it's a national 
security issue--which is why retired General Colin Powell, for example, 
devotes so much of his energy to education. Last year, military leaders 
stood with me and called for more education funding because only one in 
four young high school graduates today is educationally and physically 
equipped to serve their country.
    Today, all across America, people are meeting the challenge of 
improving education in many different ways--from creating high-quality 
early learning programs, to raising standards, improving teacher 
quality, and aggressively closing achievement gaps and increasing high 
school and college completion.
    While the federal government contributes less than 10 percent of K-
12 funding nationally, our dollars play a critical role in promoting 
excellence and equity, protecting children at risk, and, more recently, 
supporting significant educational reform at the state and local 
levels.
    In terms of reform, the last Administration focused on, among other 
areas, charter schools and performance pay--two programs that 
benefitted my school system when I was CEO of the Chicago Public 
Schools.
    Our Administration has used competitive dollars to incentivize 
state and local educators to think and act differently. Our 
Administration's Race to the Top program has prompted governors and 
educators to jointly embrace bold systematic reforms.
    For example, 41 states and the District of Columbia have adopted 
higher standards and several states have passed new laws and policies 
on teacher evaluation. Several states have altered their charter school 
laws and policies to foster the creation of new learning models, all 
for the purpose of increasing student achievement.
    Race to the Top also prompted us to rethink the federal role. As I 
said, the department was established to promote excellence and equity 
in education and protect students most at risk. To that end, we have 
steadily boosted our commitment to formula programs like Title I and 
the Individuals with Disabilities Education Act, or IDEA.
    The federal government also has a long history of supporting higher 
education--from the land-grant colleges in the 19th century to the GI 
Bill and the Pell Grant program in the 20th. This budget would further 
increase our investments in higher education with further innovation, 
incentive and performance-funding for both student lending programs and 
incentives designed to foster reforms and innovations necessary to 
increase college completion.
    Today, our most critical role in pre-K through 12 education is in 
supporting reform at the state and local level by providing flexibility 
and incentives--while holding states and districts accountable in a 
fair, honest, and transparent way. In fulfilling this role, we must 
strike the right balance--providing as much freedom as possible to 
schools while ensuring that all children receive the services and 
supports they need to leave school prepared for college and career.
    Last week, at the request of Governor and National Governors 
Association Chair Christine Gregoire, we shared a series of documents 
with our nation's governors outlining ways they can save costs, cut 
spending, and use existing flexibilities under federal law in ways that 
will best serve our students. We're doing what we can to get out of the 
way of governors and local leaders who know what's best for their 
students, but to truly make an impact, we need to fix the No Child Left 
Behind Act (NCLB).
    I have spent two years traveling the country, visiting many of your 
states and districts and talking with teachers and parents. As you all 
know, there is a lot of dissatisfaction with NCLB. Many people believe 
that the law goes too far with sanctions--mislabeling schools and 
issuing one-size-fits-all mandates tied to a chain of punitive 
sanctions that haven't been working.
    NCLB was right to shine a bright light on achievement gaps and set 
a clear expectation that all students must learn to the same standards. 
This has led to great progress in schools focusing more on the needs of 
English learners and students with disabilities and other at-risk 
students. But we need to raise the bar by ensuring that every student 
graduates from high school ready for college and a career. We need to 
move away from punitive measures based on a single test on a single 
day, and toward recognizing and rewarding schools and teachers based on 
growth and progress. And we need to give states and districts much more 
flexibility, while focusing interventions where they are most needed.
    To ensure an excellent education for every child, our focus must 
change from labeling and punishing schools to preparing and supporting 
effective teachers and school leaders. We need rigorous state and local 
definitions of teacher effectiveness that consider student growth in 
significant part as well as other measures of instructional practice 
and better teacher evaluation systems that inform professional 
development and practice. And we need to reorient decision-making in 
our schools around the simple question of how we ensure that every 
student has an effective, well-supported teacher.
    That's why we are asking Congress to fix NCLB--and I look forward 
to working with you in the months ahead to do that. We're now halfway 
through another school year, and we have an obligation to ensure that 
when the next school year begins, we've done our job to give states and 
communities the flexibility they need.
    Despite these concerns, as I travel the country I also hear a deep 
appreciation for the federal commitment to children and learning. 
Parents and educators are grateful for our support of science, 
technology, engineering and mathematics (collectively known as STEM) 
subjects. Americans know that--even in challenging fiscal times like 
these--we must prepare our young people to compete in tomorrow's 
economy.
    They know that--even as states face greater financial pressure than 
at any time in recent history--we cannot put our children at risk--so 
our budget reflects these aspirations and commitments.
    Overall, we are seeking a $2 billion increase in non-Pell spending. 
That includes increases in formula programs like Title I and the IDEA 
while maintaining programs for English Learners and other at-risk 
populations such as rural, migrant, and homeless students.
    We are calling for a new round of Race to the Top funds, with which 
we would make grants directly to school districts rather than states, 
and include a carve-out for rural communities. We want to work with 
State and local leaders, including leaders of rural communities, and 
with the members of this committee as we design this program, as well 
as the Investing in Innovation fund, or i3, in a way that reflects 
local needs.
    At their core, Race to the Top and i3 are about spurring reform by 
rewarding success and giving flexible funding to implement good ideas. 
Especially in a time of tight budgets, we need to make the most 
effective use of federal funds. Formula funds alone won't drive the 
kind of transformational reform our education system needs--we need to 
combine a strong foundation of formula funding with targeted use of 
competitive grant funds.
    We want to continue to invest in innovation and research. We want 
to support a well-rounded education that includes the arts and foreign 
languages, literacy, STEM, and physical education.
    We want to strengthen the teaching profession in a number of ways 
and work harder to attract top students to pursue teaching careers. We 
want to attract effective teachers into high-poverty schools and hard-
to-staff subject areas and fill shortage areas by supporting teachers 
in obtaining dual certification in special education or English 
language acquisition. Also, we want to help states strengthen their 
early learning systems.
    And we are challenging states to boost college completion. Today, 
more than half of our young people who go to college fail to earn a 
degree. As a nation, we cannot sustain that any longer.
    In the 2010 budget enacted by Congress, we eliminated four programs 
saving $360 million. In our proposed 2012 budget, we propose 
eliminating 13 more programs in order to save another $147 million. 
Together these savings would total more than $500 million annually--
which is helping fund our other priorities.
    Mindful of the paperwork burdens we place on local school 
districts, we are proposing to consolidate 38 separate elementary and 
secondary education programs into 11 funding streams. These common-
sense reforms will make it easier for school districts to focus on 
educating children, rather than bureaucratic compliance. And, as I 
mentioned, we are supporting governors in taking similar steps at the 
state level by providing guidance on how to spend federal funds 
flexibly and cut costs in a way that protects all students.
    We are also proposing to reduce our investment in career and 
technical education (CTE)--not because we don't believe in CTE--but 
because we feel the current program is not getting the results we need. 
We are still seeking a billion dollars for CTE and we are committed to 
working with states to reform these programs to better prepare students 
to meet the needs of the new economy. We look forward to working with 
Congress to strengthen the program and improve its alignment with the 
education reform efforts at the core of our Elementary and Secondary 
Education Act (ESEA) reauthorization proposal, so that the Perkins Act 
is a stronger vehicle for supporting the President's 2020 college 
completion goal and the Department's secondary school agenda.
    This year, we have also identified efficiencies in the student aid 
programs that, coupled with a change in Pell Grant policy, will help 
close a $20 billion shortfall in the Pell Grant program and save $100 
billion over the next decade. Those savings mean that we can protect 
the $5,550 maximum Pell award and help millions of students and their 
families meet rising tuition costs.
    Those savings also mean that we can meet the skyrocketing demand 
for Pell Grants which has risen from less than 4 million grants in the 
year 2000 to a projected 9.6 million grants next year. In the last two 
years alone, an additional 3 million students received Pell grants.
    In my view, this is a good problem to have. We need more young 
people and workers displaced by the recession going to college, and in 
this economy they desperately need our help. But we must do more to 
make sure that they finish college and earn their degrees and 
certificates.
    So, we share with you the responsibility for being efficient and 
smart in how we invest. But we share an even greater responsibility, 
which is to prepare the next generation to lead.
    We share responsibility for the 20 million disadvantaged students 
served by Title I, the nearly 7 million students served by the IDEA, 
the 5 million English language learners, and the 16 million college 
students who benefit from student aid programs.
    In his State of the Union address, the President talked about 
winning the future. To emphasize the point, he announced his budget at 
an elementary school in Baltimore. He believes, as I do, that winning 
the future starts in the classroom.
    He also believes that government spends too much, and he has 
outlined more than a trillion dollars in deficit reduction over the 
next decade. This is an important national conversation that will take 
a great deal of time, energy, and thought.
    It will also take courage--real courage on the part of Congress and 
the Administration. We have to be truthful with each other and truthful 
with the American people about what is and isn't working. We have to 
take the heat together for the cuts we are making.
    To win the future while cutting spending, we must be absolutely 
vigilant about how we invest and how we support reform at the state and 
local levels. We must be responsible in what we say and do, and we need 
to show results.
    Responsibility, reform, and results are the hallmarks of our budget 
and our Administration and the guiding principles as we move forward.
    I want to close by thanking Congress for your support of education 
over the last two years. Because of you, we protected millions of 
children in classrooms all across America from the greatest economic 
crisis since the depression.
    Because of you, we helped states and districts all across America 
advance their reform agendas, raise standards, and challenge the status 
quo. Because of you, a thousand underperforming schools have launched 
dramatic restructuring plans to improve the lives of children--and many 
more are in the process.
    Because of you, there is a greater determination than ever before 
to ensure that all of our children can compete in the global economy. 
And because of you, we face a brighter future and a greater prospect 
that the world we leave behind will be better than the one we 
inherited.
    So on behalf of 80 million students of all ages, their parents and 
our hard-working teachers, principals, and administrators--and all of 
the people of America who value education and recognize its 
importance--I thank you for your leadership.
    And now, I would be happy to take your questions.
                                 ______
                                 
    Chairman Kline. I was pleased to see in your budget an 
elimination of some 13 programs. That is sort of a baby step in 
the right direction, I might say, because last week the GAO 
released a report that found there was widespread duplication, 
including around 80 Federal programs focused on improving 
teacher quality. So even though your budget request 
consolidates some of this, my question is: Why didn't you do 
more? Is it something you are still exploring? It just seems to 
me that one of the easiest things that we ought to be able to 
do, you in the administration, us here, is to eliminate much of 
this duplication.
    Secretary Duncan. It is a great point, and we have to 
continue to work across the administration on getting--many of 
these programs aren't actually in our Department--but in others 
we need to work better together. We are absolutely committed to 
doing that. We consolidated 38 programs to 11, which is a 
pretty significant step in the right direction. As you said, we 
eliminated about 13 programs and we need to continue to do this 
hard work every single year.
    Chairman Kline. I look forward to continuing to work with 
you. I can assure you that we are looking at that here and we 
will continue to do so. It is very important that you provide 
the leadership and the first step in administration in doing 
that. We will do our part but I appreciate that you made the 
first step. I was always hoping for a bigger step, and I hope 
that we will get to one of those.
    I have got a question for the record. I don't expect you to 
answer it here now. But I am concerned that there has been some 
information that has come to light, lately been reported much 
in the news about the gainful employment rules and some short-
sellers and some contact with the Department. I am not going to 
put you on the spot here now, but we will be looking for an 
answer for the record. We will reach you later.
    Chairman Kline. One of my favorite subjects, and that is 
funding for individuals with disabilities, Special Education. 
You may recall that last year, the Department came forward with 
a $250 million increase that was labeled by one of my 
colleagues as ``budget dust,'' a view that I hardly concurred 
in. And this year, you have asked for $200 million, even less. 
And I will freely admit that this is a bipartisan problem where 
we say, Republicans and Democrats, that we need to do something 
to come closer to or to meet the Federal Government's--what I 
think is obligation of providing 40 percent of that extra 
funding. We are at about 17 percent now. So believe me, I know 
that fiscal times are hard, but you were able to find $900 
million more for Race to the Top and $350 million more for the 
Investing in Innovation Fund.
    And it just seems to me that our priorities aren't right. 
We had an amendment on the floor during the continuing 
resolution to restore money to Special Ed which I thought was 
mistakenly taken out. We didn't all agree for the pay-for, so I 
know that that is hard. But it is where my priority is. And 
again, I appeal to the administration in your budget, in your 
setting priorities, to make that a higher priority. What are 
you thinking about that?
    Secretary Duncan. Yes. You and I first met discussing this.
    Chairman Kline. Very personal.
    Secretary Duncan. And I absolutely appreciate your passion 
on it. Again, it is one I acutely felt in Chicago with an 
unfunded liability there. So we are asking for significant 
increases. There is an additional $50 million on IDEA part C, 
for instance. We would love to do more.
    As you know these are very tough budget times. What I would 
argue to you or ask you to consider is that when we have States 
across the country raising standards and really raising the 
bar, every single child benefits, particularly those children 
where, historically, standards have been dummied down and those 
are students with disabilities. When we are asking to have 
every single high school graduate be college- and career-ready, 
the greatest beneficiaries are those students that historically 
haven't had those kinds of opportunities, students with 
disabilities.
    So both through direct and indirect funding and by changing 
behavior at the State and local level, I am convinced we have a 
much better chance to help every single child fulfill their 
potential regardless of ability or disability.
    Chairman Kline. And I applaud your passion and your 
determination. And it is worthwhile for us to continue the 
discussion. I just know and everybody in this room knows that 
every school would benefit by Special Education funding. Some 
of these other things are controversial, not agreed to by 
everybody. Some benefit, some don't benefit. But schools in 
this country are shifting money to meet the requirements of 
IDEA and increasing tensions among parents and other students. 
And I just would again encourage the Department and the 
administration to take a look again at those priorities. And of 
course we will be doing that as we go forward.
    Secretary Duncan. Thank you.
    I have one more point. This is an important one. The 
conversation is an important one. We are also challenging 
folks, so there are clearly unmet needs, significant unmet 
needs. We recognize that. We realize that.
    On the flip side, we are also challenging folks to think 
very creatively in this area. Let me give you a couple of 
examples. Many students who enter Special Education enter 
because they are labeled learning disabled, LD. Many students 
get labeled that because they weren't taught how to read before 
third grade. So we are pushing folks very, very hard. And these 
often are minority boys, our black and brown boys. We are 
really pushing districts to embrace early literacy, to work 
hard with students who are having those difficulties. And if we 
teach them how to read to keep them out of Special Education--
what is amazing to me, Mr. Chairman, is once a student enters 
Special Education they almost never exit. It stays with them 
for life. If we can do a much better job of preventing students 
from having that label early on--if they have significant 
needs, let's do it.
    The other thing that we are looking at is transportation. 
We have children who are on a bus by themselves at about 
$35,000 a year. It would be much cheaper to buy that family 
three or four cars than to put them on one school bus every 
single year. So we need to increase funding, but we also need 
to really be thoughtful in are we being efficient in the use of 
scarce IDEA dollars.
    Chairman Kline. I am sure in many cases we are not. I 
concur there. But we are so far off. We are really, really far 
off in the funding. I am just asking that you will agree with 
that in terms of priority.
    I am way past my time. I yield back. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Just on the last 
point, I think when I look around California at what some 
school districts are doing in the early screening programs--I 
think it is part C programs, really simple dynamics--we are 
taking children that otherwise, almost out of default, would 
end up in Special Education are not. Some of it is the question 
of visual aids, glasses, what have you, some muscle 
coordination. The L.A. school district is showing a huge amount 
of promise in helping us reduce that.
    Mr. Secretary, as I said in my opening statement, and I 
think you confirmed it in your statement, we really have got to 
get to the reauthorization. When I listened to the last two 
panels in the two hearings that we had in this committee, we 
are now seeing a level of sort of dynamic movement in States 
and in districts, be they rural or be they large urban 
districts across this country, with the use of data that now 
not only allows them to tell the districts and the public how 
the children in those districts are doing, but also now to 
delineate how their teachers are doing, which classes need 
additional assistance, which individuals could use additional 
professional development. And we are really starting to make 
moves now on driving performance-based outcomes that we really 
didn't have the capability to. We speculated about it, and a 
lot of people said that is what they were doing, and it kind of 
turned out that wasn't. But now with robust data systems, we 
really see the level of cooperation between principals and 
superintendents and classroom teachers on a real-time basis and 
being able to get the children in need on a real-time basis as 
opposed to waiting for October of the next year, you know, when 
kids have selected classes and moved to different schools and 
you start all over again.
    It seems to me that we have the ability to move away from 
this. As you said, one test on one day to judge a whole school 
system on that is really not an accurate reflection. Under the 
terms of No Child Left Behind, you really can't reward the work 
of people who made remarkable improvements but will not reach 
AYP the way it has been set up by their State--it may have 
nothing to do with the school, but by the State to do that.
    I would hope that one of the things that comes out of this 
hearing is that we have to move. And I think we now have an 
ability to create a system of data that is transparent and, 
more importantly, understandable to parents and to students and 
to teachers and to the community, that really then calls into 
question what is our role in monitoring and sort of the lever-
pulling that we have done over the last 30 years to really be 
able to back out of some of that; because I think if the data 
is properly collected, if it is properly published, communities 
will stand in on our behalf.
    You know, the best economic driver in the community is a 
good school system. The Real Estate Association will tell you 
what the first question is families ask: What district is this 
home in?
    So I think we have a chance to provide some substitution 
for what has been, you know, a tough Federal role for good 
reason. There were a lot of kids who were invisible. They are 
no longer invisible and they are not going to go back to being 
invisible. So I would just hope that we could figure out how we 
get the train on the tracks here, because I think there are 
very substantial improvements that could be made and really 
allow the dynamics that we are now seeing taking place in a lot 
of mixed districts across the country on behalf of students and 
their performance and their outcomes.
    Secretary Duncan. I couldn't agree more. And I am hopeful. 
I obviously have extraordinary respect for your long-term 
commitment to this. I have a great working relationship with 
the chairman. The Senate is working very, very hard on this. 
And I think for all the silliness we sometimes see here in 
Washington, this can be the one issue that we come together 
behind and do the right thing for children and for the economy. 
So I am very, very hopeful. Again, I feel the urgency. I want 
to go into the school year with a much, much better law, with 
this law fixed.
    Mr. Miller. Thank you.
    Chairman Kline. I thank the gentleman. Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I have 
several narrow questions I would like permission to submit to 
the Secretary for a written response rather than using up my 
time.
    Chairman Kline. Without objection.
    Mr. Petri. First of all, in my part of the world, a lot of 
citizens are quite surprised to find what a small fraction of 
local K-12 education budgets actually come from the Federal 
Government. It is in the middle single digits in most of the 
districts.
    Secretary Duncan. It is 8 to 10 percent, usually.
    Mr. Petri. Yes. Even a little lower in some of the 
districts. In our State and district, as is all over the 
country, we have our share of poverty, but we have joint school 
districts. And as a result, that kind of moves things towards 
the average, and the money doesn't follow the student. So we 
have a lot of poor kids who aren't getting help from programs 
that are designed normally to help poor students. And the 
districts, as a result, have an extra burden placed on them 
that they don't have the resources to meet.
    Do you have any ideas, or are there things that we could do 
to try to better fund--direct funding better toward the 
students who in fact are poverty students and who have need, 
rather than to the districts in which they may happen to 
reside?
    Secretary Duncan. Well, I think when you have scarce 
resources, as we do, and every district around the country will 
tell you these are the toughest budget times we have had in a 
long time, we have to make sure we are getting a great bang for 
our buck, that we are getting great results. So whether it is 
following the money down to the child, whether it is looking at 
how those investments are being made, we have to ask those 
questions. And whether it is Title I dollars that you are 
referring to, whether it is IDEA dollars that the chairman is 
speaking about, we have to make sure that every single scarce 
taxpayer dollar is having an impact on children.
    Tough budget times are not things you welcome, but it is 
also a time to reevaluate your priorities. And if districts are 
doing things that aren't having an impact, you have to make 
tough cuts. You have to make tough calls to stop doing those 
and put those scarce dollars where they are making a 
difference. So if that money is getting lost in the bureaucracy 
or not really helping poor students be successful academically 
and break cycles of poverty because they are getting a great 
education, we have to challenge that status quo.
    Mr. Petri. Our problem is that the district doesn't qualify 
because it may have 20 percent of kids who are in poverty, but 
it is not getting funding because it doesn't have 70 percent or 
80 percent or the whole district doesn't fit within the 
quality. I think it would be much more equitable to count the 
number of people who qualify, as we do with the school lunch 
program, for example, or things like that and let the money go 
to--not follow the student individually, necessarily--there are 
some problems with that--but go to the district in which they 
reside rather than disqualifying the district if it doesn't 
reach a certain threshold.
    Secretary Duncan. I understand the point. I have got it. 
Thank you.
    Mr. Petri. The other complaint we have is, as you can 
imagine, with a relatively small percentage of dollars coming 
from the Federal Government, in the single digits, the 
stovepiping or siloing of all these different programs really 
means either you can't really effectively utilize many of the 
smaller ones or you lack any flexibility in tailoring the 
dollars to local needs by consolidating them in a way you could 
actually get something done.
    Is there anything we can do to provide low funding 
districts with a little more flexibility? Or somehow allow 
people to manage the resources to actually do a better job?
    Secretary Duncan. Absolutely. And I encourage you to please 
keep pushing us very hard on this. So we talked about 
consolidating 38 programs down to 11. That means a lot less 
stovepiping. It means much more accessible pools of funds, 
funds to districts.
    We met with all the Governors in the past week. We actually 
handed out a document which we can give to you that talks about 
existing flexibility that isn't always used, and then, 
obviously, our whole goal in reauthorizing ESEA is to provide 
much more flexibility than what exists today. So there are a 
number of steps we have taken, are taking in the right 
direction.
    I had great conversations with Governors and local 
superintendents on this. And I think if we can reauthorize 
together, we can take another very dramatic step in that 
direction. And again, for me, the huge trade-off in all of this 
is where we are raising standards. We have seen where we have a 
high bar--I want to hold folks accountable to that bar, but 
give them a lot more room to get there, get out of their 
micromanagement.
    And I think that is the trade-off that you are seeing 
around the country that is the right thing for children and the 
right thing for education. And continue to push us hard to find 
ways to be more flexible, to be more innovative, to be less 
stovepipey. And if folks can spend less time dealing with us in 
the bureaucracy and more time teaching children to read, that 
would be a really good thing.
    Mr. Petri. We have met the enemy and it is us, because we 
have a lot of groups who naturally are concerned that some 
money is set aside for this need or that need, and it has been 
impossible to resist here.
    Chairman Kline. I thank the gentleman. The gentleman's time 
has expired. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Secretary, it is a pleasure to have you here. Currently 
we measure school performance based upon student achievement on 
required State reading and mathematic assessments. What other 
indicators could be used to expand accountability and measure 
student growth? We talk about growth models. Could attendance 
be one of the factors we could measure? Graduation? Aside from 
the number of students involved in attendance and graduation, 
that may have a cumulative effect upon the attitude within that 
school. Could there be other measures in which we can determine 
the progress of a school?
    Secretary Duncan. Absolutely. So I think at the end of the 
day, graduation rates are hugely important. I think all of you 
know now we have about a 25 percent dropout rate in this 
country. That is economically unsustainable and it is morally 
unacceptable. High school dropouts today have no chance, none, 
to get a good paying job to support their family. So we have to 
look at graduation rates.
    Longer term, we have to look at what happens after 
graduation. Are folks going to 2-year community colleges, 4-
year universities, trade, technical vocational training? Are 
they persevering? Were they really ready? I keep saying we have 
to get higher education out of the remediation business. In 
many communities, 30, 40, 50 percent of students who actually 
graduate from high school are taking remedial classes in 
college because they weren't really ready. We were lying to 
them. So looking at perseverance beyond high school is very 
important.
    Attendance rates are what I call a huge leading indicator 
of what is going to happen. If you want to identify high school 
dropouts, look at kindergarten attendance rates. And where you 
have students missing--you know, 90 percent on a test sounds 
good; 90 percent attendance means that student is missing 18 
days on a 180-school-day year. That is a month of school they 
are missing. So if you want to increase the outcomes, you have 
to look at attendance rates.
    We want to put out there, we should ask teachers and ask 
students how they feel about the school. Do they feel 
supported? Is there an adult they can talk to? I think those 
kinds of climate surveys can be a great indicator. There has 
been pretty significant research that where there is a climate 
of trust in schools, you see innovation and creativity. When 
there is a significant distrust amongst administrators and 
staff, students' needs aren't being met. So I think there are 
multiple indicators and we should be looking at them both as 
leading and lagging indicators to better ascertain how schools 
are moving.
    Mr. Kildee. Can we write that into a law so the States will 
have that guidance and be assured that somehow we will let them 
measure those things?
    Secretary Duncan. Well I think we have the flexibility now, 
and I am not sure they should be held accountable for every 
single one of these, but schools that are really smart in terms 
of driving student achievement are looking at discipline 
issues, are looking at truancy, or are looking at those things. 
So we can have a discussion of how it fits into it.
    Just to give one more anecdote, the school we were at 
Friday, Miami Central High School, in its first year of a 
turnaround, so no test scores yet, no new graduating classes, 
but in 1 year discipline problems have gone down 60 percent. 
That is a pretty good leading indicator that that school is 
going in the right direction. There are still huge challenges, 
still a long way to go. But when you have a 60 percent 
reduction in discipline challenges, it makes me very, very 
hopeful about where that school is going.
    Mr. Kildee. Could we assign a certain percentage of how we 
would evaluate that attendance or the graduation, certain 
percentage of their total score to give them some incentive to 
work on that? Because some schools don't do a good job.
    Secretary Duncan. There is a huge variation in these 
things. I am not sure if we should assign a percentage or not. 
But again, getting schools focused on what I call these leading 
indicators--attendance, truancy, discipline issues, trust, 
collaboration--those leading indicators are hugely predictive 
of where schools are going and getting much better focus. 
Again, my point, sharing best practices when folks are doing 
creative things to reduce truancy, to reduce dropouts and keep 
students more engaged, we need to replicate and build upon 
those best practices and reward that. We don't provide any 
rewards now in the current law. That has to change.
    Mr. Kildee. Let me ask you this. Can we address the fact 
that a subgroup may keep a school from achieving AYP without 
neglecting our responsibilities for those students who are in 
the subgroup?
    Secretary Duncan. We can address that. Again, to me, it is 
so important that we take care of every single child. But if 
you have, sometimes literally, one or two children in one 
subgroup who are struggling, let's get them the help they need, 
let's give them the support they need, let's really look at 
what is going on during school, after school, at home. What can 
we do to help those students be successful?
    But with the current law, you have to provide tutoring for 
the whole school. Like in a 1,500 children school, 1,498 might 
be doing pretty well. Let's target those scarce resources on 
the handful of children who need the help. So we can be much 
more thoughtful, have just much greater commonsense sense if we 
fix this law working together.
    Mr. Kildee. I appreciate the answer very much. Thanks a 
lot, Mr. Secretary.
    Chairman Kline. The gentleman's time has expired. Mrs. 
Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. And welcome, 
Secretary Duncan. It is nice to see you again.
    I hope I can make my question short. You have the Race to 
the Top program, and I think that came in where really the 
members of this committee did not really have much to do with 
it. It was kind of started and then presented to us. And I 
think that has bothered some of us. And then the competition 
that a lot of the States went through, and two were chosen and 
then ten were chosen. But it seems to be--and I didn't realize 
that there are so many States that are also adopting a lot of 
those reforms and moving ahead with them, even though they were 
not awarded any funding for it. And particularly, one of them 
was Illinois. And I didn't realize how much in depth that they 
had gone into it and how they were working with it.
    How is that program going to work with the K-12 
reauthorization? Is there going to be kind of a melding? Are we 
going to use the practices, the reforms for Race to the Top?
    Secretary Duncan. So what we are seeing, again, it is so 
important I emphasize that we have heard repeatedly that 
Federal spending is 8 to 10 percent. And for less than 1 
percent of what we spend on K-12, we had 41 States adopt 
college- and career-ready standards. For the first time in this 
country, a child in Massachusetts and a child in Illinois and a 
child in Mississippi are going to be held to the same standard. 
And I can't overemphasize how important that is long term for 
our children and for our country.
    We have 44 States working together in two different 
consortiums on the next generation of assessments. We had about 
3 dozen States remove barriers to innovative schools. We had 
some States--I learned this coming to Washington; I didn't know 
it before. We had some States that had laws on the books that 
make it illegal, that prohibited the linking of student 
achievement and teacher effectiveness. All those laws are gone. 
So the benefits went way beyond the dozen or so States that 
receive money.
    Moving forward, if we are fortunate to receive another 
round of Race to the Top funding, we want to focus on the 
district level. We are seeing dramatic breakthroughs at the 
State level. We want to continue to have districts move in the 
right direction. And that is just one set of resources.
    The Investing in Innovations fund is all about scaling up 
best practices at the local level. We were able to fund about 
49 of those. We had 1,700 applicants from around the country, 
this huge outpouring of creativity. We want to replicate 
Geoffrey Canada's work and the Harlem Children's Zone, the 
community-level Promise Neighborhoods Initiative. So playing at 
the community level, at the district level, and the State 
level, we think we can continue to get these kinds of 
transformational breakthroughs that frankly we haven't seen for 
far too long in this country.
    Mrs. Biggert. Do you think that all the K-12--and the 
reauthorization will involve a lot of that, and I know there 
are also concerns about national standards. Now, you talk about 
coalitions of States. So you are not going to become the 
superintendent of public education, and we are not going to be 
the school board?
    Secretary Duncan. Absolutely not. Zero interest in that. 
And it would be a step in the wrong direction. This is all 
about States voluntarily working together. This has all been 
driven by courageous Governors, Republican, Democratic, 
courageous State school chief officers saying, we are tired of 
lying to children. We are tired of dumbing-down standards.
    And not to take one more second, but this one, 
Congresswoman Biggert, is so important to me personally, 
because you and I come from one of those States that dummies-
down standards. The standards got reduced not because it is 
good for children or good for education, but because it is good 
for politicians. And I am so thankful that Illinois is amongst 
those States that have raised standards and we are going to get 
out of the business of lying to children. We are going to tell 
them the truth in third grade and fifth grade and eighth grade 
and 11th grade. Are they truly college- and career-ready? And 
when I ran the Chicago Public Schools, we frankly stopped 
paying attention to a lot of what the State was doing, because 
we thought it was standing in the way of where we needed to go 
for our children.
    Mrs. Biggert. And just one more quick question and that is 
on the homeless children, which you know I have worked a lot 
on. And I think the definition of ``homeless'' in the education 
agency is so important. And HUD has not quite gotten all of the 
same standards, so that we are seeing so many young, you know, 
from first to sixth, so many of the children are in these 
homeless shelters and are not really getting the education that 
they need.
    Secretary Duncan. You have been a passionate advocate on 
this issue. I appreciate it so much. And as you know, 
unfortunately, the number of homeless students and homeless 
families is rising pretty significantly. I have a tremendous 
working relationship with Secretary Donovan at HUD. He has been 
a great, great partner in a whole host of areas and is doing 
some really creative things. I absolutely promise you to 
continue to work with him on this specific issue.
    Mrs. Biggert. I appreciate it. I yield back.
    Chairman Kline. Thank you very much. Mr. Andrews, you are 
recognized.
    Mr. Andrews. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Welcome back. And thank you for 
your continuing accessibility and openness to ideas. It is very 
much appreciated.
    I share Chairman Kline's opinion that there is a better way 
for us to get to our common goal on gainful employment of 
assuring taxpayers and students that we are getting value for 
the dollar, and urge you to continue working with us, as you 
have. And I am appreciative for that.
    I want to ask you about some questions on No Child Left 
Behind and what I hope is an equally collaborative effort to 
improve that law. Are you in favor of instituting a growth 
model for measuring AYP?
    Secretary Duncan. Absolutely. We have to focus on growth 
and gain. And I am happy to go into some depth about why that 
is important. But that is critically important to moving the 
country in the right direction.
    Mr. Andrews. Okay. I think that is something there is an 
awful lot of common ground on.
    Secondly, on No Child Left Behind, your Department has been 
extremely helpful in calling together leading educators in 
distance learning and online learning, for which we are 
appreciative. I wonder what your thoughts were about including 
on the menu of school improvement options high-quality, duly 
accredited, online learning as one of the options that schools 
could look at when they are in the needs improvement category.
    Secretary Duncan. It is a conversation we can absolutely 
have. It is just interesting; this morning I met with a number 
of the leading tech executives from around the country. And you 
know this as well as I do, that it is so interesting to me that 
this is another area, frankly, where education has lagged. 
Technology has transformed how we do business, it has 
transformed how we interact socially, it is leading to 
democracy around the world. And education, it is touched but is 
not profoundly changed. And I think technology, distance 
learning, engaging students not 6 hours a day, 5 days a week, 
but 24/7.
    The school we were at yesterday with the President and 
Melinda Gates, they are sending home assignments on cell 
phones.
    Mr. Andrews. Actually, the one thing that may get our kids 
to stop looking at their phones all the time. It is a pretty 
good idea.
    Secretary Duncan. So I think we have been far too slow in 
education to learn and get the benefits of engaging students in 
different ways. And I think technology can play a huge role, 
particularly in tough economic times, of getting much better 
results.
    Mr. Andrews. Many of the districts that aren't making AYP 
aren't making it because of deficiencies in Special Education. 
And there are two takes on why that is. The first is the 
schools aren't doing a good enough job in raising the 
achievement of classified kids. The second is the standards are 
really inappropriate for those children. Where would you like 
to see us go on treating Special Education under No Child Left 
Behind?
    Secretary Duncan. Well, let me just say and repeat what I 
said in my statement, is I give the current NCLB law great 
credit for shining a spotlight on English language learners, on 
homeless students, on students with special needs. I think 
those are students who far too often got swept under the rug. 
And this idea of disaggregating data and looking at achievement 
gaps I am laser-like focused on, and we will absolutely 
continue. The bar, historically, far too often was lowered for 
students with special needs. I am all about raising the bar. I 
am all about raising expectations and holding schools, 
districts, States, accountable for much better outcomes for 
young people.
    At the end of the day, it is not about this test score or 
that test score. If you look at unemployment rates for students 
who have special needs, once they leave, they are devastatingly 
high. And this is about having every single child, again 
regardless of ability or disability, have a chance to fulfill 
their potential.
    Mr. Andrews. One of things I worry about is that it can 
actually add to the stigma of a special needs child if a child 
is held to an unrealistic set of expectations. And again, I am 
with you. I want that child to absolutely reach every ounce of 
potential he or she has. But if schools begin to feel like they 
are not hitting AYP because of unrealistic standards on Special 
Ed, I think it actually adds to the stigma for those children, 
which I don't think we want to do.
    Secretary Duncan. Another reason to fix the law.
    Mr. Andrews. Yes. Finally, just very quickly, the chairman 
made reference to the increase in education spending since you 
took over. If you had to guess--and if you want to do it for 
the record, go ahead--what percentage of that increase has gone 
into college scholarships, teachers of reading and math, direct 
services to children and students, and what percentage has been 
overhead?
    Secretary Duncan. I don't have hard numbers. I would just 
say that my general principle is we have to continue to reduce 
overhead at our level, at the State level, at the local level. 
We have to get scarce resources to classrooms. We have to get 
scarce resources to the children in the communities who need 
the most help.
    I think other countries--I have spent a lot of time 
studying the data of higher performing countries, and it is 
fascinating to look at the lessons learned. One of the things 
many of the high-performing countries have done is they have 
done an infinitely better job of closing the achievement gaps, 
of working with disadvantaged and poor children.
    Mr. Andrews. I would just also note that they have done a 
better job at investing more in education than we have in some 
cases. And I thank the chairman and yield back.
    Chairman Kline. I thank the gentleman. Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. Thank you for being here 
today, Mr. Duncan. We appreciate it. I want to ask you a 
question also about expenditures. But before I ask the 
question, I want to say that I hope you will answer the 
question without implying something, as you did a little while 
ago.
    You answered Mrs. Biggert's question, I think, by saying 
you have reduced 38 programs to 11 in the Department. However, 
you failed to mention that you have not cut any spending as a 
result of doing that. You have no savings in reducing those 
departments. You are continuing to spend the same amount of 
money, or even more. So I have related questions.
    Number one, we have spent about $2 trillion in the 
Department of Education I believe since Title I was 
implemented, and yet we have seen reading scores go down. We 
have seen all kinds of scores go down. You can see it on the 
chart there. You see how spending has gone up, and yet we have 
achieved nothing. Do you have a single program in the 
Department of Education that you can point to measurable 
results as a result of spending from the Federal Government? 
Can you prove anything has come out of one dollar of spending 
from the Federal Government?
    Secretary Duncan. Well, I don't think I can prove one 
dollar of spending did this. I can tell the outcomes for 
students with special needs have improved significantly. 
Outcomes for students who are English language learners have 
improved significantly. We are an investor. We are a co-
investor at the State and local level. Again, only 8 to 10 
percent of the money comes from us. Still huge gaps there. 
Still unacceptable gaps. But those have gone in the right 
direction.
    So I think we have to continue to invest--your initial 
point is absolutely right. At a time when the President is 
asking to flat line domestic spending at a very tough budget 
time, he is asking for a $2 billion increase in education 
spending. And he fundamentally believes, and I absolutely share 
the belief, that we have to invest, we have to educate our way 
to a better economy and better early childhood education, K-12 
reform, more access to Pell grants.
    Ms. Foxx. Let me stop you, though. Tell me where you have 
had success that justifies that--other than in special needs. 
You have pointed that out, but can you point to Federal dollars 
creating the success? That is what I am asking.
    Secretary Duncan. Again, we don't just fund any one program 
ourselves. We co-invest with States and local districts. But 
there are lots of places--not just special needs, but Title I 
schools where you are seeing remarkable results. I can point 
you to hundreds and hundreds of schools that are 99 percent 
poor, 99 percent minority, where 95 percent of young people are 
graduating and going to college, preparing to be successful. 
And our resources are helping to create those opportunities. 
Absolutely.
    Ms. Foxx. I will wait to get some specific information from 
you. Thank you.
    Chairman Kline. The gentlelady yields back. Ms. Woolsey, 
you are recognized.
    Ms. Woolsey. Mr. Secretary, can you give us a little bit 
more. I have two subjects I am going to try--2-1/2 and 2-1/2 
minutes on each. Is there more detail you can provide us 
regarding rewriting of ESEA and how we are going to fund 
through State and local education agencies the proposed 
effective teaching and learning for a well-rounded education 
program? I am specifically interested in core subjects like 
music and arts and worried that they will be grouped with other 
non-tested subjects and hoping that each subject will get their 
own share of Federal funds so that schools will actually have 
an incentive to educate the whole child.
    Secretary Duncan. Great question. And it is arguably the 
biggest complaint I have heard as I have traveled the country 
from students themselves and parents and teachers, is a 
narrowing of the curriculum under NCLB. And I have heard it 
urban, rural, suburban, you name it. So we actually want to 
invest about a billion dollars behind what we call a well-
rounded education. And I think reading and math are 
fundamental, are foundational. But science, social studies, 
history, foreign language, environmental literacy, financial 
literacy, dance, drama, art, music, physical education, art 
students desperately need and deserve a well-rounded 
curriculum, well-rounded education and we want to put a billion 
dollars behind that.
    And let me just say one more thing. To me it is so 
important that it not happen just in high school, but it 
happens as first and second and third graders. So our students 
start to develop their sense of self esteem, they start to 
figure out what their passions are. And, if we are serious 
about reducing dropout rates and having many more students be 
successful and be engaged and closing the achievement gap, we 
have to do it through a well-rounded education.
    Ms. Woolsey. That is good to hear. Second subject. I would 
like to talk about--and I am really pleased that in the 
President's budget request, he has asked for $150 million for 
Promise Neighborhoods. This is an issue that is very important 
to me and has been for a long time because so many of our kids 
go to school not ready to learn. And we know they go to school 
hungry, they need medical care. They don't have help with their 
homework. So tell me how is this program going and how are we 
encouraging more schools and communities to come together so 
that they actually can provide these community services and 
have them located at the school site or someplace convenient?
    Secretary Duncan. So like Race to the Top, like Investing 
in Innovation Fund, I am just absolutely convinced that Promise 
Neighborhoods has unleashed this huge amount of creativity. We 
funded this past year about 20 communities for planning grants. 
We had over 300 communities apply. So you have folks coming 
together, nonprofits, social service agencies, faith-based 
institutions, K-12 districts, higher education, coming together 
saying our children deserve so much better. I desperately wish 
we could have funded 200 of those 300. We had money to do 20. 
So the $150 million we are requesting from Congress will help 
us move from planning towards implementation. We will open that 
up to the country. And I promise you we are going to have 
hundreds and hundreds of applicants. We only want to work in 
our Nation's most distressed communities and to give those 
children a chance to get a great education, to rally the entire 
community behind that effort. And again, just like Race to the 
Top, obviously the vast majority of communities we were 
unfortunately unable to fund in planning. Many of them are 
moving forward without our dollars. Brought them to the table, 
brought them outside their comfort zone, they are working 
together. And that, in and of itself, has been absolutely 
invaluable.
    Ms. Woolsey. And I am sure you are able to track how much 
is saved in the long run by providing these services close at 
home. So I think I have time for one more subject and that is 
STEM education for girls and minorities, Mr. Secretary. And we 
know young girls and minorities are losing interest in science 
and math at a much too young an age. They are not choosing to 
pursue more advanced classes in high school or careers in these 
fields. How do you plan and how do you propose effective 
teaching and learning for science technology, engineering and 
mathematics programs? How are we going to increase this 
interest? Because that is the future of our country.
    Secretary Duncan. Yesterday the President and I and Melinda 
Gates were at TechBoston, which is an amazing high school in 
Boston. The vast majority of children live below the poverty 
line, come from very tough communities. 95 percent--huge 
graduation rates. The vast majority of graduates are going on 
to college. An amazing STEM focus. So there is a $206 million 
budget for effective teaching and learning to support the STEM 
area. We have $80 million specifically to help prepare and 
retain STEM teachers. There is a $185 million request for new 
presidential teaching fellowship program that would help 
talented students who attend top tier teacher preparation 
programs to go into a high needs field like STEM. We have a 
huge focus on STEM through the Investing in Innovation Fund. 
And we want to put many more resources into R&D to continue to 
learn in this area.
    But at the end of the day, the President has given us a 
simple challenge. He wants us to recruit, attract and retain 
100,000 new STEM teachers as we move forward. We have this baby 
boomer generation retiring. The only way we do a better job of 
reaching women and girls is making sure we have many more 
teachers--again, not just in high school, but in those primary 
grades who have a passion and a love for STEM education, 
working through traditional pathways to increase that number. I 
am also a big fan of alternative certification. I want more 
folks who know chemistry, who know biology, who know physics 
coming in to do this work. And we want to fund places that are 
going to be innovative in bringing in that next generation.
    Ms. Woolsey. Well, we look forward to working with you on 
that.
    Chairman Kline. The gentlelady's time has expired. I am 
always so excited when I hear you talk about alternative 
certification. Dr. Roe is recognized.
    Mr. Roe. Thank you. And I want to thank the Secretary for 
being here. This is the fourth time and I have seen you, more 
than any of the other Secretaries and I appreciate your passion 
for what you do--I truly mean that--and what you try to do and 
did some great things in Chicago.
    I have a son that lives there. He speaks very highly of 
you. So thank you for that. You have probably one of the 
hardest jobs in America, I think. One of the things that I have 
done when I have gone to rural East Tennessee where I live is 
go see my teachers. I thought doctors were frustrated. You are 
go get 40 or 50 teachers together and you are going to get your 
ears pinned back. Part of the reason is because in all of the 
bureaucracy that we have created, that--the hoops they have to 
jump. And remember I am in a Race to the Top State, Tennessee. 
We were 1 of the 2 States that were selected. And we are in the 
process--I had the teachers explain to me, what does this Race 
to the Top mean to you and how is it helping you when you are 
teaching in the first grade, when you are teaching in the 
second and third grade.
    I really couldn't get a good explanation from the teacher 
who was actually being observed. And this is the graph that I 
think that concerns me the most. We are going to have an 11 
percent increase in spending as proposed in this budget. And I 
was a mayor of Johnson City, Tennessee before I came here. And 
you are absolutely correct, there were days if I could have 
written the Federal Government a check for the money they sent 
and put into the 1 percent we got in our community because the 
city, the county and the State put the money in--it was a very 
small amount. But the teachers spend an inordinate amount of 
time qualifying. This is the graph that bothers me. Right here 
is the increase in Federal spending and yet the outcomes--we 
are not getting anything for our money. So I think the 
accountability--and right here when you see more and more and 
more spending, but we are not getting any results for it.
    Secretary Duncan. So, a couple of thoughts. First of all, I 
think Tennessee has a chance to not just transform education in 
the State, but to help lead the country where we need to go. I 
have tremendous confidence in your new governor. He is 
passionate on this issue. He just, in the past couple of days, 
appointed a new State superintendent who is a nontraditional 
candidate, Kevin Huffman, who I have tremendous respect for and 
actually met with him earlier. I think he is going to do a 
great job. So I am very, very hopeful about where the State can 
go and where the State can help to lead the country.
    On your historical point sort of for the country, does more 
dollars absolutely equate to better outcomes? Of course not. So 
to me what we try to drive from day one is this combination of 
investment, but investment not in the status quo, investment in 
reform. And whether that is at the early childhood level, 
whether it is at K-12 reform, whether it is trying to increase 
access and completion rates at the higher end, it can't be 
investment in the status quo with a 25 percent dropout rate.
    Mr. Roe. I think Congresswoman Woolsey may have mentioned 
it. But I think if a child can't read by the third or fourth 
grade--I mean, all the teachers that were patients of mine 
through the years could predict who was going to drop out by 
the 4th grade. And if we can do that, then that is where we 
ought to emphasize instead of worrying about all these other 
things. Because if you are never going to graduate, you know 
that by the time you are 10 years old, that is where you need 
to invest the money.
    The other frustration I had in hearing something was we 
have 96,000 schools in America. I think I heard this testimony 
last year or the year before last. And 2,000 of those account 
for 50 percent of our dropouts.
    Secretary Duncan. So a couple of thoughts. Your basic point 
on early investment I couldn't agree with more. If we can have 
our babies, our 3- and 4-year-olds enter kindergarten ready to 
read and ready to learn with their socialization skills intact 
gives us a great opportunity. Also, we have to invest early and 
try and level playing fields. I just urge you not to give up on 
those children who are behind. I spent a lot of time in Chicago 
working in a tough community with teenagers who started way 
behind and just hadn't had the opportunity and caught up pretty 
quickly when challenged and with real support. It is much 
tougher work. I would love to get us all out of the catch-up 
business. And we have to do much better at the early side. But 
where students don't have those opportunities, we still need to 
provide a chance for them to get better.
    Mr. Roe. I totally agree. I think one of the other things 
that I have with this frustration is that so many teachers--
half of our teachers who graduate from college don't teach in 5 
years. And there is a reason for that. And I think part of the 
reason is--well, there are many reasons I am sure. But all the 
paperwork that really doesn't add anything to the classroom, I 
am very frustrated about that.
    Secretary Duncan. Again, I just urge you to hold us 
accountable and push us. Everywhere I go, I ask teachers, 
principals, superintendents, State superintendents, tell us 
what we are doing to get in your way, tell us what 
requirements--there is a series of reporting requirements that 
were duplicative that we have already changed. We are trying to 
get better here. But if you think about the teacher, they are 
hit at the local level, the district, they are hit at the 
State, they are hit by us. It is too much. And we are trying to 
lead by example. And again, the more you can challenge us to 
get rid of duplicative or nonhelpful paperwork, we have to do 
that. We have to do that.
    Mr. Roe. Thank you. I yield back.
    Chairman Kline. I thank the gentleman. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. Secretary Duncan, it 
is always a pleasure to have you testify before our committee. 
I commend you and the President for the tremendous work that 
you all are doing investing in education these couple of years 
that you have been heading the Department of Education. I want 
to ask my question that is easy and doesn't cost much money, 
and that is, that there are some school districts in the Great 
State of Texas that start school early August, not after Labor 
Day. And you spoke about increasing school average days of 
attendance above 90 percent, maybe 95, 97, which is being done 
today in some of my school districts in my congressional 
district. So I know it is doable. But if we could give the flu 
shots to the students in early August as well as the teachers 
and maybe even the staff that serve them in the cafeteria and 
drive the bus, I think that we have fewer children getting sick 
and more being able to attend. That should be easy and the same 
cost that we do it in August versus doing in October. Is that 
something you can support?
    Secretary Duncan. Absolutely. And I have worked very, very 
closely with Secretary Sebelius on a number of health-related 
issues and H1N1. I thought she did a remarkable job. And if we 
can get students' immunizations earlier, it makes all the sense 
in the world.
    Mr. Hinojosa. I will send you a memo to this effect because 
we need it in Texas. I also want to say that I believe that our 
Nation must do more to expand accessibility and affordability 
to be able to access higher education. What is your vision for 
HSIs, HBCUs, TCUs and other MSIs? What types of outcomes do you 
expect for the next 10 years? And what is your time line for 
the upcoming STEM grant competition?
    Secretary Duncan. So our HSIs, our HBCUs can't simply 
survive. We have to help them thrive. And so we continue to 
invest very significantly in them. Obviously the Pell grant 
increases are very significant to those populations. We direct 
fund HSIs and HBCUs and have increased that funding over time. 
We want to put in place the Hawkins Scholarship Program, about 
$40 million, to get great teachers coming out of the HSIs.
    And so many of our teachers of color come through HSIs and 
HBCUs and I desperately want a much more diverse teacher 
workforce than we have today. Our teachers, our administrators 
don't reflect the amazing diversity of our Nation's students. 
We are to work on that. So we are going to continue to invest 
very significantly in HSIs and HBCUs. And I see them as real 
partners in driving where we need to go. The final thing I will 
say is I have visited a number of them and continue to go out 
to recruit more teachers of color to come into education 
because I think frankly, many traditional schools of education 
haven't shown much creativity or leadership in this area.
    And obviously HSIs and HBCUs are a natural phenomenal 
pipeline of great teacher talent for our Nation's classrooms.
    Mr. Hinojosa. I commend you what you have done in this last 
2 years in increasing that funding because it definitely 
exceeds what we did in 1946 with the GI bill. So I commend you. 
But now we need a timeline to be able to get into the 
competition and get to that money and recruit students into 
colleges. The last question, if I still have time, would be 
that I reintroduced H.R. 778, the Graduation Promise Act 
because I believe that we must invest and transform our 
Nation's dropout factories. The question is, how do you propose 
to build the capacity of our Nation's lowest performing high 
schools and middle schools?
    Secretary Duncan. This is where the school improvement 
grants are so important. We stated earlier for this horrendous 
dropout rate that the country faces, it is actually--we have 
about 100,000 schools. Only about 2,000, 2 percent of our 
schools produce half our Nation's dropouts and 75 percent of 
our dropouts from the minority communities are African 
American, Latino young boys and girls. So with a massive 
investment, not in the status quo, but this idea of reform, we 
have about 1,000 schools for the first time in this country, we 
have about 1,000 schools that are being turned around as we 
speak. And we have to continue to challenge the status quo. We 
have to continue to invest. And unfortunately, as you know all 
too well, Congressman, in many communities, these schools have 
been dropout factories for years, 2 years or 5 years. It has 
often been for decades. 10, 20, 30, 40, 50 years. And this has 
not gotten a lot of media attention because it has been a lot 
of hard work without a lot of controversy.
    Every one, school leaders, union leaders, superintendents, 
school boards, everyone is moving outside their comfort zones 
and doing some very, very different things for students. And 
all of these turnarounds, they won't all be A's. Many will be 
fantastic. Some will be okay. But for the first time, our 
country is showing courage in doing this work. And it makes me 
so hopeful about where we can be 3, 4, 5 years from now.
    Mr. Hinojosa. Thank you, Mr. Secretary. My time has 
expired.
    Chairman Kline. I thank the gentleman. Dr. DesJarlais.
    Mr. DesJarlais. Thank you for being here, Secretary Duncan. 
Thank you, Mr. Chairman. I know by this point of the 
discussion, a lot of these questions may be somewhat 
repetitive, but I think there is some important points to 
continue forward. The Department of Education doesn't seem to 
be the only Department that has a draft like the one we saw 
with the increase of spending without actual results. And it is 
refreshing as we sit in this committee today that it does seem 
to be a fairly bipartisan discussion. One thing I think my 
colleagues might agree on that has come up a few times today is 
that maybe one of the biggest impediments to learning is the 
politicians and the Federal Government. So it is kind of 
interesting to maybe stop and take a look at that, that we have 
increased spending, the Department of Education has been with 
us for over three decades and we are not really seeing the 
outcomes.
    And one thing that we haven't really focused a lot on 
today, we have touched on it a little, my colleague from 
Tennessee also mentioned that where do teachers come into the 
picture here. And we had a panel a couple of weeks ago where we 
asked them what were the top three things they are hearing from 
teachers. And certainly with your travels around the country, I 
am sure you get an earful. What would you say are the top three 
concerns that you are hearing from our educators?
    Secretary Duncan. Let me just go back to one more point on 
the results that we have seen on the NAEP results, pretty 
significant gains in math scores over time, but we are not 
again, not at the same levels of other countries. So we are at 
a competitive disadvantage and have to keep getting better. 
Complaints from teachers, this idea of a well-rounded 
curriculum I talked about.
    This narrowing of the curriculum is a huge challenge that 
teachers really struggle with. I haven't met a teacher yet who 
is scared of accountability. They just want it to be fair. And 
this idea of growth and gain is a huge one for them. If you are 
my teacher and I come to you three grade levels behind and I 
leave you a grade level behind, you have done an amazing job 
with me. You are an unsung hero. And under current law, you are 
labeled a failure, the school and ultimately the district is 
labeled a failure. You have accelerated my learning. So we have 
to focus on that. And then teachers want--they want to be held 
to a fair standard but then they want the room to be creative, 
to hit that higher bar.
    So again for me that tradeoff is where is the high bars, I 
have much more flexibility at the classroom level, at the 
school level, the district level. If it is not working, then we 
have to look at that. But room to move, better accountability 
and a well-rounded education I think are amongst the tops of 
the complaints I hear from great educators.
    Mr. DesJarlais. I think that is fair. I think that the 
teachers I have spoken with would echo those sentiments. As a 
physician, I get to spend a lot of time in the examining room 
having conversations about teaching. And I would just add to 
more succinctly and maybe not as eloquently as you put it, but 
one of the concerns--and you mentioned it earlier--was lack of 
discipline in the classrooms. And I thought it was interesting 
that you said that a school in Miami showed an improvement in 
the discipline problem and therefore it was headed in the right 
direction.
    So perhaps there is an area of focus. I am certain to hear 
from the teachers that are frustrated that they can't control 
their classroom. And a second thing is that they seem to be 
lacking a little bit in terms of pride in their profession and 
I think that is because of the bureaucracy and regulation.
    So if we have frustrated teachers, we may have less 
effective teachers. And so I think that in a sense they feel 
handcuffed and that lack of flexibility,--I appreciate you want 
to see more flexibility. But I know, like, in Tennessee, they 
have to teach to the standardized testing or the TCAP and they 
have a lot of pressure put on them by the administrations to 
make those numbers the way they should be. When we were kids, a 
standardized test was something you came in from recess, they 
dropped it on your desk, told you to take it and now they are 
actually teaching to these tests. Do you think that is an 
effective means of measurement?
    Secretary Duncan. Again, if you are teaching to a test, the 
best way students do well on any exam is to give them rich 
content and to have them be creative in doing that. So again, 
when the curriculum gets narrowed, when you are teaching to the 
test, that is not good for children, not good for teachers. 
Again, having a high bar, being real clear about that but 
giving teachers lots of room to move to hit the higher bar, to 
be creative is hugely important. Your other point, I think, is 
so critically important, it is absolutely true that the 
teaching profession in education in general has been beaten 
down. And we have to reverse that. We have to elevate the 
profession. We have to strengthen the profession.
    In our high performing countries around the globe, teachers 
are revered. In South Korea, teachers are known as nation 
builders. It is a really powerful concept, one I have thought 
about. Our teachers have to be believed to be nation builders. 
We lose far too many of our good young teachers due to 
bureaucracy, due to lack of support, due to difficulties of 
classroom management skills. And I think the only way we are 
going to get where we need to go again and lead the world is to 
recruit and retain the hardest working, the most committed 
young people to come into education. Other countries have done 
this systemically. We haven't and we can get better together at 
it.
    Mr. DesJarlais. Thank you. I appreciate your comments. I 
yield back my time.
    Chairman Kline. Thank you. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Secretary, how 
are you? I am sorry I wasn't able to be with you yesterday in 
Massachusetts, but I appreciated the visit on that. I cannot 
help but say I think everybody is interested in eliminating 
waste, fraud and abuse and duplication. And I commend the fact 
that you and the President have been spending considerable time 
trying to make sure that those are eliminated in the education 
budget. But I also think that sometimes we have cut beyond 
those areas and into the bone because both the White House and 
Congress failed to have, I think, the courage to take on a 
larger issue of making sure that people pay their fair share.
    At the end of last year, at the end of 2010, this Congress 
and the White House allowed for a continued tax break so that 
people weren't paying their fair share, $800 billion over 10 
years. We have $700 billion in tax expenditures to corporations 
every year. We have the lowest effective tax corporate rate of 
all the OECD countries on average. Google paid 2.4 percent 
effective tax rate last year, the do-no-harm first company. GE 
and Boeing paid no taxes at all in the last several years.
    So while we are here debating eliminating or reducing 
seriously some very important programs, there was a real lack 
of courage, of profiles in courage on a number of occasions and 
I think we are going to have to find some if we want to do it. 
I think Governor Martin O'Malley yesterday in testimony before 
our subcommittee--full committee rather up in Maryland made a 
good statement. The balance is wonderful; but if you are on a 
bicycle and you are trying to balance standing still, pretty 
soon you are going to fall over. You have to pedal forward. And 
if we want to be competitive in this country, we had better 
pedal forward to make sure that we outdo China, Germany and 
other countries to get there.
    One of the ways we do that is by making sure we have a 
sound investment in education. And Pell grants and Pell 
scholarship money is one area along that. So it is of great 
concern that we see H.R. 1 eliminating about 9 1/2 billion 
college students--$800 a piece, a reduction in the Pell grant. 
135,000 in my State of Massachusetts. Another 1.7 million low-
income students aren't even going to qualify for Pell grants if 
that cut is maintained.
    That is about 20 percent of the current people. So it is a 
great concern there. But there is also a concern amongst many 
and me about the administration's proposal to eliminate the 
availability of Pell grants for those that are pursuing summer 
studies. I know there is some that mention it hasn't been shown 
to speed it up yet. But it hasn't even been in place long 
enough for people to get an associate's degree, 18 months or 
less. If we are going to compete with China and other countries 
on that, we have to get people able to get through and get that 
degree to be able to get back to work or get out to work in the 
first instance. Can you tell us how you expect to meet that 
need, while at the same time eliminating that program?
    Secretary Duncan. And I really appreciate your 
thoughtfulness on this. So where we scaled back $800, $900 on 
Pell grants, that just means there are a lot of young people 
who are working hard who come from families who are struggling 
financially who have to drop out of school. And what is amazing 
to me, which we haven't talked about here, which I am sure you 
guys are aware, that at a time of high unemployment, we 
actually have a couple million jobs in this country that go 
unfilled every single day because we are not producing the 
knowledge workers who have the skills to fill those jobs. And 
the President and I met with a number of CEOs 2 weeks ago and 
it is amazing to hear how many CEOs are trying to hire now and 
there simply isn't the talent that we are producing K-12 and 
through higher ed to fill those jobs.
    So any cutback to Pell would have a devastating long-term 
impact on our economy and our ability to compete. And jobs and 
companies and corporations, they are simply going to go where 
the knowledge workers are. And it is going to be in our country 
or it is going to be in other countries. And we are either 
going to put ourselves in a competitive advantage or we are 
going to continue to lose not the low skill jobs, but the high 
skill jobs which are really the jobs of the future. So we have 
to continue to invest there.
    Obviously, the decision to say no to Pell grants--again, 
you can use the one Pell grant for summer--is not one that I 
enjoyed or wanted to make or felt good about. It is simply in 
very tough budget times trying to make a decision to preserve 
the $5,550 for the vast majority of people who use those Pell 
grants and by eliminating the second one is a savings of about 
$7 billion. But in an ideal world, would I choose to do that? 
Of course not.
    Mr. Tierney. Just to remind you, Mark Canter, which is a 
student aide expert, tells us just to increase the Federal 
income tax revenue from increasing the number of college 
graduates would pay for the cost of doubling Pell grants. So we 
look forward to that. Let me ask you one last question while I 
still have time. In the Higher Education Opportunity Act in the 
House, I put in a provision, and Senator Kennedy put it in the 
Senate with respect for model transition programs for students 
with intellectual disabilities in higher education.
    I know the chairman has a concern about that as do many 
others. It is only $11 million. And the fact of the matter was 
for model programs to move on, and particularly community 
colleges who have a disproportionate number of students 
challenged that way. We are going to put those models together. 
Is there some way the administration could take another look at 
that? Because there is a serious need with children aging into 
that grouping that need to be able to have a sustainable way to 
get through life.
    Chairman Kline. If I may, the gentleman's time has expired 
and we would love the answer for the record if we could, Mr. 
Secretary.
    Secretary Duncan. I would be happy to look at it.
    Chairman Kline. I thank the gentleman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Mr. Secretary, great 
to see you. Love your name. Question. Mr. Tierney was just 
talking about taxes and about how much we are spending. In 
comparison to China, if you add State, Federal and local 
spending on our end here, we are paying more per kid than I 
think any other nation if you add everything together. I don't 
know the answer to this question.
    What is more, I am not supposed to ask questions I don't 
have the answer to. But I am pretty sure that we pay more 
State, local and Federal than any other country does. So tell 
me, what is the real correlation, then, between spending cash 
and getting good results in education? When if you look at a 
model like China or any other country--Germany was mentioned--
any other country you throw out there--obviously their 
structure is different. South Korea, they probably have a 
different structure.
    So it is not about money, then, in that sense and just 
increasing funding into the future forever. What is it then? 
What is the correlation?
    Secretary Duncan. Again, to be very clear, I am not pushing 
more investment in the status quo. I am pushing more investment 
in a very different vision of where we need to go. So a couple 
of things. I think the investment in early childhood 
education--I can make a very compelling case to you that that 
is the best investment we can make and the dividend is long-
term and the ROI and the savings to society are huge.
    What you see in other countries is, I think, they have been 
smarter, more strategic in how they invest. I think other 
countries have done a much better job of targeting the students 
in the communities that need the most help and have done much 
better there. And I think we have to continue to increase 
access to higher education.
    And again, there are just so few good jobs out there, if 
any, if you just have a high school diploma. So it is not 
looking for investment in the status quo. I would never 
advocate for that. I am advocating for significant investment 
in a very different vision of what this country needs to do.
    Mr. Hunter. But that means, though, that we are still going 
to be spending more per kid and we are not seeing any 
correlation between that spending and the actual results. So 
why not just change the entire structure, then, if we are going 
to do that and reinvest the money that we already have into a 
different system? Which is what you are doing and what we are 
trying to do here. But why increase it at all? Because if you 
were to somehow even cut and find some savings, then we could 
talk about Pell grants and things like that.
    Secretary Duncan. So again, you and I may disagree on it. I 
think going forward we are going to see many more young people 
trying to go to college, trying to get some form of higher 
education, 4-year, 2-year. 10, 20, 30 years ago you didn't 
necessarily need that. I am from Chicago. You could graduate 
from high school. You could drop out of high school and go work 
at the stockyards, the steel mills and get a good job and own 
your own home and support your family. As you know, all those 
jobs are gone.
    So in a knowledge-based economy, more and more not just 18 
year-olds, but 38-year-olds and 58-year-olds are going back. 
And so our Pell grant requests have gone up very significantly.
    Mr. Hunter. Which I understand. I understand all this. But 
talking about K-12, if it is the structure that really matters 
and it is not increasing funding for a bad system, why not just 
take away the bad spending, if you will, those things that you 
don't believe in and restructure and reinvest as opposed to 
right now trying to get more funding which would increase 
funding per kid, which has not been proven has any correlation 
whatsoever to the results?
    Secretary Duncan. What I would argue is that with the 
increased investment in the opportunity to drive systemic 
change, you are seeing breakthroughs you have never seen in the 
history of the country.
    So again, 41 States raising standards for the first time 
ever, voluntarily, college and career ready standards, not 
dummied down standards, 44 States working together on this new 
generation of assessments, about 3 dozen States eliminating 
barriers to innovative schools, every State eliminating laws 
that prohibited the linking of student achievement and teacher 
evaluation, all of that happened, in part, due to our ability 
to reward great behavior. And we want to be able to do more of 
that going forward.
    Mr. Hunter. Would you say, though, that we are still 
spending on bad along with the good?
    Secretary Duncan. No question. We have to continue--on 
every single dollar. So we handed out to governors last week--
in very tough budget times, you have to make tough calls. We 
handed out a document that we are happy to share. There are 
smart ways to cut and there are dumb ways to cut. And I worry a 
lot about in very tough budget times folks making decisions 
that exacerbate the challenges that we have.
    Mr. Hunter. Could you see being successful--if the amount 
of funding does not go up, could you still be successful if you 
cut the right way and put the money into the systems that you 
know work? Could you do that?
    Secretary Duncan. We have to do that anyway, but I continue 
to think we underinvest. And it is actually interesting. We 
underinvest relative to the high performing countries. We 
underinvest significantly in the most disadvantaged children 
communities relative to higher performance.
    Mr. Hunter. Thank you very much, Mr. Secretary, for your 
testimony. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you for working 
so closely with the committee. Despite the overwhelming 
evidence that teachers matter most when it comes to student 
learning, low-income students and minority students receive 
less than their fair share of access to the best teachers. We 
would wish that even the most ordinary teachers could become 
extraordinary. And I think that is the goal in any system, to 
do that. But the reality is that as long as there are 
inequities in the quality of teaching from classroom to 
classroom and school to school, we are still going to see gaps 
in the achievement, and it is tough to close that gap. And you 
mentioned that earlier, and the distribution of effective 
teachers. I am wondering, in the budget itself, how can we look 
to that and see also in the ESEA blueprint what prompts States 
and districts to ensure that the students who need the 
strongest teachers most have access to those teachers?
    Secretary Duncan. So again, this is just such a huge issue. 
I so appreciate you bringing it up. Because what other 
countries, other higher performing countries have done is they 
have systemically solved this problem--not totally--but in a 
much more thoughtful and comprehensive and systemic way than we 
have in this country. Other countries have put in place great 
incentives for the hardest working and most committed to go to 
the toughest communities, to give them the support they need 
and they retain them there. We have had almost no incentives, 
and frankly, lots of disincentives for the most committed, the 
hardest working teachers and principals--you have to have the 
principals as well--to go to underserved communities, be that 
inner city, urban or rural. And we can't talk honestly about 
closing the achievement gap if we don't talk about closing what 
I call the opportunity gap. And we have so many examples of 
high poverty, high performing schools where students are 
routinely beating the odds because they are getting great 
talent there. How do we do it? Two concrete ways. One is 
obviously--we have talked about some today--is the school 
improvement grants and a huge investment in these lowest 
performing schools.
    And what I have said very publicly is if your community has 
not been able to attract a great math and science teacher, use 
our resources to do it. 10 grand, 15 grand, 20 grand. Pay that 
great math and science teacher more to come and give them the 
support they need. Not everyone agrees with me on that. I don't 
see how our students take AP calculus and physics if they don't 
have those kinds of teachers. If you have to pay a great 
principal--pick a number, 25 grand, 30 grand, 50 grand--to go 
to an underperforming community, use our resources to do that. 
We have the teacher incentive fund, which is we go out on a 
voluntary basis to communities. We have dozens and dozens of 
districts now that are being very creative and starting to look 
at this. I will give you one last example.
    The district that I think systemically has done this better 
than any others I have seen is Charlotte-Mecklenburg. They have 
about 20 schools that historically, chronically underperformed. 
They are, year after year, putting the best talent into those 
schools. I met with a set of teachers and principals who have 
taken on this work. I will never forget what one of the 
principals said to me. He was a star principal in the district, 
was about to retire, was given this opportunity to go to a 
really tough school, which most people run away from. And he 
said to him, he said this is the most moral and ethical work I 
have ever done in my career. I am so thankful to have the 
opportunity. And to me it is such a profound statement, the 
most moral and ethical work he had ever done. So they are 
systemically through incentives, through awards, through 
support getting great talent.
    Mrs. Davis. For those schools that are not applying for 
grants or their schools or their States are not applying for 
grants, trying to--obviously there are so many schools that are 
not in that position or choose to do that, how do we do that? 
And it ties in with evaluations, of course, as well.
    Secretary Duncan. The school improvement grants go out 
formally to every State. So every State we give that money to 
and say you figure out who your bottom 5 percent of schools are 
and you figure out--if you need to do more--teachers do that. 
If you need to go to school after school, if you need more 
time, you have to go to school on Saturdays, if you have to go 
to school all summer, whatever it takes, more teacher planning 
time, more awards for teachers, whatever it takes, use our 
resources to do that. And that went out by form to every single 
State in the country.
    Mrs. Davis. Are there some outside--I don't know if I want 
to call them--validators or mediators, if you will, who can 
help schools to do this sometimes when there is a lot of 
resistance in the school community? What do you suggest? What 
have you seen as best practices?
    Secretary Duncan. As a country frankly, we are in our 
infancy. And I am so proud that historically there are 
literally a handful nationally, a handful of schools that are 
turned around. This school year, there are about a 1,000 
schools that are being turned around. So we are starting to 
build a community of practice. We are starting to learn what 
works and what doesn't. And you are starting to have some 
critical mass doing this work. And we want to do more every 
year and come back and come back and do more. But if we can 
turn around that bottom 5 percent of schools in this country 
over the next 3 or 4 or 5 years, the difference that is going 
to make not just for those children, but those entire 
communities that have been underserved is huge.
    So there is growing awareness--again, amazing courage that 
I have seen. Union leaders, district superintendents, school 
board members doing some things very, very differently. And so 
I am--5 years from now, we are going to be in a different 
place.
    Mrs. Davis. And how is that being shared? They can find 
this out in----
    Chairman Kline. Excuse me. The gentlelady's time has 
expired.
    Secretary Duncan. We will continue----
    Chairman Kline. I thank the gentlelady. It is Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman. And thank you, 
Secretary Duncan, for your time here today. Last month, this 
committee heard testimony from Mr. Andrew Coulson from the Cato 
Institute on the lack of any meaningful return on our 
investment of Federal funds, with one notable exception, the 
D.C. Opportunity Scholarship Program. Yet this administration 
has not supported that successful program and put forward a 
budget proposal that increases spending on all of these other 
programs that have not significantly improved student 
achievement.
    When our Nation is facing inconceivable debt levels and the 
taxpayers of this Nation have been clear about Washington 
getting its fiscal house in order, my question is, how can we 
afford to ignore successful programs like the D.C. choice and 
instead keep pouring money into costly programs that haven't 
shown any results?
    Secretary Duncan. So on the D.C. scholarship program, we 
actually supported keeping students in the existing program. We 
didn't support adding more students. If you actually look at 
the data, the data was a little bit mixed. And I will go back 
and look. And it was either in reading or math, in one area 
student performance went up and the other one did not go up 
significantly. And what I said repeatedly is that if the 
private sector, individuals, businesses, philanthropy want to 
help scholarship students, I absolutely support that.
    Our goal has to be I think, frankly, more ambitious. We 
have to give every single child a great education. The school 
improvement grants here in D.C. are transforming entire 
schools, not just saving 2 or 3 children from a tough school 
and leaving the other 500 to drown. I think the D.C. school 
system itself is absolutely going in the right direction. A 
long way to go, but real progress. And my goal has to be to 
help every single child and have a great system of public 
schools so that we just can't go to bed and be comfortable at 
night having saved a couple and left the rest to drown. That 
has been the mentality. What is staggering to me quite frankly, 
Congressman, is that for decades, the D.C. public school has 
been an absolute disaster. In the Nation's capital, we allowed 
that to exist, to be the status quo. And you have seen more 
progress in the past couple of years in D.C. than you have in a 
long time. And we want to make D.C. a world class school 
system. And I think we have an opportunity to do that with 
local leadership.
    Mr. Barletta. Thank you. I yield back the rest of my time.
    Chairman Kline. I thank the gentleman. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. Mr. Secretary, good to 
see you today. Thanks for being here. I really appreciate 
almost everything--not quite everything--but almost everything 
or at least much of what you and the President are trying to do 
on the education front, all the way through preschool through 
secondary education and even graduate school for that matter. I 
am happy as an Iowan that when it comes to Race to the Top, you 
do have a rural carveout that you mentioned. I am looking 
forward to seeing the details of that. Because as I think I 
have communicated to your Department, the last couple of years 
it has been very, very difficult for States like Iowa, 
especially those rural school districts that don't have grant 
writers, don't have resources to participate in the program 
such as Race to the Top. Also, I am happy that over the course 
of the last several years, we have had a lot of discussions and 
you seem to be implementing some of the changes that I think a 
lot of us are recommending for NCLB, certainly moving to 
multiple measures of achievement. I think that is much more 
important and much better than high stakes test and being more 
flexible when it comes to subgroups.
    I think that is really important too. And growth models. 
When I first came to Congress, for the life of me, I could not 
figure out why the original law was comparing one group of 
students one year in a grade level to another. It was apples to 
oranges. It didn't any make sense to me. Growth models I think 
are very important.
    But really what I want to talk about today more than 
anything else is the Pell grant program, and in particular, the 
year-round Pell grant program and the proposed cuts that you 
folks are making to that program. Because in your fiscal year 
2012 budget, you propose to cut the year round Pell grant 
program. I think this program, this is a significant one for a 
variety of reasons. I think first and foremost, Pell grants in 
general help people in poverty rise into the middle class, 
become more productive citizens. Education does that anyway, 
but in particular for those who get Pell grants.
    Last year around the country, the first year of operation, 
2009, 2010, about 760,000 students nationwide took advantage of 
access to financial aid over the summer in order to graduate 
faster and to come out of college with less debt. I think it is 
making a big difference, especially in community colleges. As 
you know, there are many community colleges such as Kirkwood 
Community College in Cedar Rapids, Iowa, where they have 
nursing programs or other programs that really are in effect 
over the summer.
    So for students to be able to access Pell grants in the 
summer I think is really, really important. I just think this 
doesn't make any sense to cut year round Pell grants for a 
variety of reasons. I guess what I would like you to do, if you 
could, is just give us some rationale as to why you are cutting 
that program.
    Secretary Duncan. So again--you are echoing Congressman 
Tierney's real concerns and I share those concerns. So I am the 
biggest champion you are ever going to find for increasing 
access to college and increasing Pell grants. As you know, 
through health care reform, we got an additional $40 billion 
for Pell grants over the next decade, the biggest increase 
since the GI bill, frankly, one of the things I am most proud 
of that we have accomplished in the past 2 years.
    So in an ideal world, we wouldn't have made that 
recommendation. At a time of extraordinary budget pressure, we 
made the tough decision to really fight to maintain current 
levels of Pell grant funding, not see that 5,550 cut back as 
some have proposed. And we made the tough decision that in 
order to maintain those efforts for every single student, to 
scale back on the twice-a-year program. I will say that at the 
community college level, that 5,550 for the vast majority of 
community colleges basically means that, again, whether you are 
18 or 48 or 68, you can basically go to community college for 
free. And we think that is so important. We want to invest an 
additional $2 billion in community colleges. We think as 
families get back on their feet, the country gets back on its 
feet, the community colleges are going to the huge vehicle to 
do that. So it is not a decision that we wanted to make or made 
lightly or didn't understand the ramifications. We are just 
facing tremendous budget pressure and made a very tough 
decision.
    Mr. Loebsack. And I went around my district for a week a 
couple of weeks back and I went to community colleges 
throughout my district, all of them. And I can tell you the 
students, not just the administrators, but the students are 
also very aware of these proposed cutbacks, very concerned, of 
course, about fiscal year 2011 and H.R. 1 and what that is 
going to do in terms of the $850 cut in Pell grants right now 
during this academic year. But the summer Pell grants, the year 
round Pell grant program, I just can't reiterate strongly 
enough the testimonials I have heard from students and 
administrators and teachers, especially at community colleges 
and how important that is.
    And again, after all, if what we are trying to do is 
increase the size of the middle class and have more productive 
citizens and have a more educated citizenry, then I just think 
that--at least I hope you will reconsider that cut.
    Secretary Duncan. I absolutely hear and I share your 
concern.
    Chairman Kline. The gentleman's time has expired. Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you, 
Secretary. It is good to see you. I appreciate your testimony. 
I appreciate reading within the testimony all--out of all the 
pages, a small section on community--or career and technical 
education training as we have talked about in the past. That is 
an area I think that is an area of--well, there is nothing more 
important to the competitiveness of this Nation than a 
qualified workforce. And frankly, career and technical 
education I think really has proven its salt in terms of the 
outcomes it produces.
    It is appropriate I follow my good friend from Iowa, 
because last night I had a chance to spend a period of time 
with four very impressive young persons from Iowa who are 
involved in career and technical education from different 
fields. And they shared with me some data that showed what 
those students in career and technical education, how they 
outperform. And I was limited to specifically that situation, 
but how they outperform in both math and science because of the 
value of applied education. It really was just very apparent. 
And America's competitiveness both address emerging job 
opportunities, but frankly with the retirement of baby boomers.
    And so within your testimony, it was sort of a mixed 
message in your testimony, and that is what I want to come to. 
And I know we are on the same page with value in career and 
technical education. As I follow what you talk about, write 
about, most recently Harvard University's Pathway to Prosperity 
Report, you said ``For too long career and technical education 
has been a neglected stepchild of education reform. That 
neglect has to stop. And second, we need to re-imagine and make 
career and technical education as urgent. CT has an enormous 
and often overlooked impact on students, school systems and our 
ability to prosper as a Nation.'' And the fact that I say 
similar things, I think your remarks were brilliant.
    Secretary Duncan. I stole them from you.
    Mr. Thompson. Yeah. What I wanted to come to, though I 
agree with your sentiments and I serve as co-chair of the House 
career and technical education caucus and I think it really has 
proven its results of training and qualified workforce for a 
relatively small Federal investment for the return on 
investment, specifically in education. But despite that, the 
statement that you made, the budget request, your testimony, 
you affirm your support for it, but frankly the budget request 
decreases funding for CT programs by over 20 percent. And I 
guess just two questions. How do you expect schools to offer 
more high quality CT programs that we strategically need with 
fewer Federal resources?
    Secretary Duncan. It is a great question and your 
leadership in this area is really important to me. I will give 
you one more stat that was interesting. When I ran the Chicago 
public schools, we tracked the data for students in CT 
programs. And they had higher graduation rates, they had higher 
GPAs. So it wasn't just about that course. There was something 
about engaging students in different ways that kept them 
engaged in the broader school environment that was very, very 
positive.
    So this is one of those very tough decisions that we make, 
not too dissimilar to second Pells each year. I will honestly 
say that the results for CT across the country are mixed. There 
are some amazing programs that are creating real jobs and there 
are others that are frankly still antiquated. So what we tried 
to do--the investment is still at a billion dollar level. So it 
is still a very substantial investment. But we did scale back 
on basically trying to challenge the sector that where things 
aren't working, we have to do some things very differently. We 
have to get better results. Again, some pockets of excellence 
but that hasn't always been the norm. Some programs aren't 
leading to the kind of results we need.
    Mr. Thompson. How do we do that?
    Secretary Duncan. I think we learn from what is working. We 
replicate those successful models and frankly pay greater 
attention to outcomes. There are too many places that are 
saying we offer this class and okay, what does that mean? What 
is it leading to? What job is that leading to? What certificate 
is that leading to? We don't always get great answers there, 
quite honestly. So by replicating successes and I think 
building a stronger base, then I think it gives us the room to 
invest more going forward.
    Mr. Thompson. Thank you. Mr. Chairman, my time I will yield 
back.
    Chairman Kline. I thank the gentleman. Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. Aloha, Mr. Secretary. 
Just as there is a growing bipartisan, or there already is 
bipartisan consensus around the use of the growth model under 
NCLB, I think that there is a growing consensus around the idea 
of supporting quality early education. And you have mentioned 
it a couple of times. So it is not just the educators who know 
this, but scientists, economists, business leaders. I know for 
a fact that the L.A. Chamber of Commerce supports quality early 
education. Our military is telling us that this is important.
    And, in fact, just last week in this committee, we heard 
from a Republican witness, Dr. Ed Hatrick who is a 
superintendent of the Loudoun County Public Schools and 
President of the American Association of School Administrators, 
when asked about the most important innovation we can make to 
improve outcomes--and you have had a lot of questions about 
outcomes--he replied pre-K, pre-K, pre-K.
    So music to my ears and for a lot of us here. So obviously, 
I am very pleased that there is 350 million in the early 
learning challenge fund because this is one of the new programs 
that we are pursuing as we focus on using scarcest dollars for 
those things that actually work. So can you highlight some of 
the more recent research on the effectiveness of quality early 
learning?
    Secretary Duncan. So we don't need another study. There 
have been hundreds of studies. The most recent one I saw was 
about 2 weeks ago from Vanderbilt University that talked about 
dramatic gains, looking at students who went through quality 
early childhood programs compared to students in a control 
group that didn't have those kinds of opportunities. But there 
have been dozens, if not hundreds of studies that demonstrate 
the efficacy here. What we are trying to do with the Early 
Learning Challenge Fund is a race to the top for early 
childhood, to really challenge States and districts to do two 
things, to increase access, particularly for disadvantaged 
children, but to make sure it is high quality.
    And we know that quality can be uneven in the early 
childhood space. If this is glorified babysitting, it doesn't 
get us where we need to go. But we want to put significant 
resources there. I would also add that it concerns me that in 
these tough budget times, you have many governors who are 
scaling back, they are cutting back on early childhood 
programs. And I met with the governors and said that again I 
recognize the tough times. I don't think that is a place where 
you should be cutting back and you have to continue to invest 
and 3- or 4-year-olds don't have a lobby, they don't have 
people here in Congress working on their behalf.
    Look, we reduce those investments at great cost long-term. 
To Congressman Hunter's point on reallocating resources, again 
this is where our flexibility comes into play. We really 
encourage governors to think about using our dollars--for 
example, Title I dollars that are having tough budget times to 
think about using those Title I dollars to maintain full-day, 
high-quality early childhood programs. And that flexibility 
already exists. A lot of the new governors don't quite 
understand that part of our advice to them is to be very 
creative. That to me should be one of the last things you cut, 
not one of the first things.
    Ms. Hirono. I couldn't agree with you more. And I think it 
is about time that we all recognize that every dollar we spend 
on quality--and I always use that adjective, quality in front 
or early learning. That every dollar we spend on quality early 
learning really comes back to us many times fold, up to $17 
worth. So for those of us who--and all the business people who 
are talking about cause and effect of the dollar spent, this is 
the one area where there is so much research, I say we better 
get on with it. And I am glad that the President's budget 
reflects that.
    Do I have more time? Yes. The issue of effective teaching, 
because that teacher standing in front of the classroom is the 
single most important person affecting student learning. Does 
your budget reflect an emphasis on encouraging the States to 
really focus on appropriate measures of effectiveness?
    Secretary Duncan. That is an area that for the country for 
far too long didn't move. And again, we literally had States 
that had laws on the books that prohibited the linking of 
teachers and students, which is absolutely backwards. There is 
a remarkable outburst of creativity and innovation in this 
area. And there is no one district that has gotten this right, 
but there are many that are breaking through and doing some 
very significant things. I always say you have to evaluate 
teachers along multiple measures. You can never look at one 
test score. You have to look at multiple things. Peer 
evaluation, principal evaluation, professional dominant 
leadership, student achievement, student growth and gain have 
to be a significant part of that. And this conference we held 
in Denver with 150 school districts from around the country, 
labor and management and boards all there together, we had some 
fascinating conversations of what folks are doing to break 
through in this area.
    Again, I think as a country we are in our infancy. We are 
putting a usage amount of resources behind this and you are 
seeing folks who traditionally fought over silly issues coming 
together. And I think it is going to help strengthen the 
profession in a critically important way.
    Ms. Hirono. So the President's budget also reflects the 
support for this kind of effort that is going on all across our 
country?
    Secretary Duncan. Huge investments not just for teachers 
themselves, but for creating the systems that help teachers be 
successful. Better data systems, the move towards higher 
standards is something teachers are desperately looking for. 
The move to better assessments. Teachers have been crying out 
for that for a long time. So both direct support for teachers 
but also creating the structure and the infrastructure around 
them to allow them to be very, very successful. Massive 
investments there.
    Ms. Hirono. Thank you. I yield back.
    Chairman Kline. I thank the gentlelady. Dr. Bucshon.
    Mr. Bucshon. Thank you. I want to start out with just 
commenting on some recent comments that were made about 
fairness in the U.S. Tax Code even though this isn't a Tax Code 
discussion. I just want to clarify that. I guess my definition 
of fairness isn't the same as was previously described when 45 
percent of the American people don't pay any income tax at all 
and the top tax brackets are paying 35 percent of their income 
and the top 10 percent of the taxpayers pay 70 percent of all 
federal income tax.
    So I think I disagree with that definition of fairness and 
I want to just clarify that in the context of budgetary 
discussions: The question that I have is the EPA recently--and 
this is a little bit difference direction than has been taken 
so far. But they have five education efforts in their recent 
congressional justification document talking about support and 
working in partnership with K-12 schools, colleges and 
universities, Federal and State agencies, community 
organizations to assess the needs established priorities and 
leverage resources and lastly an effort to increase promotion 
of green principles and increase the nation's scientific 
education.
    I would like to know if the Department of Education has 
been involved in those efforts through the EPA because it seems 
to me that that--those type of things should be talked about in 
education, not through EPA.
    Secretary Duncan. We have had a very good partnership with 
Administrator Jackson. And I know they are doing some tough but 
important work in the New York City school system now. But your 
basic point, though, about collaborating and about sharing 
scarce resources I couldn't agree with more. Where we can have 
students and districts focus on these issues, do it in a 
thoughtful way, in a creative way. The knowledge for students, 
the savings to districts, the better environments obviously are 
all upsides. So we need to continue to partner and collaborate. 
Yes, sir.
    Mr. Bucshon. I guess my concern is that, you know, there 
appears to be an educational underlying political agenda 
through EPA to--I wouldn't call it indoctrinate--but would you 
consider advocacy and promotion of green principles as 
something that we should be doing at the K-12 level when there 
is broad difference of opinion on this subject?
    Secretary Duncan. So I don't know if I would agree with 
your characterization as political activities. I can just speak 
as a parent of two young children at home, that my wife and I 
continue to get a very good education every single day if we 
don't recycle, if we waste water, if we don't turn off our 
lights.
    Mr. Bucshon. I guess that is fine. But I guess what I am 
saying is should the Federal Government, through an agency like 
the EPA, be telling our children these things? Or should it be 
us--I am a father of four children; I totally agree. We recycle 
everything. We want to do that. We want a clean environment for 
our children and grandchildren.
    But the question in my mind, again, is through our 
educational system, should we be, in my view, promoting what I 
consider a political agenda through an agency that is not 
involved directly in our educational system?
    Secretary Duncan. So you and I may agree or disagree on 
whether there is a political agenda there. What I will say is 
that there are many things that schools are asked today to do 
that maybe they shouldn't--in the past have had to do. Your 
four children are lucky to have an active family. My two 
children are lucky to have an active family. Unfortunately 
many, many children come into school each day who don't have 
those lessons at home.
    This is a little bit off topic. But I had tens of thousands 
of children in Chicago who I fed three meals a day to because 
they weren't eating. I sent food home with them on the weekends 
because I worried about them going hungry. People challenged 
me, was that the role of the school system to provide 
nutrition? In an ideal world, I wouldn't have to provide that, 
but I had to.
    So I would only say that whether it is around this or 
financial literacy or whatever it might be, schools are asked 
to do more than they have in the past. Is that a good thing? 
Maybe not. Is that a reality? Our children need to learn these 
lessons. And if they are not learning them at home, if they are 
not eating, if they are not getting eye glasses, schools and 
communities have to step up to provide those opportunities.
    Mr. Bucshon. I wouldn't disagree with that. My view is that 
the Environmental Protection Agency is not the avenue for the 
government to address these issues. If anyone is to address it, 
it should be State, local, or potentially Federal education 
people that really understand education.
    And, finally, I would like to say thank you for your 
testimony and for your advocacy for our Nation's children. So 
thank you.
    Secretary Duncan. Thank you, sir.
    Chairman Kline. I thank the gentleman. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here. My two cents' worth on gainful 
employment, I hope that as a rule that there is some date for 
implementation. I think it brings accountability both to the 
student for their education that they are taking a loan on and 
also to the taxpayers of fiscal accountability on how that 
money is being used. I think it is a good process that we are 
in, and I hope we continue it.
    The other observation--and I was glad the Secretary said 
that we need to have the educators, the practitioners at the 
table, as we start looking at turning schools around. My 
colleague also mentioned the stress on the pride of the 
profession. And I think you also mentioned that the profession 
is beat down right now for a lot of reasons.
    And I would suggest that all those things are true. But I 
would also suggest that recently we have seen a lot of attack 
and commentary against teachers based on collective bargaining 
agreements, based on the cost in the budget and the stresses 
some States are going through.
    The Governor of Wisconsin was bold enough to call teachers 
a privileged class that needed to be reduced more. I think as 
we try to lift the morale of teachers and also uplift the 
status of the profession, that that kind of commentary works in 
the opposite direction. It makes it harder for us to find good 
people to want to continue to be the critical partner in 
education, and that is educators.
    You also said something, Mr. Secretary. And I am asked 
about this back home all the time. You said, sometimes when I 
was the head of the public schools in Chicago, we would ignore 
the State so we could get stuff done at the local level.
    The improvement grants being a strategy, a question you 
hear more and more from local school districts, whether it is 
English learner issues, whether it is incentives for teachers 
to go into certain schools--more autonomy in terms of the 
resource allocation so they can apply it that way. How do you 
see that question evolving?
    Secretary Duncan. I absolutely agree with that sentiment. 
So school improvement grants go to a local community. They 
decide what the most effective use of those resources is. They 
decide how to turn around those schools. The Teacher Incentive 
Fund grant to go only to districts that come up with their 
creative ideas and want to implement. And we just want to 
reward--I keep going back. We are pushing everybody really hard 
to change. We are pushing management, we are pushing labor. All 
of us have to get better.
    But, Congressman, our Department has been a big part of the 
problem. We have been this big compliance-driven bureaucracy 
and we have stifled innovation, we have stifled creativity. We 
are trying to provide a lot more flexibility. We tried to 
shrink the Federal footprint, quite frankly. We want to reward 
excellence, we want to reward innovation, and we want to put 
resources behind places that are willing to do some things 
differently. And I think what we have done is we have unleashed 
a huge amount of creativity, a huge amount of courageous work, 
and we want to continue to take to scale those best practices.
    Mr. Grijalva. Middle schools, the proportionate share of 
Title I funds being an issue; Success in the Middle being 
another piece of legislation; the graduation promise piece of 
legislation. But I think they both directly and indirectly talk 
about the proportionate share of Title I funds going to those 
two parts of the continuum.
    Secretary Duncan. TRIO, Gear Up. And again, if we want to 
get serious about ending the dropout crisis, again, fifth 
sixth, seventh, eighth grade, we know what students are 
struggling. What are we doing to make sure students in eighth 
grade are taking high school algebra so they can be on a path 
to take, you know, AP calculus as a senior?
    If we are serious about reversing some of these negative 
outcomes, we have to intervene and provide great opportunities 
early. And that middle school sometimes is I think neglected, 
and your focus and others' focus is hugely important there. And 
we want to continue to invest again, whether it is Title I, 
school improvement grants, Teacher Incentive Fund, scarce 
resources to get great talent in there.
    The final piece, I would say, is the STEM piece. Often 
where students start to lose interest in science and technology 
and math is in middle school areas where the teachers don't 
quite know the content, don't have that. And getting more great 
STEM teachers--again, not just for the senior year in high 
school, but in fifth and sixth and seventh and eighth grade, 
could just open up a world of possibilities for students.
    Mr. Grijalva. Thank you. I yield back, sir.
    Chairman Kline. I thank the gentleman. Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. And Secretary Duncan, 
your staying power at the witness table is impressive, but 
probably should have been expected because of your record-
setting tenure in the Chicago Public Schools system as a 
superintendent.
    Secretary Duncan. You are wearing me down.
    Mr. Walberg. That was the school system, Cook County and 
Chicago school system of my birth and education as well. So for 
you to stay there that long indicates your staying power. So 
thank you for being with us.
    It was mentioned, the D.C. Opportunity Scholarships 
program, and there is certainly some disagreement on whether or 
not that should have been expanded, continued. I personally am 
one that likes to see a lot of competition, a lot of variety, a 
lot of framework for research and development that can come 
through things like that.
    But moving into my question, first in the higher education 
realm, the Department recently finalized regulations for higher 
education which have caused private and faith-based colleges, 
universities, some great concern as these regulations will most 
likely require increased regulation by the government, 
affecting potentially the autonomy and mission and really just 
liberty of these schools.
    Are you planning on clarifying these regulations or making 
accommodations for the concerns that you might have?
    Secretary Duncan. There has been great feedback. And let me 
sort of say where we are. And we will continue to clarify. So 
under the regulations, States are explicitly permitted to 
exempt religious schools. That exists now.
    Mr. Walberg. If I may jump in, is that exemption just for 
the mission courses; i.e., if it was a seminary or divinity 
school, that they would be exempt from some of the regulations 
just in the courses of religious education? Or would it be like 
one of my alma maters, Wheaton College for instance, where it 
is across the board?
    Secretary Duncan. Wheaton is a great university. It is 
exempting those schools.
    Mr. Walberg. The school in total?
    Secretary Duncan. Congress requires that States authorize 
schools. And we are just asking the States to do a couple of 
basic things. We are not trying to be heavy-handed or anything 
like that.
    A State has to have a process to review and appropriately 
act on complaints concerning the schools, just a place to hear 
what the issues are. A school is authorized by name as an 
educational institution by a State through a charter, a 
statute, a provision, or anything issued by the State. And the 
school complies with State approval and licenses. So just sort 
of the basic commonsense things that, you know, States have the 
responsibility given to them by Congress.
    Mr. Walberg. Well, there definitely is a lot of latitude 
potentially in there for concern for how far, how aggressive, 
the regulating entity of the States might be.
    Secretary Duncan. I understand that. We will continue to 
try to provide great clarity and I would be happy to continue 
the conversation. There are some States like New York that have 
done this extraordinarily well. So there are examples out there 
that I think are thoughtful and not heavy-handed, not 
overbearing. But I hear your concern.
    Mr. Walberg. I would applaud that effort because, again, 
the diversity that is there, this country is built on that as 
you, I am sure, would agree with.
    Secretary Duncan. I understand. And for all the challenges 
we have talked about with K-12, we have the best system of 
higher education in the world.
    Mr. Walberg. They all come here.
    Secretary Duncan. Yes.
    Mr. Walberg. Moving to foundational area with early 
childhood education, the administration's education budget 
wishes to spend, as I read it, $350 million for creating State-
run early education programs, Early Learning Challenge fund. 
This will lead to more requirements for existing preschool 
programs, many of which are privately run or faith-based as 
well.
    What will you do to ensure protection for the autonomy, the 
mission, the purpose of private preschool centers and schools 
as you go forward with this agenda?
    Secretary Duncan. So this is obviously a voluntary program. 
States can compete or not compete to come in. And again, we 
have just two goals: to increase access, particularly in 
disadvantaged communities for children who need these 
opportunities, and to make sure it is high quality. Those are 
our only two goals through the Early Learning Challenge fund.
    Mr. Walberg. There won't be any hurdles that would keep a 
school like this from applying or being able to apply due to 
resources, or to gain the resources because of some of those 
standards that we set arbitrarily?
    Secretary Duncan. Again we want to go to the most stressed 
communities and give those children and those families who are 
trying to give their children a chance at life a chance to have 
a great childhood education. That is our goal.
    Mr. Walberg. Thank you. I yield back my time.
    Chairman Kline. I thank the gentleman.
    In order to keep my promise to the Secretary, I regret to 
tell my colleagues that we are going to go on the 3-minute 
clock. I would like to give everybody in the room a chance to 
ask a question. Mr. Payne, you are recognized for 3 minutes.
    Mr. Payne. Thank you. For the new members that came or for 
those who have been here for the whole time? Anyway, I will try 
stay to 3 minutes.
    Last week, Mr. Secretary, during a committee hearing on 
education regulations, I asked the Loudon County district 
administrator from Virginia if he thought Virginia would still 
be focused on educating all students equally, advantaged and 
disadvantaged, if the disaggregation data required of NCLB had 
not shed light on such an achievement gap. To this, he answered 
the following. He said: In Loudon County, we actually 
disaggregated and reported disaggregated data before NCLB was 
law. We realized, he said, that when you are as wealthy and 
have as high a social economic index as we have, children do 
not have those same opportunities and are in greater danger of 
not succeeding.
    So I think it is very fair to say that probably one of the 
most important change outlooks of the law has been the 
disaggregation of data and reporting that. And I think it would 
be fair to say that had the law not been passed, practices 
would not have changed. We recognize in a place like Loudon 
County, it would have been easy to let the overall wonderful 
performance, on average, of our students mask the issue that we 
face. As far as I am concerned, this is the signal strength of 
the law.
    Now, his statement supports much of what has been alluded 
to today. NCLB drew attention to poor performance of specific 
subgroups in our schools and held schools accountable for 
improving their performance. However, some have inferred that 
the Department intends to have a targeted accountability 
focused only on the lowest 5 percent of schools. These schools 
educate a significant share of the Nation's disadvantaged 
youth, but there are also a large number of disadvantaged youth 
in schools above the 5 percent threshold who, prior to NCLB, 
were not receiving the attention they deserved because, as Dr. 
Hartwick said last week, it was too easy to let the overall 
wonderful performance, on average, mask the issue they faced.
    So in my opinion, I find it equally important to hold 
schools with demonstrated capacity to educate some of their 
students to high levels accountable for educating all students, 
regardless of the demographics.
    Can you assure us that, you know, to reiterate how the 
blueprint maintains accountability for student subgroups, since 
you are just basically going to focus on the lower 5 percent, 
and that other group not disaggregating can go back to the way 
it was before NCLB?
    Secretary Duncan. That is a great point. You can just rest 
assured that we are absolutely committed. I said in a pretty 
lengthy way in my opening statement how we are going to 
continue to disaggregate it, how that was one of the best 
things about NCLB, whether it is for minority children, whether 
it is for English language learners, we want to continue to 
look at those gaps and challenge them. So we will absolutely 
maintain that accountability.
    Let me give you one more, though. What I would also argue 
what never happened under NCLB are those districts that did a 
great job of closing those gaps, no one ever got rewarded, no 
one ever got recognized. We didn't learn from that. So, yes, we 
want to hold folks accountable. Desperately important. But we 
also want to shine a spotlight on success. And where you have 
districts that are closing gaps and helping every single 
student be successful, we want to recognize them. We want to 
reward them. We want to learn from them. We want to give them 
more flexibility.
    So, rewards at the top. Challenge folks to continue to 
improve. Massive interventions--as you know, if districts and 
schools aren't making differences--intervention, if that need 
be. But let's also reward excellence.
    Chairman Kline. The gentleman's time has expired. Mr. 
Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you in person after 
talking to you on the phone. I know you have a great passion 
for this. But I really do question where we are going with the 
spending because it is not that we don't spend enough, it is 
just that we don't get enough for what we spend.
    And if there was no clearer message on November 2, we have 
to rein in the spending. I am just looking at this. For a 
budget that has increased 68 percent in the last 3 years--in 
2009 alone, the budget tripled. My question--and Mr. Hunter 
asked this several times--why not redeploy funds that aren't 
working? And why isn't part of the strategy let's eliminate 
what is not working and put it into what is working?
    And I keep hearing about so many countries are doing it 
better than we are. Well, obviously, we must know what other 
countries are doing. Why continue down the same path that we 
are on, in not getting results, where in the private sector--I 
have got to tell you, when it is your own money, when it is 
your own skin in the game, you don't have that option of just 
spending it. I think the worst thing we can do is to continue 
to throw money at a problem. We have to start coming down to a 
strategy that actually fixes the problem.
    So please tell me what is the strategy for the DOE? Because 
a lot of people are starting to wonder, Why do we even have a 
DOE? We are spending tons of money and I am not seeing any 
results for it.
    Secretary Duncan. So what I would argue to you, sir, that 
in the past 2 years you have seen more change in this country 
than in the past decade or two combined. And I would make a 
pretty compelling case to you that because for the first time 
our Department was awarding excellence and encouraging that 
kind of creativity and ingenuity and courage, you have seen 
those dramatic changes. So I would be the first to concur with 
you.
    Our Department historically has been part of the problem. I 
have told the story repeatedly, that I almost had to sue our 
Department of Education when I ran the Chicago Public Schools 
for the right to tutor my children after school. It made no 
sense whatsoever. I won that fight.
    Mr. Kelly. I am not an adversary. There is not a person in 
this room that doesn't want better education for our kids. But 
there is also, on behalf of the taxpayers who fund every one of 
these programs, where is the return on investment and when do 
we start to see that there is actually a positive to this? 
Because everything I look at looks at a tremendous spend and a 
flat line.
    Secretary Duncan. I understand that. So I would argue that 
there is compelling, compelling, data that investments in early 
childhood education, particularly for disadvantaged children, 
are hugely important. So, yes, we want to invest there and we 
haven't in the past. I think that has been a strategic error on 
our part. We are trying to drive dramatic K-12 reform, higher 
standards, better assessments, much more flexibility to award 
excellence. And we are asking to continue to fund young people 
who are trying to go to college with access to Pell Grants who 
desperately need that.
    Mr. Kelly. And I understand that. But my question goes back 
to we keep spending more money, and at some point it has got to 
stop. It has absolutely got to stop. And the argument always 
is, well, there are a lot of people out there who aren't paying 
for their share. Really? Look what is being paid. There is no 
other country in the world that invests more in education than 
the United States and has a lower return on the investment.
    My concern is--and again, I am not adversarial. It is just 
at what point do we start to realize what we are doing isn't 
working, and when are we going to stop? And I understand that 
you are saying that there is compelling evidence that it is 
getting better.
    Chairman Kline. If I can interrupt. I am sorry, the 
gentleman's time has expired. Mr. Scott, you are recognized for 
3 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being with us. You mentioned 
the achievement gap. The 1954 Brown decision talked about the 
harm inflicted on children when the children of the minority 
race were denied an equal educational opportunity. The school 
system maintains a significant and persistent achievement gap. 
Are the children of the minority race being denied an equal 
educational opportunity in violation of their civil rights?
    Secretary Duncan. I think all of us have to use every fiber 
in our bodies to close those achievement gaps. And where you 
have huge and gaping achievement gaps, we are trying to push 
more dramatic change than we have ever seen. Every child has a 
right to have a great education. We have to provide those 
opportunities, particularly for disadvantaged children. That is 
the only way we end cycles of poverty and social failure.
    Mr. Scott. And speaking of civil rights, the Department of 
Education gives out grants. If the sponsor of a grant insisted 
on discriminating on employment based on religion or which 
church a job applicant attended, would your Department continue 
to fund such a program or not?
    Secretary Duncan. I understand the significance of the 
issue and the question. And it is one that I will follow up 
with the Department of Justice on.
    Mr. Scott. So it is possible that you might continue to 
fund an organization that has a policy of employment 
discrimination?
    Secretary Duncan. Well, again, this is an area where the 
Department of Justice I think can provide some real guidance 
and help. I will follow up with them directly.
    Mr. Scott. Civil rights implications of zero tolerance 
policies, particularly in pre-K, people being expelled. Can you 
tell us what the Department's position is on zero tolerance, 
kicking kids out of school without any services?
    Secretary Duncan. So one of the things the Office of Civil 
Rights is doing is looking at places where you might have 
disproportionate rates of expulsions or suspensions, whether it 
is by race or whether it is young boys of color. And where we 
are expelling students to the street, again, we are part of the 
problem. So we are going to track that. We are going to 
challenge that. And there are many places that are finding 
creative ways to help the students who have historically 
struggled to stay engaged in school and be successful, and we 
need to continue to learn from those examples.
    Mr. Scott. Since you are going to get back with me on the 
other, I have several questions that I am obviously not going 
to have time to address. But you indicated if a subgroup fails, 
the resources ought to be--the response ought to be targeted at 
that subgroup and not schoolwide. If you could follow up on 
that.
    And also you mentioned the importance of higher education. 
Could you tell me what your strategy for access to higher 
education is, and college completion, particularly as it 
pertains to the TRIO programs, whether or not the Promise 
Neighborhoods will be correlated with the dropout factories and 
whether there is a strategy of dealing with dropouts in No 
Child Left Behind? Some of the dropout factories are actually 
being awarded AYP, which seems absurd to me.
    And finally, there is a controversy over what to do with 
less qualified teachers, but there are two problems. To my 
knowledge, there is no accurate measure of what an effective 
teacher is. And you have the counterproductive school 
collaboration where teachers might not want to collaborate and 
take on problem children because it might adversely affect 
them. Can you talk about how you are going to identify who a 
qualified effective teacher is?
    Chairman Kline. The gentleman's time has expired. You will 
will have to talk about that on the record. And we would 
appreciate it if you would do so.
    Mr. Gowdy, you are recognized for 3 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Secretary, in the interest of full disclosure I had the 
privilege of hearing you speak in Colorado several years ago, 
and despite some differences, left that seminar finding you to 
be incredibly candid, challenging, willing to offend if 
necessary. And I want to thank you, along with my colleagues, 
for being here today.
    I just want to ask you about one thing because you 
mentioned reform. And in listening to your testimony, it 
strikes me that if a program is working or if it even appears 
to be working, you would be willing to continue it.
    So I have to go back to the Opportunity Scholarship 
program, a 91 percent graduation rate. Their reading scores are 
higher, their math scores may not be higher, but educational 
attainment is being reached even if, assuming arguendo, 
educational results are not. The parents like it. The demand 
outpaces the supply four to one. So why not continue it?
    Secretary Duncan. No. Again, more than fair question. I 
stated earlier that we fought very hard to keep children in the 
program, to be able to stay in those schools, and we are able 
to do that. I would disagree a little bit with you on results. 
I think the results were pretty mixed actually. But at the end 
of the day, what I see our responsibility here is to create a 
great system of public schools, where the private sector, where 
the philanthropic community, where individuals want to step up 
and provide scholarships to a relatively small number of 
students; that is fantastic. We need to do more of that.
    But we have to be much more ambitious. We have to fix the 
D.C. Public Schools. They have made remarkable progress. Great 
local leadership. We are continuing to invest in that 
transformation. They are a Race to the Top winner. My goal is 
not to save a handful of students and leave the other 500 to 
drown. My goal is to save every single child, and that is what 
I think our proper role should be.
    Mr. Gowdy. If I told you that we could craft legislation 
that funded all three sectors of the D.C. school system--
public, private, and charter--to fund all three of them, would 
you then support the Opportunity Scholarship program? If there 
was no harm being done at all to the public school system and 
no harm being done to the D.C. charter school system, you would 
then support it?
    Secretary Duncan. I don't think any harm is being done. 
Again, our focus has to be to create a great set of public 
schools. So they are expanding charter schools very 
significantly here. We want to create access to great public 
schools for every single child. That is where I think our focus 
has to be. I am a big fan of choice. I am a big fan of 
competition. But it has to be access across the board, not for 
a tiny percent of students.
    Mr. Gowdy. I will do something uncharacteristic and yield 
back, Mr. Chairman.
    Chairman Kline. I thank the gentleman. Mr. Holt you are 
recognized for the final 3-minute question of the day. I am 
almost going to keep my promise, Mr. Secretary.
    Mr. Holt. Thank you, Mr. Secretary. Thank you for your 
endurance and all of your good work.
    Let me just state two questions and three comments, ask you 
to get to them as time allows, or get back to me or the 
committee with your answers.
    First of all, ARPA-ED. What do you imagine doing with the 
$90 million and why is it important? Secondly, in your 
legislative proposal, you proposed ending the year-round or 
summer Pell Grant programs. Why are you taking on that? They 
are new, relatively new. Are they already determined not to be 
as successful? Why did you choose to cut there?
    My three comments or concerns. I remain concerned that the 
math and science partnerships are combined under teacher 
effectiveness. And it puts science in competition with, oh, 
gender equality and foreign languages and other such things. 
And I question the wisdom of that.
    Also, you are celebrated for your competitive grants and 
indeed you have shown how the competitive instinct gets people 
to work hard. But if the best practice is not replicated and 
extended, it turns out to be very inequitable. And I guess I 
would like to know what measures you are applying to see that 
in--again, this is new, too. So I mean, you have only been at 
it for a couple of years, but what measures are you applying to 
see that the competitive grant actually results in, well, 
lifting all boats?
    And I had a third concern, but I will let it go at that. 
Thank you, Mr. Secretary.
    Secretary Duncan. So on ARPA-ED--and I appreciate you 
bringing that up--what I have said repeatedly is that I think 
the education sector has lacked the transformational change 
that other sectors have had. I think technology can do an 
amazing job of equalizing opportunity and accelerating 
learning. I think we have to be much more thoughtful there. We 
need to invest more in R&D. And this is a chance for us to 
invest in a set of players that could potentially transform the 
learning for young people. And I think a part of our job is not 
just to deal with the day-to-day issues today but to look over 
the horizon.
    What DARPA has done I think is pretty extraordinary. And if 
we can see those kinds of transformational changes in the 
education sector, in part due to our investment, that would be 
a hugely important piece of work that we can do for the 
country.
    On summer Pell, we discussed it a couple of times, that 
again in an ideal world, in flusher times, this is not a choice 
I would have begun to have thought about. In very tough budget 
times you have to make tough choices. The summer Pell was set 
up with an estimate of a couple hundred million dollars a year 
and ended up being a couple of billion dollars. In a perfect 
world, we would continue that. In tough budget times, we have 
to make tough choices. And our choice was to try and maintain 
the commitment for the $5,550 Pell for everybody.
    Mr. Holt. Thank you Mr. Secretary. Thank you, Mr. Chairman.
    Chairman Kline. Thank you. The gentleman's time has 
expired. Mr. Miller, you are recognized for any closing 
remarks.
    Mr. Miller. I won't take any more of the Secretary's time. 
Thank you, Mr. Secretary. We will all have follow-up 
conversations. I thank you.
    Chairman Kline. Mr. Secretary I thank you. I do have one 
note that I would like to bring up. The last time we had a 
hearing, we asked for some responses for the record. We, 
frankly, had the hearing in March and got the answers in 
December.
    We have had several requests today. I hope you will look at 
getting those responses in as timely a way as possible. I 
apologize to you; I am 7 minutes over. Thank you very, very 
much for your attendance, for your testimony, and for your 
responses.
    There being no further business, the hearing is adjourned.
    [Questions submitted for the record and their responses 
follow:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Responses from Secretary Duncan follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
   Secretary Duncan's Responses to Questions Submitted for the Record

Chairman John Kline
    1. How many political appointees are employed by the Department as 
of March 28, 2011? How many full-time employees (FTEs) are working at 
the Department as of March 28, 2011? Provide a breakdown of political 
appointees and FTEs by program office. Provide a comparison of these 
aggregate numbers to political appointees and FTEs employed by the 
Department for each of the last 30 years, broken down by fiscal year 
(1980-2010).

    As of March 28, 2011 the number of political appointees is 145 and 
the number of full-time employees is 4,315. A table has been provided 
displaying the number of political appointees and FTEs for each of the 
past 30 years.



--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             1980\3\               1981\4\               1982\4\               1983\4\               1984\5\               1985\5\               1986\6\               1987\6\               1988\6\               1989\4\
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                   Program office                     Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time
                                                      appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Secretary...........................................  .........      1,484  .........      1,458  .........        212  .........        198         25        151         16        163  .........         47  .........         67  .........         65  .........         66
Deputy Secretary....................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Under Secretary.....................................  .........  .........  .........  .........  .........         29  .........         36          9         59         23         45  .........         43  .........         20  .........         22  .........         17
Civil Rights........................................  .........      1,092  .........      1,050  .........        970  .........        922          7        922          5        879  .........        840  .........        831  .........        778  .........        784
Inspector General...................................  .........        236  .........        283  .........        272  .........        283          1        315          1        288  .........        263  .........        314  .........        302  .........        328
General Counsel.....................................  .........         75  .........         92  .........         84  .........         85          2         95          1         95  .........         96  .........        102  .........        100  .........         95
Special Ed and Rehabilitative Services..............  .........        510  .........        507  .........        464  .........        459         12        433         10        402  .........        378  .........        385  .........        396  .........        403
Postsecondary Education.............................  .........      1,176  .........      1,091  .........      1,213  .........      1,182         10      1,210         10      1,054  .........        995  .........      1,169  .........        997  .........      1,068
Federal Student Aid.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Institute of Education Sciences\1\..................  .........        803  .........        614  .........        520  .........        463         10        447          7        447  .........        402  .........        432  .........        417  .........        454
Elementary and Secondary Education..................  .........        458  .........        496  .........        359  .........        271          7        265          5        254  .........        239  .........        259  .........        253  .........        242
Vocational and Adult Education......................  .........        180  .........        172  .........        147  .........        125          5        114          6        117  .........        102  .........        109  .........        107  .........        104
Chief Financial Officer.............................  .........  .........  .........  .........  .........        107  .........        115          4        117          5        108  .........        151  .........        166  .........        168  .........        166
Chief Information Officer...........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Safe and Drug Free Schools..........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Innovation and Improvement..........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Planning, Evaluation and Policy Develop.............  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Intergovernmental and Interagency Affairs...........  .........  .........  .........  .........  .........         73  .........         51          8         72         13         65  .........        110  .........        121  .........        102  .........        112
Communications and Outreach.........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
English Language Acquisition........................  .........         53  .........         57  .........         54  .........         50          3         52          3         47  .........         48  .........         45  .........         49  .........         44
Advisory Councils and Committees....................  .........  .........  .........  .........  .........         24  .........  .........  .........         28  .........         23  .........         17  .........         16  .........         12  .........         17
Management..........................................  .........  .........  .........  .........  .........        783  .........        739         11        736         13        618  .........        653  .........        636  .........        611  .........        623
Legislative and Congressional Affairs...............  .........  .........  .........  .........  .........         69  .........         69         13         61         11         62  .........         25  .........         26  .........         25  .........         22
Institute of Museum Services........................  .........  .........  .........  .........  .........          5  .........          9  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
National Institute for Literacy.....................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
National Assessment Governing Board.................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Miscellaneous Offices...............................  .........         11  .........  .........  .........  .........  .........         21  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total.........................................        102      6,078        115      5,820        125      5,385        128      5,078        127      5,077        129      4,667        140      4,409        127      4,698        118      4,404        129      4,545
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Notes:
  \1\ Prior to August 2003 was called Office of Educational Research and Improvement.
  \2\ Only Full Time Equivalent Usage Available for 1992 and 1994 and is not comparable to full-time employees.
  \3\ Political Appointees for 1980 are as of November 1980 by total only.
  \4\ Political Appointees for years 1981-1983, 1989-1991, 1994, and 1995 are as of December of each year by total only.
  \5\ Political Appointees for years 1984-1985 are as of March of each year by Program Office.
  \6\ Political Appointees for years 1986-1988 are as of September of each year by total only.
  \7\ Political Appointees for years 1992, 1993, 1996-2010 are as of September of each year by Program Office.
  \8\ Political Appointees and Full Time Employees for 2011 as of March 28, 2011



--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             1990\4\               1991\4\               1992\7\               1993\7\               1994\4\               1995\4\               1996\7\                1997                  1998                  1999
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                   Program office                     Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time
                                                      appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Secretary...........................................  .........        112  .........        115         31        110         38        117  .........        110  .........        105         35         95         41        102         40        100         37        102
Deputy Secretary....................................  .........  .........  .........  .........          8         25         10  .........  .........         20  .........         22         12         17         10         23         10         26         12         27
Under Secretary.....................................  .........         20  .........         24          4         16          1         17  .........        132  .........        130          5        126          4        126          1        125          1        126
Civil Rights........................................  .........        800  .........        856          8        848          5        848  .........        821  .........        760          5        721          5        650          5        720          4        706
Inspector General...................................  .........        329  .........        358          1        350          1        369  .........        358  .........        326          1        286          2        275          0        289          2        281
General Counsel.....................................  .........         95  .........         95          4        103          2         99  .........        106  .........        104          4        104          4        106          3         97          3        100
Special Ed and Rehabilitative Services..............  .........        421  .........        400          8        407          2        404  .........        388  .........        349         10        338         10        352          9        351          9        361
Postsecondary Education.............................  .........      1,116  .........      1,169         13      1,146          7      1,234  .........      1,240  .........      1,507         12      1,398         11      1,409         10      1,350         14        246
Federal Student Aid.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........      1,165
Institute of Education Sciences\1\..................  .........        431  .........        472          9        448          6        431  .........        407  .........        359          3        343          2        346          2        340          1        338
Elementary and Secondary Education..................  .........        267  .........        300         10        254          3        262  .........        213  .........        239          8        231         12        246         13        256         10        253
Vocational and Adult Education......................  .........        112  .........        121          8        112          3        106  .........        102  .........        111          5        107          7        110          7        114          6        122
Chief Financial Officer.............................  .........        134  .........        136          3        168  .........        239  .........        313  .........        322  .........        304          2        260          1        317          0        263
Chief Information Officer...........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........         80
Safe and Drug Free Schools..........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Innovation and Improvement..........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Planning, Evaluation and Policy Develop.............  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Intergovernmental and Interagency Affairs...........  .........        113  .........        110         39        108         20         91  .........        100  .........         99         27        110         32        106         35        115         39        125
Communications and Outreach.........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
English Language Acquisition........................  .........         46  .........         48          2         51          1         45  .........         42  .........         46          4         43          5         47          3         46          1         49
Advisory Councils and Committees....................  .........         14  .........         10  .........         12  .........         14  .........         12  .........          7  .........          7  .........          7          0          7          0          8
Management..........................................  .........        602  .........        675          8        621  .........        499        330  .........        301  .........          1        289  .........        286          0        197          0        194
Legislative and Congressional Affairs...............  .........         22  .........         23          8         26          5         22  .........         22  .........         23          5         22          5         22          6         21          6         22
Institute of Museum Services........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
National Institute for Literacy.....................  .........  .........  .........  .........  .........          6  .........         10  .........         11  .........         13  .........         13  .........         12          0         14          0         15
National Assessment Governing Board.................  .........  .........  .........  .........  .........         10  .........         10  .........         10  .........          9  .........          9  .........         10          0         10          0         10
Miscellaneous Offices...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total.........................................        160      4,634        174      4,912        164      4,821        104      4,817        156      4,737        147      4,832        137      4,563        152      4,495        145      4,495        145      4,593
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Notes:
  \1\ Prior to August 2003 was called Office of Educational Research and Improvement.
  \2\ Only Full Time Equivalent Usage Available for 1992 and 1994 and is not comparable to full-time employees.
  \3\ Political Appointees for 1980 are as of November 1980 by total only.
  \4\ Political Appointees for years 1981-1983, 1989-1991, 1994, and 1995 are as of December of each year by total only.
  \5\ Political Appointees for years 1984-1985 are as of March of each year by Program Office.
  \6\ Political Appointees for years 1986-1988 are as of September of each year by total only.
  \7\ Political Appointees for years 1992, 1993, 1996-2010 are as of September of each year by Program Office.
  \8\ Political Appointees and Full Time Employees for 2011 as of March 28, 2011



--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              2000                  2001                  2002                  2003                  2004                  2005                  2006                  2007                  2008                  2009
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                   Program office                     Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time  Political  Full-time
                                                      appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees  appointee  employees
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Secretary...........................................         40        100         27         85         53        130         58        136         50        144         39        118         40        122         40        123         31        125         32        128
Deputy Secretary....................................         10         22          7         17          9         19          2         99         11         68          6         12          6         10          5         12          3          8          8         13
Under Secretary.....................................          0        124          6        126          8        127         10         47          3         89          1          2          2          1          5          5          5          7          7          8
Civil Rights........................................          5        686          0        697          7        676          5        646          2        643          5        613          6        598          8        599          4        577          2        554
Inspector General...................................          2        261          1        280          0        275          1        277          1        268          1        303          1        289          1        271          0        272          0        291
General Counsel.....................................          3         96          2         94          4         97          5         98          5         96          4         97          5         92          7         97          7         92          5         96
Special Ed and Rehabilitative Services..............          8        359          4        363          9        362          7        357          6        344          6        299          7        259          4        259          4        262          3        266
Postsecondary Education.............................         11        257          0        224          8        225          6        239          6        228          5        227          6        215          6        208          3        211          0        205
Federal Student Aid.................................  .........      1,175  .........      1,172  .........      1,128  .........      1,069  .........      1,070  .........      1,007  .........        979  .........      1,005  .........      1,008  .........        968
Institute of Education Sciences\1\..................          1        308          1        307          2        277          2        177          3        171          1        184          1        178          1        183          1        183          1        188
Elementary and Secondary Education..................          8        261          4        255         11        268          6        210          8        170         10        200         10        200         11        203         10        211          5        218
Vocational and Adult Education......................          6        117          2        117          5        118          4        123          6        119          4        115          2         97          4         94          4         94          4         89
Chief Financial Officer.............................          0        265          0        280          4        277          4        288          4        280          3        275          3        271          2        258          2        262          0        182
Chief Information Officer...........................          0        106          0        103          0        110          0        106          0        102          0         96          0         77          0         70          0         67          0        138
Safe and Drug Free Schools..........................  .........  .........  .........  .........  .........  .........          2         49          3         54          4         50          4         49          4         46          4         44          3         43
Innovation and Improvement..........................  .........  .........  .........  .........  .........  .........          5         84          3         91          2         86          2         87          4         89          4         88          5         84
Planning, Evaluation and Policy Develop.............  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........          4        112          4        112          6        114          6        124          7        125
Intergovernmental and Interagency Affairs...........         32        127         11        104         25        105         26        105         27        106          8         10  .........  .........  .........  .........  .........  .........  .........  .........
Communications and Outreach.........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........         31        122         44        135         44        135         40        130         13        106
English Language Acquisition........................          1         51          0         48          4         48          4         45          4         43          1         38          2         41          2         37          0         30          0         22
Advisory Councils and Committees....................          0          7          0          7          0          9          0          9          0          7          0          7          0          8          0          8          0          5          0          5
Management..........................................          0        187          0        196          5        194          6        189          3        178          3        165          4        182          4        179          4        196          1        189
Legislative and Congressional Affairs...............          6         23          5         20          5         19         10         25         10         25         10         24          9         23         11         24          6         19          6         21
Institute of Museum Services........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
National Institute for Literacy.....................          0         16          0         17          0         13          0         16          0         13          0         11          0         17          0         14          0         12          0         11
National Assessment Governing Board.................          0         10          0         11          0         11          0         11          0         10          0         12          0         11          0         11          0         11          0         12
Miscellaneous Offices...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
                                                     ---------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total.........................................        133      4,558         70      4,523        159      4,488        163      4,405        155      4,319        148      4,185        158      4,053        169      4,044        138      4,038        102      3,962
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Notes:
  \1\ Prior to August 2003 was called Office of Educational Research and Improvement.
  \2\ Only Full Time Equivalent Usage Available for 1992 and 1994 and is not comparable to full-time employees.
  \3\ Political Appointees for 1980 are as of November 1980 by total only.
  \4\ Political Appointees for years 1981-1983, 1989-1991, 1994, and 1995 are as of December of each year by total only.
  \5\ Political Appointees for years 1984-1985 are as of March of each year by Program Office.
  \6\ Political Appointees for years 1986-1988 are as of September of each year by total only.
  \7\ Political Appointees for years 1992, 1993, 1996-2010 are as of September of each year by Program Office.
  \8\ Political Appointees and Full Time Employees for 2011 as of March 28, 2011



------------------------------------------------------------------------
                                      2010                 2011\8\
                             -------------------------------------------
       Program office         Political  Full-time  Political  Full-time
                              appointee  employees  appointee  employees
------------------------------------------------------------------------
Secretary...................         39        140         37        145
Deputy Secretary............          8         16         10         33
Under Secretary.............         10         10         10         13
Civil Rights................          7        609          7        604
Inspector General...........          1        327          1        323
General Counsel.............          6         95          6         91
Special Ed and                        6        267          6        266
 Rehabilitative Services....
Postsecondary Education.....          3        213          3        210
Federal Student Aid.........  .........      1,157          0      1,212
Institute of Education                1        194          2        187
 Sciences\1\................
Elementary and Secondary             11        239         12        226
 Education..................
Vocational and Adult                  7         85          6         82
 Education..................
Chief Financial Officer.....          0        191          0        185
Chief Information Officer...          0        128          0        132
Safe and Drug Free Schools..          3         42          3         43
Innovation and Improvement..          7         94          6        101
Planning, Evaluation and             11        133         12        130
 Policy Develop.............
Intergovernmental and         .........  .........  .........  .........
 Interagency Affairs........
Communications and Outreach.         14        104         16        104
English Language Acquisition          1         20          2         22
Advisory Councils and                 0          6          0          5
 Committees.................
Management..................          1        183          0        171
Legislative and                       7         20          6         18
 Congressional Affairs......
Institute of Museum Services  .........  .........  .........  .........
National Institute for                0         10  .........  .........
 Literacy...................
National Assessment                   0         12          0         12
 Governing Board............
Miscellaneous Offices.......  .........  .........  .........  .........
                             -------------------------------------------
      Total.................        143      4,295        145      4,315
------------------------------------------------------------------------
Notes:
  \1\ Prior to August 2003 was called Office of Educational Research and
  Improvement.
  \2\ Only Full Time Equivalent Usage Available for 1992 and 1994 and is
  not comparable to full-time employees.
  \3\ Political Appointees for 1980 are as of November 1980 by total
  only.
  \4\ Political Appointees for years 1981-1983, 1989-1991, 1994, and
  1995 are as of December of each year by total only.
  \5\ Political Appointees for years 1984-1985 are as of March of each
  year by Program Office.
  \6\ Political Appointees for years 1986-1988 are as of September of
  each year by total only.
  \7\ Political Appointees for years 1992, 1993, 1996-2010 are as of
  September of each year by Program Office.
  \8\ Political Appointees and Full Time Employees for 2011 as of March
  28, 2011

    2. How many new employees is the Department expected to hire in the 
next fiscal year? What specific projects and program offices are these 
new employees connected to?

    The Department's 2012 budget includes a net increase of 61 
positions in fiscal year (FY) 2012. Twenty of the positions are for 
Federal Student Aid, primarily due to increases resulting from the 
Student Aid and Fiscal Responsibility Act (SAFRA), which terminated the 
Federal Family Education Loans program and shifted all new Federal loan 
originations to the Direct Loan program.
    Fifteen positions are to help the Department achieve other high-
priority performance goals. These efforts will include providing 
technical assistance to States to help achieve education reform (7 
positions in the Office of the Deputy Secretary); enhancing and 
increasing the Department's program evaluations (6 positions in the 
Institute of Education Sciences); administering the proposed Workforce 
Innovation Fund, in conjunction with the Department of Labor (1 
position in the Office of Vocational and Adult Education); and 
supporting the Rehabilitation Service Administration's Management 
Information System (1 position in the Office of Special Education and 
Rehabilitation Services).
    An additional 12 positions are included in the 2012 budget for the 
Office for Civil Rights to handle increased workload. In FY 2010, OCR 
received 6,933 complaints, a 9 percent increase from FY 2009--the 
largest number of complaints ever received by the office.
    Lastly, the 2012 budget includes an additional 30 positions for the 
Office of Inspector General. In order to fully address high-priority 
areas, additional auditors and investigators are needed to perform a 
larger number of audits and to conduct investigations larger in scope, 
with emphasis on programs funded by the American Recovery and 
Reinvestment Act (Recovery Act), including the Race to the Top and 
Investing in Innovation programs, as well as oversight of guaranty 
agencies, Direct Loans, and distance education. The additional auditors 
and investigators, supported by additional Information Technology 
Audits and Computer Crime Investigations staff, also will allow OIG to 
expand reviews of student loan programs.
    The addition of these 77 new positions will be partially offset by 
the elimination of 16 positions of staff currently working on the 
administration of the Recovery Act and the Education Jobs Fund, and 
through the streamlining of administrative processes in several areas 
of the Department.

    3. How many contracts does the Department utilize to operate its 
programs and projects, as of March 28, 2011? For each contract, specify 
how many contractors and subcontractors are utilized to carry out the 
required activities. For each contract, also specify the number of 
workers attached to the particular contract. In complying with this 
request, group the relevant information by program office. List the 
number of contracts, contractors, subcontractors, and workers assigned 
to the Direct Loan program. How many contracts utilize more than ten 
contractors?

    The number of active contracts, as of March 28, 2011, is listed 
below.


------------------------------------------------------------------------
                                                            Number of
                    Principal office                          active
                                                            contracts
------------------------------------------------------------------------
Advisory Committee on Student Financial Assistance.....               6
Institute of Education Sciences........................             198
National Assessment Governing Board....................              24
Office of the Chief Financial Officer..................              18
Office of the Chief Information Officer................              35
Office of Communications and Outreach..................              40
Office for Civil Rights................................              38
Office of English Language Acquisition.................               1
Office of Elementary and Secondary Education...........              32
Office of the General Counsel..........................               1
Office of Inspector General............................              41
Office of Innovation and Improvement...................              13
Office of Legislative and Congressional Affairs........               1
Office of Management...................................             116
Office of Postsecondary Education......................              46
Office of Planning, Evaluation, and Policy Development.              30
Office of the Secretary................................              23
Office of Safe and Drug-Free Schools...................              10
Office of Special Education and Rehabilitative Services              28
Office of Vocational and Adult Education...............              22
Federal Student Aid....................................             228
                                                        ----------------
      Total............................................             951
------------------------------------------------------------------------

    Each contract is between the Department and one prime contractor. 
The number of subcontractors per contract is not tracked except under 
the Direct Loan program.
    The Department does not track the number of workers attached to a 
particular contract except under the Direct Loan program.
    A total of 36 contracts are associated with the Direct Loan 
program. The contracts are with 33 contractors and 15 subcontractors, 
and include approximately 7,600 contract workers. The Department does 
not assign staff to specific programs, as there are many functions, 
activities and contracts that overlap programs--1,034 federal employees 
work on some aspect of the Direct Loan program.

    4. How many additional employees (defined as FTEs, contractors, and 
people working under current or new contracts) will be needed once the 
Department assumes ownership of all federal student loans in the 
country? How many additional employees would be needed to implement the 
Administration's proposed changes to the student loan programs included 
in the Department's fiscal year (FY) 2012 budget request?

    Under current law, the Department will not assume ownership of all 
federal student loans in the country. However, the Department has 
purchased a significant share of recent loan volume pursuant to the 
Ensuring Continued Access to Student Loans Act of 2008 (ECASLA), as 
lenders exercised the option to sell these loans to the Department. In 
addition, per the Student Aid and Fiscal Responsibility Act (SAFRA), as 
of July 1, 2010, the Department has begun to originate 100 percent of 
all new student loan volume that was previously divided between the 
Direct Loan program and the Federal Family Education Loan program. 
Implementing these two pieces of legislation has required approximately 
120 new federal staff. While the Department does not track exact 
figures for contract personnel, approximately 3,400 additional contract 
workers have been needed to implement ECASLA and SAFRA.
    The Department expects that 5 additional employees will be needed 
to implement proposed changes to the student loan programs. Some 
additional contract staff may also be needed.

    5. What cost efficiencies have been undertaken to reduce the 
Department's Administrative budget since January 20, 2009?

    The Department has undertaken a number of steps to reduce the 
Department's Administrative budget since January 20, 2009, including 
the following:
    <bullet> Savings through dissolving the National Institute for 
Literacy.
    <bullet> Savings realized through implementing the Department's ED 
Pubs project, which distributes Department publications, through an 
interagency agreement rather than through a contract.
    <bullet> Savings through reducing the number of leased computers 
and printers.
    <bullet> Efficiencies through Deputy Secretary review of the annual 
acquisition plan and elimination of programs and contracts.
    <bullet> Savings through strategic sourcing, including 
strategically sourcing office supplies and preparing to transition to 
the new Federal Strategic Sourcing Initiative for office supplies 
(OS2), strategically sourcing online subscription services, and 
developing in-house strategic sourcing methods for conference planning.
    <bullet> Savings through the implementation of a five-year plan to 
consolidate building locations within the Washington, D.C. area, which 
will reduce rental and security costs.
    Federal Student Aid programs have seen savings through:
    <bullet> Changing the Common Origination and Disbursement 
fulfillment processes to replace paper letters to borrowers (in 
specific circumstances) with electronic notices.
    <bullet> Modifying the Common Services for Borrowers (CSB) contract 
modification to eliminate borrower account transfer fees, when accounts 
were moved from CSB to other servicers.
    <bullet> Reducing the percentage payout rate through negotiated 
pricing with Federal Student Aid Private Collection Agency contracts.
    <bullet> Cost avoidance of development work costs through a 
renegotiated contract for the Default Management Collection System.

    6. The Administration's Elementary and Secondary Education Act 
(ESEA) reauthorization proposal requires states and school districts to 
focus accountability and school turnaround efforts on the lowest 
performing schools in the state and defines this category as the bottom 
5 percent of schools. How did the Department determine that 5 percent 
is the appropriate cut-off, and what data was used to ensure the 
students most in need will be reached by this proposal to focus on the 
bottom 5 percent of schools?

    Our proposal requires states and districts to focus specific 
intensive interventions on the 5 percent of schools that represent the 
lowest achieving schools in the State that also are not improving, 
because these are schools that have consistently failed their students 
and communities. While there are additional schools that may need 
significant intervention to improve, we limited the most intensive 
interventions to 5 percent of schools because states and districts may 
not have the capacity to fully and effectively implement these 
interventions in too many schools, and we want them to focus their most 
intense support and resources on a limited number of schools that are 
farthest behind to increase their chances of success in improving these 
schools. The Department has examined state performance data over time, 
as well as research and reports from outside organizations to determine 
there are very low-performing schools that are not improving across the 
country, where intensive support is needed. For example, research has 
found that there are approximately 1,600 ``dropout factories'' where 
less than 60 percent of 9th-grade students are still enrolled in 12th 
grade, which represent about 10 percent of all high schools. Beyond 
this 5 percent of schools, our proposal would also require states to 
implement evidence-based, data-driven interventions in the next-lowest 
5 percent of such schools and the 5 percent of schools with the largest 
achievement gaps that aren't closing, which will help ensure that 
states focus on the schools and students most in need.

    7. Several states, including Indiana, Wisconsin, Florida, and New 
Jersey are making dramatic changes to their K-12 education systems that 
improve student academic achievement. Has the Department examined 
whether there are provisions in federal law or regulation that may 
limit the ability of state and local leaders to innovate? If so, what 
are those provisions?

    The Department wants to right-size the federal role and to serve as 
an engine of innovation, not a compliance-driven bureaucracy. Our 
Elementary and Secondary Education Act (ESEA) reauthorization proposal 
is designed to reduce burden and allow States and districts to focus on 
results. Through proposed program consolidations, streamlined 
accountability systems, and other measures, we would reduce red tape so 
that state and local leaders can focus on innovating and improving 
student achievement.
    Also, at the President's direction, the Department and other 
agencies are undertaking a collaborative process to coordinate and 
streamline requirements as well as reduce administrative, regulatory, 
and legislative barriers. While this work is still in its initial 
phases, the Department hopes it will help to reduce burden and improve 
results. Finally, there are many existing flexibilities that are under-
utilized by States and districts. The Department is taking steps to 
shine a bright light on these burden-reducing options and to identify 
innovative practices in using them. In March, the Department brought 
together in one place options and ideas for handling education funding 
in tough budget times and released this information to Governors. The 
materials and technical assistance, which are available on our website 
(http://www.ed.gov/news/press-releases/department-education-provides-
promising-practices-productivity-flexibility), clarify the 
flexibilities available for using federal funds, which can reduce 
burden and provide more room for local innovation if states and schools 
districts take advantage of these opportunities.

    8. Mr. Secretary, you have stated that it is critically important 
for parents to be involved in their children's education. Where do you 
stand on the idea of allowing parents to petition school districts for 
the right to turn around their schools (a.k.a. a parent trigger)?

    We are in favor of parents demanding excellence in their schools. 
We need to do a better job of empowering our parents to demand a high-
quality education and better, safer schools for their children. Parents 
should have good options and demand better schools when their children 
are consistently being ill-served, but for public school choice 
programs and school improvement efforts to work, they have to be fair, 
open, and transparent and fully engage parents so they can make the 
best decision for their children.

    9. The Department has made several changes affecting student 
privacy and has been actively working on new regulations under the 
Family Educational Rights and Privacy Act (FERPA). What has the 
Department done to help states and school districts protect the 
personal information of students they are required to collect? What 
changes is the Department planning to make to protect student privacy?

    The use of data is vital to ensuring the best education for our 
children. However, the benefits of using student data must always be 
balanced with the need to protect students' privacy rights. Students 
and their parents should expect that their personal information is 
safe, properly collected and maintained and that it is used only for 
appropriate purposes and not improperly disclosed. It is imperative to 
protect students' privacy to avoid discrimination, identity theft or 
other malicious and damaging criminal acts. All education data holders 
must act responsibly and be held accountable for safeguarding students' 
personally identifiable information--from practitioners of early 
learning to those developing systems across the education continuum (P-
20) and from schools to their contractors. For this reason, the 
Department has begun several initiatives to provide technical 
assistance to States, districts and schools to protect the privacy 
rights of students and promote the responsible use of data to inform 
education policy.
                         chief privacy officer
    The Department has hired its first Chief Privacy Officer. Kathleen 
Styles joins the Department from the U.S. Census Bureau where she most 
recently served as Chief of the Office of Analysis and Executive 
Support. In that role she managed a portfolio that included 
confidentiality, data management, the Freedom of Information Act 
(FOIA), privacy policy and coordination for the acquisition and 
management of data from other agencies. She has extensive experience 
with Federal data collections, including the decennial census, and with 
ensuring appropriate protections for large databases. As Chief Privacy 
Officer, Ms. Styles oversees a new division at the Department dedicated 
to advancing the responsible stewardship, collection, use, maintenance 
and disclosure of information at both the national level and for 
States, local educational agencies (LEAs), postsecondary institutions 
and other education stakeholders. Her office will help to ensure that 
the Department complies with applicable legal obligations and 
epitomizes the best practices we espouse. It will work with other 
Department offices to include privacy, confidentiality and data 
security requirements in Department policies and programs; coordinate 
the development and delivery of privacy training for all Department 
employees and contractors; oversee the Department's retention and 
disposition of records; coordinate the development of official 
Department guidance for the education field on topics such as data 
stewardship, electronic data security and statistical methods for data 
protection; serve on the advisory board that manages the work of the 
Privacy Technical Assistance Center; and administer the Department's 
responsibilities under the following statutes: FERPA, the Protection of 
Pupil Rights Amendment (PPRA), the military recruiter provision of the 
ESEA, the Privacy Act of 1974, as amended, and FOIA.
                  privacy technical assistance center
    The Department has established a Privacy Technical Assistance 
Center (PTAC) which serves as a one-stop resource for State educational 
agencies (SEAs), LEAs, the postsecondary community and other parties 
engaged in building and using education data systems. PTAC's role is to 
provide timely and accurate information and guidance about data 
privacy, confidentiality, and security issues and practices in 
education; disseminate this information to the field and the public; 
and provide technical assistance to key stakeholders. PTAC will share 
lessons learned; provide technical assistance in both group settings 
and in one-on-one meetings with States; and create training materials 
on privacy, confidentiality and security issues. PTAC will accomplish 
its mission by providing:
    <bullet> A ``privacy toolkit'' including such resources as common 
FAQs, FERPA guidance and checklists for data governance plans;
    <bullet> Technical assistance site visits that offer in-depth 
reviews of data policies and practices;
    <bullet> Training materials that offer real-world examples of 
proper data governance strategies;
    <bullet> A help desk that provides a centralized location for 
education stakeholders to submit questions to the Department; and
    <bullet> Regional meetings for sharing training materials and 
facilitating the sharing of best practices.
    At conferences and State-requested site visits, State educational 
agencies have responded very positively to PTAC and its offerings, both 
in terms of its content expertise, such as reviewing security 
architecture plans, and its ability to provide important and timely 
input to strengthen and inform the work of States.
                            technical briefs
    The National Center for Education Statistics has been working on a 
new series of technical briefs that further the national conversation 
on effective practices for overall data stewardship, which include data 
security and privacy protections. The methods in the briefs incorporate 
NCES statistical expertise and best practices from the field and 
consider various Federal data privacy laws, including, but not limited 
to FERPA. These best practices are presented as voluntary methods and 
not a one-size-fits-all solution. NCES has already released the 
following three briefs: Basic Concepts and Definitions for Privacy and 
Confidentiality in Student Education Records; Data Stewardship: 
Managing Personally Identifiable Information in Electronic Student 
Education Records; and Statistical Methods for Protecting Personally 
Identifiable Information in Aggregate Reporting. The technical briefs 
can be accessed online at http://nces.ed.gov/programs/ptac/
TechnicalBriefs.aspx. The Department will release at least four more 
technical briefs, covering the topics of Electronic Data Security, Data 
Access for External Researchers, Data Sharing across Sectors and 
Training. The Department encourages the public to review these 
resources as they become available and to direct comments to: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e2b1aea6b19687818a80908b8784a28786cc858d94cc">[email&#160;protected]</a>
                 proposed changes to ferpa regulations
    The Department has also released a Notice of Proposed Rulemaking 
(NPRM) outlining proposed amendments to its regulations implementing 
FERPA. Over time, interpretations of FERPA have complicated valid and 
necessary disclosures of student information without increasing privacy 
protections and, in some cases, dramatically decreased the protections 
afforded students. As States develop their longitudinal data systems, 
the Department has been informed of significant confusion in the 
education field surrounding what are permissible disclosures of 
personally identifiable student information from education records. 
This confusion has led to delays in developing these systems or States 
proceeding in ways that may ultimately jeopardize student privacy. It 
was imperative for the Department to propose clarifying amendments to 
the FERPA regulations to ensure that these systems are being developed 
in ways that would allow States to meet the requirements of the 
American Recovery and Reinvestment Act of 2009 and the America COMPETES 
Act of 2007 and that do not put individual privacy at risk or create 
significant regulatory burdens. The proposed changes are designed to:
    <bullet> Strengthen enforcement. We need stronger, more specific 
enforcement authority against entities (SEAs, student loan guaranty 
agencies, student loan lenders and nonprofits) that receive our funds, 
regardless if they have students in attendance.
    <bullet> Ensure the safety of students. Schools need to have the 
flexibility to implement directory information policies that limit 
access to the information to prevent marketers or criminals from 
accessing the data but allow flexibility to pursue mundane uses of 
information such as yearbooks without getting consent.
    <bullet> Ensure that our taxpayer funds are invested wisely in 
effective programs. It is vital to ensure that all State or federally 
funded education programs are adequately preparing children for success 
in the next stage of life, whether that is in kindergarten or the 
workforce. It is critical that we assess all taxpayer funded programs 
so that we target our investments effectively and learn what works and 
what does not. Currently there are perceived barriers to collecting 
this information that need to be fixed and regulatory burdens that do 
not increase the privacy protections afforded students that need to be 
addressed.

    10. The Administration's budget request includes very few concrete 
proposals to address the growing and unsustainable costs of the Pell 
Grant program. Although we need bold ideas, you gave us short-term 
fixes. Why has the Pell Grant program almost doubled in size in two 
years, and how does the Administration propose to address the problem 
five or ten years down the line?

    In recent years, the Pell grant program has undergone significant 
growth. Since 2008, we have seen our investment more than double, with 
an additional 3 million students receiving grants. The growth is 
primarily driven by the economy and higher enrollments. Other factors 
include the ``Two Pells'' provision, the auto-zero expansion, and the 
higher maximum award. In response to the growing costs of the Pell 
Grant program as currently structured, the Administration proposed a 
range of measures to reform program operations and funding. Our efforts 
to place Pell on a secure financial footing, rather than simply 
implementing a temporary fix, are at the center of our budget proposal. 
In particular, our Pell Grant Protection Act proposal will help ensure 
that students continue to receive the maximum grant of $5,550, even in 
these challenging times. The single largest step is the elimination of 
the provision allowing for two Pell Grants per year. The cost of this 
policy is between $4 and $6 billion a year--more than 10 times higher 
than expected--and questions remain about whether the policy has 
meaningfully accelerated students' degree completion. (The elimination 
of this authority was included in the continuing resolution that 
provides funding for federal operations for the remainder of FY 2011.) 
In addition, we propose to reduce loan subsidies for graduate and 
professional student borrowers, allow borrowers whose loan servicing is 
split among banks and the Department of Education's loan servicing 
contractors to convert such servicing with a single servicer, and 
expand the Perkins Loan program as a lower-cost alternative to private 
student loans. Collectively, these tough choices and options will save 
over $100 billion over the next decade and will put the Pell program on 
firmer financial footing. It remains our priority to protect the 
maximum grant of $5,550 and ensure that we don't force students out of 
the Pell Grant program. Also, through initiatives like reforming 
community colleges, College Completion Incentive Grants, and the Fund 
for Improvement of Postsecondary Education (FIPSE) ``First in the 
World'' competition, the Department is working to help more students 
graduate from college and to help them graduate sooner.

    11. More than 2,000 nonprofit colleges and universities have 
students with extremely low graduation rates who leave those 
institutions with massive student loan debt levels. Provide specific 
examples of what oversight the Department is conducting of the 
nonprofit sector.

    The Department is committed to supporting improved college outcomes 
that help students succeed and protect the taxpayer investment in the 
federal student aid programs. A specific example of reform that the 
Department is conducting of the nonprofit sector is enhancing our 
efforts around school comprehensive program compliance reviews. This 
process ensures that all institutions that participate in the Title IV 
Federal loan program meet certain standards of quality, and is 
conducted at each of the 6,200 participating schools. This is a 
holistic review of the institution, ensuring that standards are met in 
regards to eligibility and recertification, accreditation and state 
licensing, program reviews and administrative actions, default rates, 
and other complaints received from students or members of the 
community. The Department has increased its capacity to conduct program 
reviews of all institution-types by 50 percent since 2009.
    Additionally, the Department of Education is attempting to set 
minimum standards for postsecondary programs that are required by the 
Higher Education Act of 1965 (HEA) to lead to ``gainful employment in a 
recognized occupation.'' These standards will apply to all career 
education programs, including certificate programs at public and non-
profit institutions.
    As part of our broader reform agenda, Congress made a $2 billion 
investment over the next four years through the Trade Adjustment 
Assistance Community College and Career Training Grants program. The 
program will reward evidence-based practices that lead to successful 
student outcomes for students who enroll in community colleges. In 
addition, institutions will be encouraged to apply to develop a new 
generation of high-quality, cutting-edge shared courses and resources 
to help students learn more quickly, transfer high-impact practices 
more quickly and lower costs and to better meet workforce and industry 
needs.
    The President's FY 2012 Budget request also includes targeted 
investments to help disadvantaged students enroll in and complete 
college. This includes funding through FIPSE to test and fund 
innovative strategies for improving college access, quality, and 
completion, along with the College Completion Incentive Grant proposal 
to reward states and colleges that increase their number of graduates 
with a degree or certificate. These proposals are offset fully as part 
of our higher education and Pell Grant Protection Act proposals.

    12. The proposed College Completion Incentive Grant program would 
provide funds to states to encourage better student outcomes for 
colleges. However, the Department already operates the College Access 
Challenge Grant program. What is the difference between these two 
programs? What positive results have been documented from the Challenge 
Grant program that demonstrate the need to create additional state-
based college programs when the federal government usually operates 
programs focused on institutional aid?

    The proposed College Completion Incentive Grant program (CCIG) is 
designed to provide grants directly to States, who will then make 
payments to institutions linked to measured performance outcomes. To 
participate, States would be required to set goals for increasing the 
number of students who successfully complete college and for closing 
the achievement gap for vulnerable student populations. States would 
also be encouraged to align high school graduation requirements with 
standards for postsecondary academic preparation, create stronger 
articulation agreements among systems and colleges, facilitate student 
transfers, and match Federal funds or provide their own performance 
based funding for institutions. The Department is proposing $1.25 
billion over the course of four years, which is offset fully as part of 
our higher education and Pell Grant Protection Act proposals.
    The purpose of the College Access Challenge Grant Program (CACGP) 
is to foster partnerships among federal, state, and local governments 
and philanthropic organizations through matching challenge grants that 
are aimed at increasing the number of low-income students who are 
prepared to enter and succeed in postsecondary education. The College 
Access Challenge Grant Program is based on a formula designed to meet 
college access needs in each state and does not require states to make 
key policy changes prior to receiving funding. The College Completion 
Incentive Grant is a necessary investment for institutions that do a 
good job of supporting students through to completion, in line with the 
President's goal that the U.S. once again lead the world in college 
attainment by 2020.

    13. What is the Department doing to protect the federal assets 
being held by the guaranty agencies, particularly since these entities 
may have to start winding down without new loans to guarantee? What is 
the Department's plan for the guarantee agencies?

    The Department has increased the frequency of reporting from 
guaranty agencies from annually to monthly and maintains open lines of 
communication with guaranty agencies to ensure protection of Federal 
assets and that these agencies are continuing to provide high-quality 
service to students, borrowers, schools, and lenders. Additionally, 
each guaranty agency must submit an independent audit annually. These 
audits are reviewed by Department staff and inform our oversight of 
each agency. The Department is fully prepared to transition the 
functions of guaranty agencies that wish to leave or otherwise change 
their participation in the FFEL program or if the Secretary believes a 
transition is required to protect Federal assets and maintain high-
quality service. In the past, the Secretary has successfully 
transitioned guaranty agency functions from one agency to another due 
to such circumstances. Moreover, the Department is considering inviting 
guaranty agencies to submit proposals for entering into a Voluntary 
Flexible Agreement with the Secretary, as permitted under the Higher 
Education Act. Under this authority, agencies could be encouraged to 
submit proposals outlining their ideas of how best these agencies could 
individually or collectively ensure all required functions be carried 
out in light of their changing circumstances.

    14. How many federal programs operated by the Department have been 
evaluated for their effectiveness over the last two years and/or five 
years? Please provide a list of all federal education programs 
administered by the Department over the last five years and the 
increase or decrease in the program's budget over the last five years; 
denote whether each individual program has been evaluated within the 
last five years; detail the results of the program evaluations, if any; 
and cite the independent or Departmental source that conducted the 
evaluation.

    The Department has not tracked or consolidated results from all 
individual program evaluations in the exact format described. The links 
below provide lists of evaluations of the Department's programs 
conducted by the Program and Policy Studies Service and the National 
Center for Education Evaluation at the Institute of Education Sciences:

     http://www2.ed.gov/about/offices/list/opepd/ppss/reports.html

          http://ies.ed.gov/ncee/projects/evaluation/index.asp

    The attached document includes a list of programs administered by 
the Department and their funding levels from FY 2008 through the 
President's FY 2012 request.

    15. As was mentioned in the hearing, I am very concerned about 
recent documents that have become available demonstrating that 
Department employees have corresponded with short sellers involved in 
proprietary colleges. I believe it is incumbent on the Department to be 
transparent about short sellers' involvement in the development of the 
gainful employment regulations. Please provide a list of all short 
sellers with whom any Department employee, past or present, including 
contractors, have communicated regarding the gainful employment 
regulation; what information was obtained from such short sellers; and 
how that information was used by the Department. Please also provide 
copies of all communications between all Department employees, 
including contractors, and short sellers regarding the gainful 
employment regulation.

    The Department of Education has operated with utmost integrity and 
transparency in its efforts to protect students and taxpayers. Senior 
officials and staff have reached out to as many people as possible, 
including numerous representatives from the for-profit industry, in its 
efforts to craft the most effective regulations possible--in fact, 
staff have communicated with more parties on all sides of this issue 
than on any other regulatory effort undertaken by the Department in its 
history. The Department received more than 90,000 public comments in 
response to its Notice of Proposed Rulemaking published on July 26, 
2010. The Department believes a broad set of views leads to a more 
informed and positive process.
    Because there is no public list of individuals or institutions with 
short positions on education stocks, we are unable to provide all of 
the records you requested. We will send you the related documents we 
have already released under the Freedom of Information Act.
Representative Tom Petri
    1. The Department published final regulations in the Federal 
Register (75 FR 67170) on November 1, 2010, designed to better regulate 
and eliminate fraud and abuse by foreign institutions. However, I am 
concerned that these regulations may have two significant unintended 
consequences and am hoping that the Department can clarify its intent 
on these two issues.
    My questions relate to non-profit American institutions that are 
located outside of the United States but which are accredited in the 
U.S. and authorized by U.S. states to operate.
    This includes institutions such as the American University of 
Paris, the American University in Cairo, and the American University in 
Beirut.
    Under these new regulations, it is my understanding that the 
Department requires institutions it designates as ``foreign schools'' 
to be authorized to operate by their host governments and for these 
governments to recognize the school's diplomas as a prerequisite for 
the schools to be eligible to administer Title IV student loan funds.
    I am very concerned that the second part of this requirement will 
be difficult to meet for American international colleges and 
universities because these schools often offer American-style degrees 
focusing more on a liberal arts education, something that may not be 
consistent with the degree recognition requirements of the countries 
where they reside.
    If this is the case, then these regulations could have the 
extremely unfortunate consequence that American students would not be 
able to use Title IV student loan funds at these American schools if 
the schools are unable to obtain foreign recognition of their degrees. 
This would discourage American students from attending American schools 
in foreign countries at a time when we should be encouraging American 
students to study abroad to gain valuable international experience.
    a) Given that these institutions meet the same requirements in 
terms of accreditation and state authorization as their peer 
institutions in the U.S., and that they are required to show 
authorization to operate from the country in which they are located, 
what is the Department's rationale for also requiring these schools to 
obtain foreign recognition of the degrees they offer?

    If an institution is not located in a State, under sections 
101(a)(2) and 102(a)(1) of the Higher Education Act of 1965, as amended 
(HEA), it cannot be eligible under the regulations as a domestic 
institution. Rather, under section 102(a)(2)(A) of the HEA, the 
Secretary is required to establish regulatory criteria for the approval 
of foreign institutions and for the determination that they are 
comparable to institutions located in the United States.
    One reason the Department did not rely on accreditation and state 
licensure in this matter is that by statute the Department cannot 
recognize accrediting agencies for their accreditation of foreign 
schools. See HEA 496(a)(1). For this reason, accreditation of foreign 
institutions would not be comparable to the oversight that exists for 
domestic institutions. In addition, States do not have jurisdiction to 
authorize the offering of postsecondary education and credentials in 
foreign countries, nor is there any way by which the Department could 
ensure that a State that ``authorized'' a foreign institution even had 
any of its citizens enrolled. Also, the Department believed it 
important to have oversight of federal tax dollars beyond that which 
might be entailed by a foreign government issuing a business license in 
exchange for a licensing fee and perhaps tax revenue. The final 
regulations you reference were subject to the negotiated rulemaking 
process. This is a process through which the Department works to 
develop proposed regulations in collaboration with representatives of 
the parties who will be significantly affected by the regulations. The 
proposed regulations, published in the Federal Register on July 20, 
2010, were agreed to by all members of the negotiating committee. Final 
regulations were published November 1, 2010, and will be effective July 
1, 2011.

    b) Has the Department taken any steps towards determining what 
institutions might be at risk of losing eligibility for Title IV 
student loans if these institutions are not able to obtain recognition 
of their degrees by their host country? Is the Department concerned 
about the loss of eligibility that may occur for those institutions who 
do not already comply with this requirement? If so, is the Department 
taking action to remedy this situation?

    We have evaluated documents from five institutions, including the 
American University of Paris, the American University of Cairo, and the 
American University of Beirut. Thus far, we have not determined that 
any institution is out of compliance with these requirements. In 
addition, we have reviewed our files to identify all of the other 
similarly situated institutions (there are fewer than ten), and have 
begun obtaining information relevant to these requirements regarding 
those institutions. We will be in contact with institutions if 
additional information is needed and are committed to working with 
institutions to identify the options available for demonstrating 
compliance with these requirements.

    c) Would permitting the Department to make separate regulations for 
these American international colleges and universities solve this 
problem?

    Establishing a separate category of eligible institutions 
specifically for these colleges and universities would be one way to 
address this problem.

    2. I am very concerned that these new regulations would also 
prohibit American students who are pursuing a degree abroad at American 
international colleges and universities from using Title IV funds to 
study in the U.S. at accredited U.S. colleges and universities for a 
semester or a year as part of their program (without having to take 
additional steps of withdrawing from the international college or 
university). Can you clarify the Department's rationale for prohibiting 
U.S. students from using Title IV aid to attend accredited U.S. 
institutions in the U.S.?

    The final regulations were developed for several reasons. To begin 
with, the rules will prevent abuses by institutions that seek to 
circumvent other Federal requirements by more clearly distinguishing a 
foreign institution from a domestic institution. For example, these 
regulations prevent a domestic institution that has established an 
offshore location but expects the majority of its students' coursework 
to be completed in the United States from claiming to be a foreign 
institution to avoid the requirements applied to domestic institutions, 
such as recognized accreditation. In addition, the Department wants 
U.S. students attending postsecondary institutions in the United States 
to be eligible for the full range of Title IV, HEA program funds 
available to domestic institutions. It does not want a foreign 
institution to send its U.S. students to a U.S. location of a foreign 
institution, or to a U.S. institution with which it has an agreement 
for their education, because students enrolled in a foreign institution 
are only eligible for Direct Loans. For this reason, the Department 
believes that for U.S. students who wish to attend a program partially 
in the U.S. and in a foreign institution, it is preferable that the 
students enroll in the U.S. institution and attend the foreign 
institution through a written arrangement, rather than the other way 
around. The Department has offered to work with foreign institutions to 
assist them in restructuring their programs in this manner in order to 
continue to make Title IV Federal student financial aid available to 
U.S. students who attend them.
Representative Virginia Foxx
    1. Other than the Individuals with Disabilities Education Act 
(IDEA), is there a single program in the Department that has 
demonstrated measured success as a direct result of spending from the 
federal government? Can you prove anything has come out of one dollar 
of spending from the federal government?

    The Department of Education invests in a number of programs that 
have demonstrated measured success. In addition to IDEA, Title I, Part 
A and Title III of the Elementary and Secondary Education Act have 
resulted in significant increases in achievement for students targeted 
by these programs. For example, since 1996 on the National Assessment 
of Educational Progress (NAEP), 4th grade math scores for students 
eligible for the National School Lunch program have increased 20 points 
to 227. Over the same period, 4th grade math NAEP scores for English 
Learners have increased 17 points.
    In higher education, where Pell Grants are the foundation of 
student aid, the percentage of low-income high school graduates 
continuing on to college has nearly doubled in the last 30 years. The 
Department has also provided institutional aid to Historically Black 
Colleges and Universities, Hispanic Serving Institutions and other 
Minority Serving Institutions that serve as the backbone of higher 
education for many communities across the country and are critical to 
college access for many minority students.
    Investments made by the Department have also leveraged significant 
reform throughout the country. Race to the Top made it possible for 
states to develop groundbreaking, comprehensive reform plans and make 
significant progress on issues that were previously considered 
intractable. These reforms are moving forward in both winning and non-
winning states.
    But we need to do more as there are still significant achievement 
gaps. And, there are too many students dropping out of school, and not 
enough students completing postsecondary education.
    Building the evidence base is a key part of new programs in the 
Department such as Investing in Innovation (i3). The program includes 
an evidence requirement for the Department to provide less funding for 
applicants with less evidence and more funding for applicants with more 
evidence. Each i3 grantee is also required to conduct a rigorous 
program evaluation to further build the evidence base for future 
proposals.
Representative Richard Hanna
    1. When was the last time the Department conducted a comprehensive 
audit of all its regulations to determine the cost passed down to 
schools and the number of hours spent implementing these regulations by 
state educational agencies and local educators?

    The President issued a memorandum to Executive Departments and 
Agencies in February calling on Federal agencies to work with State, 
Tribal, and local governments to reduce unnecessary regulatory and 
administrative burdens in order to focus resources on achieving better 
outcomes at lower cost. The Department will be working with OMB and 
other agencies on this effort and is required to identify regulatory 
and administrative requirements that can be streamlined, reduced, or 
eliminated, and where increased State flexibility could be provided to 
achieve the same or better outcomes at lower cost.
    The Department is also required under the Paperwork Reduction Act 
of 1995 (PRA) to estimate the burden on grantees and subgrantees for 
maintaining and collecting information under programs of the 
Department. The Department is required under the PRA to calculate the 
costs of these burdens whenever a new requirement to maintain or 
collect information or is established and reconsider those burdens 
every three years thereafter. Each time that a new information 
requirement to collect or maintain information is established or 
reconsidered, the public has the opportunity to comment on the 
reasonableness of these estimates through the PRA review process, which 
requires the Department to publish notices in the Federal Register 
soliciting public comment on the proposed burdens.
Representative Todd Rokita
    1. The budget request put forward by President Obama for the 
Department represents a 10.7 percent increase over current levels. In 
the last three years, the Department has had nearly a 68 percent 
increase in its budget. At a time when we are asking most American 
families to tighten their belts and survive in a weakened economy, how 
can the Administration responsibly ask for this level of funding?

    The Department's budget request includes many tough choices, 
including reductions in spending, program eliminations, and 
consolidations. To rein in Pell costs, the Budget proposed eliminating 
the ``Two Pells'' policy and changes to student loan programs to 
generate significant savings to support Pell Grants. The proposed 
reduction in career and technical education (CTE) funding indicates our 
support for fiscal discipline as well as a recognition that the CTE 
system is characterized by uneven quality and has limited high-quality 
data on student outcomes. The Budget also proposes the elimination of 
13 programs and the consolidation of 38 programs into 11 new 
authorities aligned with the Administration's Elementary and Secondary 
Education Act (ESEA) reauthorization proposal.
    The Budget, however, is about balancing critical investments needed 
to grow our economy and targeted cuts that represent responsible 
reductions needed in difficult fiscal times. President Obama has said 
that to win the future, we have to win the education race so that 
``every American is equipped to compete with any worker, anywhere in 
the world.'' That is why his 2012 Budget would provide the resources we 
need to educate our way to a better economy.

    2. Mr. Secretary, you have been on record that within the 
Department's proposed budget you have consolidated 38 programs and 
eliminated 13. While I commend your first steps, there is still more to 
do. You have at least two programs in this budget, totaling $3 billion, 
which would be used to ``recruit, develop, retain and reward effective 
teachers.'' Why do we continue to see duplicative programs within your 
Department?

    Our Excellent Instructional Teams initiative would consolidate nine 
programs that focus on teaching and school leadership into three 
programs better designed to help States and LEAs recruit, prepare, 
support, reward, and retain effective teachers and school leaders, with 
a priority on improving teacher and school leader effectiveness and 
learning for all students. Each of the programs in our proposal has a 
distinct role in driving educator workforce reforms. The Effective 
Teachers and Leaders State Grants program would provide formula grants 
to all States and districts to support the development of rigorous and 
fair teacher evaluation systems that are aligned with professional 
development opportunities and ensuring the equitable distribution of 
effective teachers and leaders. While this formula program would 
support and incentivize all States to implement essential reforms, the 
Teacher and Leader Innovation Fund would make competitive awards to 
States and LEAs willing to implement bold approaches to improving the 
effectiveness of the educator workforce, including innovative 
performance-based compensation systems. The third program in our 
proposal is the Teacher and Leader Pathways program, which would make 
competitive grants to create or expand pathways into teaching, through 
high-quality programs such as teaching residency programs. This 
approach of integrating formula and competitive funding streams would 
be more effective than the current array of largely disconnected 
programs and an important step in realizing our goal of getting great 
teachers into our classrooms and great principals into our schools.

    3. While I know that you are not supportive of a policy of ``Last 
In First Out'' regarding teacher layoffs, and are open to moving 
towards a teacher evaluation model, can you explain to the Committee 
why you support teacher collective bargaining agreements that contain 
provisions about teacher layoffs with no consideration of teacher and/
or student performance?

    We need to look hard at the impact of staffing rules and policies 
on students, especially in high-poverty and low-achieving schools. We 
also have to make sure that the teachers having the biggest impact 
remain in the classroom. But many States and districts don't have 
systems in place that even identify who these teachers are. For this 
reason, one of the Department's greatest priorities in ESEA 
reauthorization is to ask States and districts to develop and implement 
fair, rigorous teacher and principal evaluation systems hat 
meaningfully differentiate teachers and principals by effectiveness and 
are based, in significant part, on student academic growth, but that 
also use other meaningful measures of a teacher's practice and impact. 
These systems will help identify teacher and principals who are 
succeeding. This is an essential step toward enacting State laws, labor 
contracts and personnel practices to support our best teachers and keep 
them in schools. Throughout this process, we are committed to building 
on the successful collaborative efforts taking place across the nation.
    At our labor-management collaboration conference this February, we 
saw teacher leaders, administrators and school board members from 
across the country who have found new ways to work together to focus on 
student success. We expect this collaboration to lead to new contracts 
and agreements that will dramatically improve the way teachers teach 
and students learn, and that will focus efforts on improving student 
learning. We are learning from these successful collaborative efforts 
and challenging other districts to take action. Collective bargaining 
agreements can be a tool to drive student achievement. Bold reforms are 
most achievable, most effective, and most sustainable when they are 
designed and implemented in collaboration with teachers.
Representative Kristi Noem
    1. Mr. Secretary, the budget proposal converts several formula 
programs to competitive grant programs. It includes a rural priority 
for many of these programs. How will the conversion to competitive 
grants impact rural communities and how will this new priority work in 
practice?

    The President's budget maintains funds for the Rural Education 
Achievement program (REAP) and other critical formula programs, such as 
Title I, Title II-A, and the Individuals with Disabilities Education 
Act, that support schools in rural areas and elsewhere. At the same 
time, the budget invests in high-impact initiatives that make the best 
use of scare resources and drive reform. All schools, including rural 
schools, will benefit from competition that drives reform, spurs 
innovation, and rewards success. In some cases, we believe that 
competition provides the best framework to challenge the status quo and 
improve student outcomes. The Department will use a number of 
strategies to better support prospective rural applicants and ensure 
that size and geography do not prevent rural schools from having a fair 
chance to successfully compete. In the Race to the Top district 
competition and Investing in Innovation programs included in our FY 
2012 budget, we propose to carve out funds for rural applicants to 
ensure that a portion of funds goes to rural areas. In other grant 
competitions, the Department will use absolute priorities and 
competitive priority points to level the playing field for remote 
schools with limited resources and staff. Other strategies to ensure 
that rural districts can successfully compete include recruiting and 
training peer reviewers with rural expertise, providing additional 
technical assistance, holding pre-application webinars, and encouraging 
consortia and partnerships to increase capacity, expertise, and 
resources for rural applicants. For this last strategy, the Department 
has encouraged small schools and districts to work with Educational 
Service Agencies (ESAs), colleges, and universities. We have also 
engaged the philanthropic and nonprofit communities in an effort to 
better support high-need rural schools. Completing our set of 
strategies, we will work to increase States' capacity to support rural 
schools and districts through the work of our Comprehensive Centers as 
well as by providing technical assistance to REAP State Coordinators.

    2. Mr. Secretary, Impact Aid payments to some school districts are 
years behind. What is the Department doing to improve payment times to 
these districts?

    We recognize that historically, there has been a problem of delays 
in getting final grant payments out and we are taking steps to fix it. 
We know it is important to get districts these funds, especially in 
difficult budget times.
    One obstacle to getting final grant payments out in a timely 
fashion has been delays in determining estimated assessed values (EAV) 
for the federal property within the section 8002 program--payments 
relating to Federal acquisition of real property. We are interested in 
working with Congress to streamline this process from a prolonged back-
and-forth with a small number of districts over the correct property 
value, delaying allocations. The Department's Impact Aid office has 
made significant progress speeding up processing of these payments and 
has dedicated additional staff to support the effort. Beginning with FY 
2010, new section 8002 regulations adopted in 2008 changed the 
application procedures to require reviews of all applicants. Because 
FYs 2010 and 2011 had not been reviewed and the new regulations 
institute a three-year cycle for FYs 2010-2012, we will review 
applications for FYs 2010-2012 concurrently. This action will ensure 
that we are able to catch up to the current application year (FY 2012) 
and decrease the backlog in payments. The Impact Aid office has closed 
and finalized payments for FYs 2006, 2007, and 2008 and is currently 
working to close out payments for FY 2009 by the end of the summer.
Representative Robert Scott
    1. How does the Department intend to structure its response to 
schools that are not making adequate yearly progress (AYP)? Currently, 
responses are targeted to the entire school or to groups of students 
that may not need it. Does the Department intend to target assistance 
specifically to those groups of students within a school who need it 
most?

    Under the Administration's proposal for ESEA reauthorization, the 
current system of AYP would be replaced by a system that focuses on the 
5 percent of schools that represent the lowest achieving schools in the 
State that also are not improving, the next 5 percent of such schools, 
and schools with persistent achievement gaps. The bottom 5 percent of 
schools would be required to implement dramatic reform strategies to 
support better outcomes for students, and the next 5 percent of schools 
would be required to implement research-based, locally determined 
strategies to help them improve. Schools with persistent achievement 
gaps would target data-driven interventions to support those students 
who are furthest behind and close the achievement gap. By asking states 
to identify these schools with the largest achievement gaps, our 
proposal would ensure that States and districts focus on the students 
furthest behind. Beyond these categories of particularly high need 
schools, states would be required to have a plan to differentiate and 
support all of their schools, which should include how the State will 
determine what each school's needs are and how it should focus 
improvement efforts.

    2. What is the Department's strategy to ensure that more students 
attend and complete their college education?

    A wide range of factors influence a student's ability to attend 
college and earn their degree. The Department has adopted a broad 
strategy to address each of these issues in an effort to improve both 
college enrollment and degree completion rates as it works to achieve 
President Obama's goal of ensuring that the United States once again 
leads the world in college completion. The Department also is pursuing 
opportunities to raise awareness of promising practices that individual 
institutions and States are engaging in that others may wish to adopt. 
We incorporated the goal of improving postsecondary student outcomes 
relating to enrollment, persistence, and completion into the 
Department's supplemental priorities, which were published in the 
Federal Register in 2010 and are now being used in a number of 
discretionary grant programs. The Department has been using the 
priority related to improving postsecondary student outcomes relating 
to enrollment, persistence, and completion in all appropriate 
discretionary grant competitions to ensure that every available 
Department resource is used to effectively address the issue of 
completion. Moreover, the Department recently published a College 
Completion Tool Kit, which details how States can use existing programs 
and funding, such as the Educational Opportunity Centers program and 
College Access Challenge Grants, to significantly improve degree 
completion rates at their postsecondary institutions. Looking beyond 
its own programs, the Department is partnering with the Department of 
Labor to assist with the implementation of community college support 
programs across multiple agencies.
    In addition to incorporating the completion agenda into existing 
programs, the President's 2012 budget request proposes several targeted 
investments to help disadvantaged students enroll in and complete 
college. The Administration has proposed the creation of a College 
Completion Incentive Grant program designed to, among other things, 
help States align high school graduation standards to postsecondary 
academic requirements and support postsecondary institutions as they 
develop ways to measure and use performance outcomes. Similarly, a 
``First in the World'' competition would refocus the FIPSE program on 
the most needed and likely-to-succeed institutional reform efforts. 
And, the Advanced Research Projects Agency for Education (ARPA-ED) 
would help to support broad transformational change in American higher 
education. The Department will continue to use all of its resources to 
highlight the issue of college completion and productivity and make a 
compelling case for action.

    3. Every child and every classroom deserves a qualified and 
effective teacher, not simply someone who appears highly qualified on 
paper. How does the Department intend to gauge whether a teacher is 
actually effective in the classroom? In addition, how will this be 
gauged without creating an anti-collaborative atmosphere? In other 
words, teachers may not want to collaborate or take on lower-performing 
students if it will adversely affect their performance rating. How does 
the Department intend to balance the need for qualified and effective 
teachers with collaborative environments and promote professional 
development for underperforming or ineffective teachers?

    Through Race to the Top, our proposals for ESEA reauthorization, 
and other initiatives and programs, we are supporting the development 
and implementation of teacher and principal evaluation systems that 
take into account multiple measures, giving significant weight to the 
teacher's track record of improving student learning, while also 
considering other meaningful measures of a teacher's instructional 
practice. The measurement of a teacher's impact on student learning 
should be based on the progress a student makes over the course of the 
year, not just on one test on one day.
    These systems should be designed in collaboration with teachers and 
based on fair, rigorous measures that take good teaching as seriously 
as the profession deserves. Schools and systems that do this work 
successfully cultivate strong, supportive school cultures that use 
evaluation systems to identify ways for teachers to better collaborate 
and learn from each other. Currently, too many evaluation systems just 
label 99 percent of teachers as satisfactory and do little to help 
teachers improve. Our Excellent Instructional Teams initiative in our 
ESEA proposal places a priority on providing teachers the support they 
need and on building a culture where collaboration is the norm. From 
pre-service to induction and throughout a teacher's career, we believe 
that professional development should be school-based, job-embedded, and 
provide opportunities for educators to work collaboratively, such as 
through classroom coaching, data analysis teams, peer observation, and 
the provision of common planning time. Systems that identify teacher 
strengths and needs, connect teachers with mentorship and professional 
development opportunities, and recognize and retain great teachers 
(like the ones our proposals will support) can ensure a qualified and 
effective teacher for every child, and a strong, supportive school 
environment for every teacher.

    4. While recognizing that AYP as we currently know it may change in 
ESEA reauthorization, it is nonetheless imperative that all schools are 
held accountable by the federal government for the performance of all 
students. Is the Department committed to federal accountability for all 
schools and all students? Does the Department intend to include a 
meaningful high school graduation rate factor as part of the new 
accountability system and if so, what will that look like?

    The Department is absolutely committed to strong accountability for 
all schools and all students. Our proposal for ESEA reauthorization 
includes a fair, flexible, and focused accountability system that 
requires dramatic change in the 5 percent of schools that represent the 
lowest achieving schools in the State that also are not improving, and 
research-based, data-driven interventions in the next 5 percent of such 
schools, and schools that are not closing significant, persistent 
achievement gaps. Beyond these particular categories, States would be 
required to have a plan to differentiate and support all of their 
schools, and determine what actions to take in improving them. We have 
also proposed meaningful district and state accountability, to ensure 
that all levels of the system are responsible for student success.
    The Department does intend to include meaningful high school 
graduation rates as part of the new accountability system. States, 
districts, and schools would be required to publicly report data on 
four-year adjusted cohort graduation rates, disaggregated by subgroup, 
and states would include graduation rates in their identification of 
schools that are in need of intervention and support.

    5. Are any programs permitted to discriminate based on religion 
using federal funds supplied, granted or otherwise given out by the 
Department of Education?

    The Education Department General Administrative Regulations (EDGAR) 
expressly provide that in the selection of grantees and contractors, 
the Department and grantees shall not discriminate for or against a 
private organization on the basis of the organization's religious 
character or affiliation and that private organizations that receive 
grants or contracts under Department programs may not discriminate 
against a program beneficiary or prospective beneficiary in the 
provision of program services on the basis of religion or religious 
belief. However, these regulations also provide that a religious 
organization's exemption from the Federal prohibition on employment 
discrimination on the basis of religion is not forfeited when the 
organization receives assistance from the Department or a grantee. 
Additionally, Title IX of the Education Amendments of 1972, which 
prohibits discrimination on the basis of sex, states ``this section 
shall not apply to any educational institution which is controlled by a 
religious organization if the application of this subsection would not 
be consistent with the religious tenets of such organization.'' See 
also the Title IX regulation implementing this provision at 34 CFR 
106.12.

    6. The Department continues to place an emphasis on charter schools 
despite several reports finding that they do not serve students better 
than traditional public school and many in fact perform worse than 
traditional public schools. What is the Department doing to ensure that 
civil rights, including for students with disabilities, are applied to 
charter schools?

    The Department is committed to supporting the establishment and 
maintenance of high-quality public charter schools, including strong 
measures to promote charter accountability, as part of an overall 
comprehensive strategy focused on ensuring that all students have an 
equal opportunity to receive a quality education that will prepare them 
for academic and professional success in an increasingly global world. 
Charter schools must, as must traditional public schools, comply with 
our nation's civil rights laws so that each and every student has equal 
access to a quality education irrespective of race, color, national 
origin, sex, or disability.
    The Department's Office for Civil Rights (OCR) is charged with 
enforcing Title VI of the Civil Rights Act of 1964 (prohibiting 
discrimination based on race, color, or national origin by federal 
recipients); Title IX of the Education Amendments of 1972 (prohibiting 
discrimination based on sex by federal recipients); Section 504 of the 
Rehabilitation Act of 1973 (prohibiting discrimination based on 
disability by federal recipients); and Title II of the Americans with 
Disabilities Act of 1990 (prohibiting discrimination based on 
disability by public entities irrespective of whether they are federal 
recipients). In advancing its mission to bring equity into the 
classroom, OCR and its twelve regional offices use all the tools that 
are at their disposal, including complaint resolutions, compliance 
reviews, policy guidance, and technical assistance.
    OCR remains committed to using its tools to address potential civil 
rights violations at charter schools. For example, of the headquarters-
initiated compliance reviews that will be launched this fiscal year, 
several will involve charter schools. OCR and its twelve regional 
offices also provide technical assistance to federal recipients, 
parents, students, and community stakeholders so that they can better 
understand their rights and responsibilities under our civil rights 
laws.
    Additionally, State educational agencies that apply for grants 
under the Charter Schools Program (CSP) are required to provide in 
their grant application a description of how a charter school that is 
considered an LEA under State law, or an LEA in which the charter 
school is located, will comply with sections 613(a)(5) and 613(e)(1)(B) 
of the Individuals with Disabilities Education Act (IDEA). SEAs that 
receive CSP grants are required to ensure that any charter school 
receiving a subgrant provides assurances that it is in compliance and 
will continue to comply with the Age Discrimination Act of 1975, Title 
VI of the Civil Rights Act of 1964, Title IX of the Education 
Amendments of 1972, Section 504 of the Rehabilitation Act of 1973, and 
Part B of the Individuals with Disabilities Education Act. We closely 
monitor State compliance with this provision, including monitoring 
whether the SEA itself closely monitors its subgrantees to ensure 
ongoing compliance with IDEA and other Federal laws.
    Finally, the Department uses CSP National Activities funds to 
provide technical assistance to charter schools and other charter 
school stakeholders in the area of serving students with disabilities.

    7. Research shows that disparities exist in discipline treatment by 
gender as well as by race and ethnicity for all students, including 
pre-kindergarten students. In fact the Yale University Child Student 
Center conducted a study of almost 4,000 pre-kindergarten classrooms 
representing all 52 of the national state-funded pre-kindergarten 
systems. The research found that African-American students attending 
state pre-kindergarten programs were approximately twice as likely to 
be expelled as preschools of European descent. Further, boys were over 
41/2 times more likely to be expelled than girls. Importantly, these 
data demonstrated that being both a boy and a racial/ethnic minority 
places a preschooler at dramatically greater risk for expulsion. 
African American boys were 8.76 times as likely as African American 
girls to be expelled. Similarly, Latino boys are 6.66 times as likely 
as Latina girls to be expelled. Given that high-quality preschool 
programs improve school readiness and reduce racial/ethnic disparities 
in school readiness, preschool serves as a critical tool in reducing 
the racial/ethnic disparities in achievement in K-12 education. 
Monitoring disparities in discipline of preschoolers now promises to 
encourage local education agencies to address this problem sooner 
rather than later. Delaying examination of disparities in this area 
could contribute to and potentially worsen unequal education 
opportunities. Your testimony suggested that the Department of 
Education intends to address disparities in discipline and expulsion 
rates of students. Could you please explain in greater detail how the 
Department of Education intends to address the disparities in 
discipline and expulsion of students? Also, how does the Department 
specifically intend to address the disparities in expulsion of 
preschool students within its budget and in general?

    The Department's Office for Civil Rights (OCR) is using all the 
tools at its disposal to address the disparities in student discipline 
and help support schools to meet the challenge of adopting effective 
and appropriate disciplinary policies, practices and procedures that do 
not violate a student's civil rights.
    With regard to its enforcement actions, OCR receives and resolves 
approximately three hundred individual complaints annually alleging 
discrimination in the administration of student discipline based on 
race, color, and national origin. Additionally, OCR launched several 
compliance reviews in 2010 and 2011 touching on the administration of 
student discipline under Title VI of the Civil Rights Act of 1964.
    With regard to its technical assistance and policy guidance 
efforts, OCR is developing guidance, in the form of a Dear Colleague 
Letter, that will inform states and districts about their 
responsibilities in avoiding discrimination based on race, color, and 
national origin in the administration of student discipline which would 
apply to all students in schools receiving federal financial 
assistance, including preschool students. Furthermore, OCR in 
partnership with the Educational Opportunities Section of the Civil 
Rights Division of the Department of Justice, convened conferences last 
fall in Washington, DC and San Francisco, CA on civil rights and school 
discipline.
    Finally with regard to data, the Department received Office of 
Management and Budget (OMB) clearance to significantly enhance the data 
it collects on discipline as part of the 2009-10 Civil Rights Data 
Collection (CRDC). This included expanding the types of discipline data 
and collecting separate discipline data for students with disabilities 
and students without disabilities. The revised collection will include 
data on corporal punishment, in-school and multiple suspensions, 
referrals to law enforcement, school-related arrests, and zero 
tolerance policies. The Department anticipates that these data will be 
available in late summer. The Department received approval from OMB to 
collect data from a universe of all LEAs for the 2011-12 CRDC. The last 
time a universal CRDC was conducted was in 2000. The Department also 
received approval from OMB to collect data on suspensions and 
expulsions in preschool programs operated by SEAs and LEAs as part of 
the 2011-12 CRDC. These data, like other data collected by the CRDC, 
will be disaggregated by race/ethnicity, disability, LEP and sex.

    8. Has the Department considered developing data collection 
software for the states in order to help ease their regulatory 
paperwork burden?

    The Department has done significant work to utilize electronic data 
submission processes to streamline the data reporting for State 
educational agencies and maximize the utility of the data. A multitude 
of data collections that were historically done through paper 
collections or non-machine readable formats have been converted into 
less burdensome web-based collection methods to make data reporting 
easier for SEAs.
    This includes, for example, much of the data required by the 
Elementary and Secondary Education Act (ESEA), the Individuals with 
Disabilities Education Act (IDEA), the Gun-Free Schools Act, the 
Consolidated State Performance Report, and the Carl D. Perkins Career 
and Technical (Perkins).
    By moving to electronic data submissions, the burden on States and 
districts can be further reduced by utilizing the data reported once to 
meet multiple requirements. For example:
    <bullet> The Department's Civil Rights Data Collection (CRDC) 
traditionally collects its data directly from LEAs. However LEAs also 
report some of these same data to their SEAs. With the school year 
2009-10 CRDC, the Department was able to use some of the information 
that States submitted to EDFacts so districts didn't have to ``double-
report'' the data on the number of students with disabilities served 
under IDEA or the number of graduates and high school completers at the 
end of the school year.
    <bullet> Most SEAs have been approved to meet the data reporting 
obligations for both ESEA and IDEA by submitting special education data 
once to EDFacts, and no longer need to submit those duplicative data 
elements through the manual process for IDEA.
    <bullet> SEAs approved to meet data reporting obligations for both 
ESEA and Perkins by submitting performance data once to EDFacts no 
longer need to submit those data elements through the manual process 
for Perkins.
    In school year 2008-09, the non-fiscal Common Core of Data 
collection was fully consolidated into the EDFacts collection, which 
alleviated SEAs from doubly reporting these data to the Department each 
year.
Representative Carolyn McCarthy
    1. Secretary Duncan, as you know, I have been an advocate for 
reducing violence, bullying, and other activities that make our schools 
unsafe and make learning difficult. I would like to ask you about the 
consolidation of several existing school safety programs into the new 
Successful, Safe, and Healthy Students program. While I support 
flexibility in funding, I'm concerned about the possibility of losing 
sight of individual priorities within in a consolidated framework. I am 
specifically concerned with cuts to the Readiness and Emergency 
Management for Schools program. Can you talk about how this new 
approach will address the variety of different challenges faced by 
schools?

    The proposed Successful, Safe, and Healthy Schools (SSHS) program 
would consolidate several programs into a single framework in order to 
accomplish three major goals:
    1. Improving safe school evaluation by using student surveys to 
assess school-level conditions, so that school officials can monitor 
multiple risk factors and protective factors in order to watch for 
school improvement or decline. By supporting efforts to improve safe 
school evaluation using State and locally chosen student surveys, SSHS 
would enable individual schools to better monitor and respond to a 
broader range of health and safety priorities, including risk factors 
(such as student weapons possession, physical fights, bullying, 
harassment, substance use, and teen dating violence) and protective 
factors (such as student engagement, mental health, nutrition, and 
physical activity).
    2. Improving access to financial assistance for the schools and 
school districts with the greatest need for safe school improvement. 
Federal safe school surveillance efforts show that there are pockets of 
youth violence amongst schools. During the 2007-2008 school year, about 
75 percent of schools recorded one or more violent incidents, but 24 
percent recorded 20 or more violent incidents (School Survey on Crime 
and Safety, National Center for Education Statistics.) Under the 
current authorization, the Department administers multiple small, 
competitive grant programs to fund local safe school efforts. Each 
grant program requires educational agencies to spend time and effort 
preparing an application, and, at the end of competition, funds may go 
in a disjointed manner for related but overlapping purposes, making it 
difficult for schools and districts to plan for and implement 
activities that address school safety issues comprehensively. A 
consolidated framework would reduce application burden, help to 
identify unsafe schools by improving school-level assessment, and 
enable states, districts, and schools to implement comprehensive 
programs that focus on schools with greatest need.
    3. Allowing educational agencies to utilize grant funds in a manner 
that suits the unique, local needs of schools and school districts. 
Currently, the Department administers a number of safe school grants, 
each offering a short, fairly restrictive list of program options. 
These grants may not be helpful to an unsafe school that already 
implements the types of activities supported by the programs or has 
needs that don't quite fit into the current criteria. Because many safe 
school programs and activities often allow a school to address a range 
of priorities (improving access to mental health services might be 
selected to address substance use or school violence), we have proposed 
a consolidated framework to ensure that unsafe schools are able to 
access the solutions they need using federal safe school dollars.
    President Obama's FY 2012 budget request would provide $365 million 
for the Successful, Safe, and Healthy Students (SSHS) program. Under 
the national activities authority in this program, we would provide $6 
million for State Emergency Readiness Preparedness, which would provide 
competitive grants to States to help build state-level capacity for 
emergency preparedness and to respond to and recover from emergencies 
and crisis events. Also, we would provide $2.2 million for the 
Readiness and Emergency Management for Schools (REMS) Technical 
Assistance Center, which would allow the Department to continue its 
support of this important investment that has provided technical 
assistance for schools, districts, states, and institutions of higher 
education on emergency management issues. Our proposal to fund grants 
to States is consistent with the National Commission on Children and 
Disasters recommendations to the President and Congress. In this 2010 
report, the Commission recommended that ``competitive disaster 
preparedness grants be awarded to States through the REMS program as an 
initial step toward developing innovative models designed to ensure a 
higher level of school preparedness statewide.''

    2. Secretary Duncan, we have heard the President call on parents to 
take a more active role in their children's education. As you may know, 
Representative Platts and I have been working on this issue within the 
committee, and we have introduced the Family Engagement in Education 
Act. How can the Department and Congress encourage more meaningful 
parental involvement in our efforts to reform the public education 
system?

    The federal government has often contributed to a fragmented and 
non-strategic approach to family engagement by offering small, siloed 
funding streams with narrow purposes and strict requirements. The 
Administration's proposal for ESEA reauthorization would help change 
that by preserving and expanding foundational funding for family 
engagement, similar to the proposal in the bill that you introduced. We 
have proposed doubling the 1 percent set-aside for family engagement in 
Title I and giving more flexibility in working towards key outcomes, as 
well as giving districts a greater share, to enable them to partner 
with nonprofits and coordinate a district-wide approach to engaging 
parents at all levels of schooling and before kindergarten entry. We've 
also proposed, for the first time, allowing states to set aside 1 
percent of their Title I funds to scale up promising and proven 
approaches to family engagement that have been developed by nonprofits 
and districts. We believe this will be a key lever for identifying what 
works and scaling it up.
    Also, instead of thinking of family engagement as a matter of 
particular funding streams, it's important to put in place a context 
for coordinated and aligned strategies that drive towards the most 
important outcomes. That's why our proposals embrace and emphasize the 
vital role that families play in their children's learning at all 
stages of their child's development and academic career. For example, 
we want to make sure that parents know whether their children are 
prepared for college and a career by ensuring that all states have high 
standards and providing families with better data about where their 
students and schools are. This will help empower families to take 
action in their children's learning and improving their schools.

    3. Secretary Duncan, we have heard the administration advance the 
idea of tying teacher pay to the performance of their students. While I 
support using student performance as a component of teacher 
evaluations, I believe that we need to have a more comprehensive 
approach to teacher evaluations. In the 111th Congress, I introduced 
legislation, the Teacher and Principal Improvement Act, which, among 
other provisions, will incorporate the classroom practices of teachers 
along with student performance to provide a more complete picture of an 
individual teacher's performance. Evidence of classroom practices that 
would be evaluated include: observations of the teachers, videos of 
teacher practice, lesson plans, and parent, student, and peer feedback. 
By looking at the actual practices of teachers in the classroom, we 
will be better able to understand teacher effectiveness and evaluate 
teachers on a fairer, evidence-based basis.
    Does the administration support a more comprehensive approach to 
teacher evaluations, such as that contained in my Teacher and Principal 
Improvement Act?

    We agree with you that teacher evaluations should be informed by 
multiple measures, including student growth and also other measures of 
a teacher's instructional practice. Evaluations informed by a rigorous 
and fair set of measures, including student growth in significant part 
but also other measures, can most fairly and effectively inform both 
compensation and also the ways that schools support and develop 
teachers, and connect them with opportunities for collaboration and 
professional growth. This is an approach we have supported through Race 
to the Top and the Teacher Incentive Fund, as well as in our proposals 
for ESEA reauthorization.
    This is an area where many states, either on their own or with the 
support of Race to the Top, are pioneering innovative new approaches to 
measuring teacher classroom practices. Your home state of New York, 
with support from its Race to the Top grant, is in the process of 
developing a teacher evaluation system that includes both student 
growth and also other measures like classroom observations against a 
fair and objective rubric, and student and parent feedback. Systems 
like this--in schools in New York and across the country--will help 
support and advance our teachers, and will help ensure that every 
student benefits from effective teaching.

    4. Secretary Duncan, as you know, I have worked to reduce school 
violence, especially gun violence in our schools. Loopholes exist in 
the Gun-Free Schools Act that prevent us from being as effective as we 
need to be in appropriately monitoring and preventing guns from ending 
up on school campuses. In the 111th Congress, I introduced the Safe 
Schools Against Violence in Education Act which, among other provisions 
would close some of these loopholes and strengthen the protections in 
current law. Specifically, the bill requires that local educational 
agencies report not only expulsions for incidents related to firearms, 
but also include information on incidents leading to suspension as 
well. The bill also expands the scope of current law to include not 
only incidents that occur on school campuses, but also include 
incidents occurring on school buses and events for which the local 
educational authority is responsible. Finally, the bill requires all 
incidents that occur on school grounds, not just those committed by 
students.
    I look forward to working with you and the President to make sure 
our schools are safe and gun free. What steps are being taken by the 
Department to continue to ensure the safety of our schools? 
Specifically, is the Department looking at ways to improve the Gun-Free 
Schools Act?

    The Administration recognizes the need to ensure that schools 
provide a safe and supportive environment free from physical violence 
and substance abuse. As described in the answer to your first question, 
the proposed Successful, Safe, and Healthy Schools (SSHS) program would 
assist schools in fostering a safe environment. Specifically with 
regard to gun safety, the Department is still reviewing options for 
reauthorization of the Gun Free Schools Act.
                                 ______
                                 

                                DEPARTMENT OF EDUCATION SUMMARY OF DISCRETIONARY FUNDS FY 2008-FY 2012 PRESIDENT'S BUDGET
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                   Change from FY2011-
                                               2008           2009        Recovery        2010           2011          2010              FY2012
  Office, account, program and activity   Appropriation  Appropriation      Act      Appropriation  Appropriation  President's -------------------------
                                                                                                                      budget       Amount      Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          ELEMENTARY/SECONDARY EDUCATION (K-12)

Elementary and Secondary Education
 (ESEA):
    Race to the Top.....................             0              0     4,350,000             0            TBD       900,000  ...........  ...........
    Investing in innovation.............             0              0       650,000             0            TBD       300,000  ...........  ...........
    College- and career-ready students      13,898,875     14,492,401    10,000,000    14,492,401            TBD    14,792,401  ...........  ...........
     (Title I grants)...................
    School Turnaround Grants............       491,265        545,633     3,000,000       545,633            TBD       600,000  ...........  ...........
    Early learning challenge fund.......             0              0             0             0            TBD       350,000  ...........  ...........
    Effective teaching and learning:                 0              0             0             0            TBD       383,348  ...........  ...........
     Literacy...........................
    Effective teaching and learning:                 0              0             0             0            TBD       206,046  ...........  ...........
     STEM...............................
    Effective teaching and learning for              0              0             0             0            TBD       246,084  ...........  ...........
     a well-rounded education...........
    College pathways and accelerated                 0              0             0             0            TBD        86,000  ...........  ...........
     learning...........................
    Effective teachers and leaders state             0              0             0             0            TBD     2,500,000  ...........  ...........
     grants.............................
    Teacher and leader innovation fund..             0              0             0             0            TBD       500,000  ...........  ...........
    Teacher and leader pathways.........             0              0             0             0            TBD       250,000  ...........  ...........
    Expanding educational options.......             0              0             0             0            TBD       372,000  ...........  ...........
    Assessing Achievement...............       408,732        410,732             0       410,732            TBD       420,000  ...........  ...........
    Magnet schools assistance (Part C)..       104,829        104,829             0       100,000            TBD       110,000  ...........  ...........
    Promise Neighborhoods...............             0              0             0        10,000            TBD       150,000  ...........  ...........
    Successful, safe and healthy                     0              0             0             0            TBD       364,966  ...........  ...........
     students...........................
    21st century community learning          1,081,166      1,131,166             0     1,166,166            TBD     1,266,166  ...........  ...........
     centers............................
    English Learner Education...........       700,395        730,000             0       750,000            TBD       750,000  ...........  ...........
    Impact Aid..........................     1,240,717      1,265,718       100,000     1,276,183            TBD     1,276,183  ...........  ...........
    Other ESEA..........................     6,506,141      6,148,589       850,000     6,151,979            TBD       877,992  ...........  ...........
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal, Elementary/Secondary        24,432,121     24,829,068    18,950,000    24,903,094            TBD    26,701,186  ...........  ...........
       Education........................
Special Education (IDEA):
    Grants to States (Part B)...........    10,947,511     11,505,211    11,300,000    11,505,211            TBD    11,705,211  ...........  ...........
    Other IDEA..........................     1,034,382      1,066,371       900,000     1,073,729            TBD     1,113,045  ...........  ...........
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal, IDEA....................    11,981,893     12,571,582    12,200,000    12,578,940            TBD    12,818,256  ...........  ...........
    State Fiscal Stabilization Fund.....             0              0    48,600,000             0            TBD             0  ...........  ...........
    Career and technical education State     1,160,911      1,160,911             0     1,160,911            TBD     1,000,000  ...........  ...........
     grants.............................
    Other K-12..........................       358,986        377,306       170,000       389,377            TBD       258,639  ...........  ...........
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal, Elementary/Secondary        37,933,911     38,938,867    79,920,000    39,032,322            TBD    40,778,081  ...........  ...........
       Education........................

Postsecondary Education:
    Federal Pell grants (net)...........    14,215,000     17,288,000    15,640,000    17,495,000            TBD    28,600,059  ...........  ...........
    Other Student Financial Aid.........     1,866,136        981,973       200,000     1,801,809            TBD     1,737,957  ...........  ...........
    TRIO................................       828,178        848,089             0       853,089            TBD       920,089  ...........  ...........
    Other Postsecondary Education.......     1,581,336      1,625,250             0     1,785,990            TBD     1,738,326  ...........  ...........
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal, Postsecondary Education.    18,490,650     20,743,312    15,840,000    21,935,888            TBD    32,996,431  ...........  ...........
Other Discretionary:
    Research, development, and                 159,696        167,196             0       200,196            TBD       260,413  ...........  ...........
     dissemination......................
    Statistics..........................        88,449         98,521             0       108,521            TBD       117,021  ...........  ...........
    National assessment.................        98,121        130,121             0       130,121            TBD       135,121  ...........  ...........
    Statewide data systems..............        48,293         65,000       250,000        58,250            TBD       100,000  ...........  ...........
    Departmental Management.............     1,247,578      1,338,249        74,000     1,407,679            TBD     1,749,415  ...........  ...........
    Other Programs and Activities.......     1,144,769      1,164,933       680,000     1,261,879            TBD     1,263,909  ...........  ...........
                                         ---------------------------------------------------------------------------------------------------------------
      Total, ed discretionary funds.....    59,211,468     62,646,199    96,764,000    64,134,856            TBD    77,400,391  ...........  ...........
      Total, ed discretionary without       44,996,468     45,358,199    81,124,000    46,639,856            TBD    48,800,332  ...........  ...........
       Pell.............................
--------------------------------------------------------------------------------------------------------------------------------------------------------
The Department is in the process of completing a funding table for FY 2011, based on H.R. 1473/Public Law 112-10. We will update this table with that
  information as soon as possible

                                ------                                

    [Whereupon, at 5:08 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
